No. ________
IN THE

Supreme Court of the United States
ADIDAS AG,

Petitioner,
v.
NIKE, INC.,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit
PETITION FOR A WRIT OF CERTIORARI
MITCHELL G. STOCKWELL
KILPATRICK TOWNSEND & STOCKTON LLP
1100 Peachtree Street
Suite 2800
Atlanta, GA 30309
(404) 815-6500

ADAM H. CHARNES
Counsel of Record
KILPATRICK TOWNSEND & STOCKTON LLP
2001 Ross Avenue
Suite 4400
Dallas, TX 75201
(214) 922-7106
acharnes@kilpatricktownsend.com

Attorneys for Petitioner

QUESTIONS PRESENTED
1.

Whether, for purposes of the Appointments Clause, U.S. Const. Art. II, § 2, Cl. 2,

administrative patent judges of the U.S. Patent and Trademark Office are principal officers who
must be appointed by the President with the Senate’s advice and consent, or “inferior Officers”
whose appointment Congress has permissibly vested in a department head.
2.

Whether, if administrative patent judges are principal officers, the court of appeals

properly cured any Appointments Clause defect in the current statutory scheme prospectively by
severing the application of 5 U.S.C. § 7513(a) to those judges.

ii
PARTIES TO THE PROCEEDINGS
adidas AG was petitioner in the proceeding before the Patent Trial and Appeal Board and
appellant in the court of appeals.
Nike, Inc. was the patent owner in proceedings before the Patent Trial and Appeal Board
and the appellee in the court of appeals.

iii
RULE 29.6 DISCLOSURE STATEMENT
Petitioner adidas AG has no parent or publicly held company owning 10% or more of its
stock.

iv
RELATED CASES
•

adidas AG v. Nike, Inc., No. 2018-1180, -1181, U.S. Court of Appeals for the Federal
Circuit. Judgment Entered July 2, 2018.

•

adidas AG v. Nike, Inc., No. 2019-1787, -1788, U.S. Court of Appeals for the Federal
Circuit. Judgment Entered June 25, 2020.

v
TABLE OF CONTENTS
QUESTIONS PRESENTED ................................................................................................ i
PARTIES TO THE PROCEEDINGS ................................................................................... ii
RULE 29.6 DISCLOSURE STATEMENT.......................................................................... iii
RELATED CASES ........................................................................................................... iv
PETITION FOR A WRIT OF CERTIORARI ....................................................................... 1
OPINIONS BELOW .......................................................................................................... 1
JURISDICTION ................................................................................................................ 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ................................. 2
STATEMENT OF THE CASE............................................................................................ 2
A.

The Arthrex Decision and Subsequent Remands .............................................. 2

B.

This Court’s Grant of Certiorari ..................................................................... 4

C.

The Proceedings in this Matter....................................................................... 6

REASONS FOR GRANTING THE PETITION .................................................................... 7
CONCLUSION ............................................................................................................... 11

vi
TABLE OF AUTHORITIES
Cases
adidas AG v. Nike, Inc.,
894 F.3d 1256 (Fed. Cir. 2018) ........................................................................................ 1
adidas AG v. Nike, Inc.,
963 F.3d 1355 (Fed. Cir. 2020) ........................................................................................ 1
adidas AG v. Nike, Inc.,
No. IPR2016-00921, 2017 WL 4764802 (P.T.A.B. Oct. 19, 2017) ...................................... 1
adidas AG v. Nike, Inc.,
No. IPR2016-00921, 2019 WL 764060 (P.T.A.B. Feb. 19, 2019) ........................................ 1
adidas AG v. Nike, Inc.,
No. IPR2016-00922, 2017 WL 4772296 (P.T.A.B. Oct. 19, 2017) ...................................... 1
adidas AG v. Nike, Inc.,
No. IPR2016-00922, 2019 WL 764425 (P.T.A.B. Feb. 19, 2019) ........................................ 1
Arthrex, Inc. v. Smith & Nephew, Inc.,
941 F.3d 1320 (Fed. Cir. 2019) .............................................................................. passim
Arthrex, Inc. v. Smith & Nephew, Inc.,
941 F.3d 1320 (Fed. Cir. 2019) (P.T.A.B. May 1, 2020) ..................................................... 4
Arthrex, Inc. v. Smith & Nephew, Inc.,
No. 19-1458 (June 30, 2020) ............................................................................. 5, 6, 7, 11
Bedgear, LLC v. Fredman Bros. Furniture Co.,
779 F. App’x 748 (Fed. Cir. 2019) ................................................................................... 3
Curtis Publ’g Co. v. Butts,
388 U.S. 130 (1967) ..................................................................................................... 10
Customedia Techs., LLC v. Dish Network Corp.,
941 F.3d 1173 (Fed. Cir. 2019) ........................................................................................ 4
Edmond v. United States,
520 U.S. 651 (1997) ............................................................................................... 4, 5, 7
Ethicon Endo-Surgery, Inc. v. Covidien LP,
812 F.3d 1023 (Fed. Cir. 2016) ........................................................................................ 3
Freytag v. Comm’r,
501 U.S. 868 (1991) ..................................................................................................... 10

vii
Harper v. Va. Dep’t of Taxation,
509 U.S. 86 (1993) ....................................................................................................... 10
PHH Corp. v. Consumer Fin. Prot. Bureau,
839 F.3d 1 (D.C. Cir. 2016),
rev’d en banc, 881 F.3d 75 (D.C. Cir. 2018) ................................................................... 10
SAS Institute Inc. v. Iancu,
138 S. Ct. 1348 (2018) ................................................................................................ 1, 7
Trading Techs. Int’l, Inc. v. IBG LLC,
771 F. App’x 493 (Fed. Cir. 2019) ................................................................................... 3
United States v. Arthrex, Inc.,
No. 19-1434 (July 24, 2020) .............................................................................. 5, 7, 8, 11
United States v. Arthrex, Inc.,
No. 19-1434, 2020 WL 3545866 (June 25, 2020) .............................................................. 5
United States v. Arthrex, Inc.,
No. 19-1452 (July 24, 2020) .............................................................................. 5, 7, 8, 11
Ward v. Village of Monroeville,
409 U.S. 57 (1972) ......................................................................................................... 9
Withrow v. Larkin,
421 U.S. 35 (1975) ..................................................................................................... 8, 9
Statutes
28 U.S.C. § 1254(1) ........................................................................................................... 2
35 U.S.C. § 6(a) ................................................................................................................. 4
5 U.S.C. § 7513(a) ......................................................................................................... 3, 8
Other Authorities
Boardside Chat: New Developments,
USPTO.gov (Jun. 11, 2020),
https://www.uspto.gov/sites/default/files/documents/PTAB_boardside_chat_ne
w_trial_stats_sas_and_operational_faqs_06_11_2020.pdf .................................................. 9
Trial Statistics IPR, PGR, CBM,
USPTO.gov, at 6 (Sept. 2020),
https://www.uspto.gov/sites/default/files/documents/trial_statistics_20200930.p
df ................................................................................................................................. 9

viii
U.S. Const. Art. II, § 2, Cl. 2 ........................................................................................... 2, 4

PETITION FOR A WRIT OF CERTIORARI
Petitioner adidas AG respectfully requests a writ of certiorari to review the judgment of the
United States Court of Appeals for the Federal Circuit. On October 13, 2020, this Court granted
the petitions for certiorari in Nos. 2018-2140, 19-1452, and 19-1458, all limited to Questions 1
and 2 as set forth in the July 22, 2020 Memorandum for the United States. As explained further
below, adidas respectfully submits that this petition should be held pending the disposition of the
writs of certiorari (Nos. 19-1434, 19-1452, and 19-1458) that have been granted to review the
Federal Circuit’s decision in Arthrex, Inc. v. Smith & Nephew, Inc., 941 F.3d 1320 (Fed. Cir. 2019).
OPINIONS BELOW
The June 25, 2020, opinion of the United States Court of Appeals for the Federal Circuit,
is published at adidas AG v. Nike, Inc., 963 F.3d 1355 (Fed. Cir. 2020), and addresses case nos.
2019-1787, 2019-1788. It is reprinted in the Appendix to the Petition (“App.”) at App. A.
The initial final written decisions of the Patent Trial and Appeal Board (“PTAB”) are
reprinted at App. E & F and were reported at adidas AG v. Nike, Inc., No. IPR2016-00922, 2017
WL 4772296 (P.T.A.B. Oct. 19, 2017); adidas AG v. Nike, Inc., No. IPR2016-00921, 2017 WL
4764802 (P.T.A.B. Oct. 19, 2017). Following this Court’s decision in SAS Institute Inc. v. Iancu,
138 S. Ct. 1348 (2018), the Federal Circuit remanded to address non-instituted ground. adidas AG
v. Nike, Inc., 894 F.3d 1256 (Fed. Cir. 2018). On remand, the PTAB issued final written decisions
that are reprinted at App. B & C, and that were reported at adidas AG v. Nike, Inc., No. IPR201600922, 2019 WL 764425 (P.T.A.B. Feb. 19, 2019); adidas AG v. Nike, Inc., No. IPR2016-00921,
2019 WL 764060 (P.T.A.B. Feb. 19, 2019).
JURISDICTION
The judgment of the Federal Circuit was entered on June 25, 2020. App. A. No petition for
rehearing was filed. On March 19, 2020, the Court extended the time within which to file any

2
petition for a writ of certiorari due on or after that date to 150 days from the date of the lowercourt judgment, order denying discretionary review, or order denying a timely petition for
rehearing. The effect of that order was to extend the deadline for filing this petition for a writ of
certiorari to November 22, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. §
1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Appointments Clause, U.S. Const. Art. II, § 2, Cl. 2, provides:
[The President] shall nominate, and by and with the Advice and Consent of the
Senate, shall appoint Ambassadors, other public Ministers and Consuls, Judges of
the Supreme Court, and all other Officers of the United States, whose Appointments
are not herein otherwise provided for, and which shall be established by Law: but
the Congress may by Law vest the Appointment of such inferior Officers, as they
think proper, in the President alone, in the Courts of Law, or in the Heads of
Departments.
STATEMENT OF THE CASE
Should this Court affirm the Federal Circuit’s decision in Arthrex, the Board’s final written
decisions finding that certain patents owned by respondent Nike, Inc. (Nike) are patentable should
be vacated. Because this Court’s disposition of the now granted petitions in the Arthrex cases will
directly address that issue, adidas respectfully submits that the instant petition should be held
pending this Court’s disposition of the Arthrex case, and then disposed of accordingly.
A.

The Arthrex Decision and Subsequent Remands

Administrative Patent Judges (“APJs”) who sit on the Board exercise substantial
adjudicative authority but are not appointed by the President with the advice and consent of the
Senate. In several instances, litigants have challenged the authority of the APJs under the

3
Appointments Clause. After repeatedly rejecting such challenges,1 on October 31, 2019, in
Arthrex, a panel of the Federal Circuit held that PTAB judges are principal officers whose
appointments by a head of department are invalid under the Appointments Clause. Arthrex rejected
the appellees’ and the government’s argument that Arthrex had forfeited its Appointments Clause
challenge by failing to raise it before the Board. Id. at 1326. The court noted that it had discretion
to deviate from the general rule of forfeiture in order to reach an Appointments Clause challenge
that was not raised below. Id.
To cure the putative constitutional defect that it identified, the Arthrex court held that
certain statutory restrictions on the removal of federal officials, 5 U.S.C. § 7513(a), cannot validly
be applied to APJs. 941 F.3d at 1335–38. “Because the Board’s decision in [Arthrex] was made
by a panel of [administrative patent judges] that were not constitutionally appointed at the time the
decision was rendered,” the court vacated the Board’s decision, remanded for “a new hearing”
before the Board, and directed “that a new panel of [APJs] must be designated to hear the
[proceeding] anew on remand.” Id. at 1338, 1340; see id. at 1338–40. The Arthrex court announced
that its ruling and remedy would extend to all cases “where final written decisions were issued [by
the Board] and where litigants present an Appointments Clause challenge on appeal,” regardless
of whether such a challenge had been asserted during the agency proceedings. Id. at 1340.

1

Before Arthrex, the Federal Circuit had characterized the APJs as “subordinate officers” to whom

the Director could delegate his authority to institute inter partes reviews. Ethicon Endo-Surgery,
Inc. v. Covidien LP, 812 F.3d 1023, 1032 (Fed. Cir. 2016). The court had twice reaffirmed that
view—by summary affirmance—and rejected the very same Appointments Clause challenge it
ultimately accepted in Arthrex. See Trading Techs. Int’l, Inc. v. IBG LLC, 771 F. App’x 493 (Fed.
Cir. 2019) (summary affirmance rejecting Appointments Clause challenge); Bedgear, LLC v.
Fredman Bros. Furniture Co., 779 F. App’x 748 (Fed. Cir. 2019) (same).

4
However, the day after issuing Arthrex, the Federal Circuit took immediate steps to limit
its effect. The court issued a precedential order precluding reliance on Arthrex in a pending appeal
where the challenger had failed to anticipate the change of law and raise the issue in its opening
brief or a pre-filing motion. See Customedia Techs., LLC v. Dish Network Corp., 941 F.3d 1173,
1174 (Fed. Cir. 2019).
Even so, the Board has issued a blanket order staying further administrative proceedings
in many cases remanded by the Federal Circuit under Arthrex, pending this Court’s disposition of
applicable petitions for writs of certiorari. General Order in Cases Remanded Under Arthrex, Inc.
v. Smith & Nephew, Inc., 941 F.3d 1320 (Fed. Cir. 2019), at 1-2 (P.T.A.B. May 1, 2020). In issuing
that stay, the Board observed that the Federal Circuit “ha[d] already vacated more than 100
decisions by the [Board] and more such Orders are expected.” Id. at 1; see id. at 2–6 (listing
proceedings that had been remanded as of May 1, 2020).
B.

This Court’s Grant of Certiorari

On October 13, 2020, this Court granted the petitions for certiorari in Nos. 2018-2140, 191452, and 19-1458, all limited to Questions 1 and 2 as set forth in the July 22, 2020 Memorandum
for the United States.
1.

As to the first question, the government contends that the Federal Circuit erred in

Arthrex by finding the relevant statutory framework to violate the Appointments Clause. The
government argues that APJs who administer inter partes reviews are inferior officers under the
analytic framework set forth in Edmond v. United States, 520 U.S. 651, 659 (1997) and other cases.
As a result, says the government, it is simply incorrect to hold “that the statutorily prescribed
method of appointing those judges—by the Secretary of Commerce, see 35 U.S.C. § 6(a), who is
the ‘Head[]’ of the judges’ ‘Department[],’ U.S. Const. Art. II, § 2, Cl. 2—violates the

5
Appointments Clause.” Petition for Certiorari at 16, United States v. Arthrex, Inc., No. 19-1434,
2020 WL 3545866, at *16 (June 25, 2020).
By contrast, Arthrex, petitioner in No. 19-1458, and respondent to the government’s
petition, urges that the Federal Circuit ruling is correct. Fundamentally, says Arthrex, “APJs are
principal officers under th[e Edmonds’] standard because no superior executive officer directs or
supervises the most critical aspect of their work.” Memo. in Resp. for Resp’t Arthrex, Inc. at 13,
United States v. Arthrex, Inc., Nos. 19-1434 & 19-1452 (July 24, 2020). Instead, “APJs issue
decisions that are not reviewable by any superior officer. And APJs are protected from removal by
restrictive standards.” Id.
2.

As to the second question, petitioner Arthrex in Case No. 19-1458 contends that

the Federal Circuit erred by attempting to sever aspects of the relevant statute to cure the
Appointments Clause violation. Specifically, Arthrex urged that the tenure protections Congress
erected for APJs were deemed by Congress as “crucial to ensure fair and impartial agency
adjudications.” Petition for Certiorari at 16, Arthrex, Inc. v. Smith & Nephew, Inc., No. 19-1458
(June 30, 2020). Their likewise critical role under the America Invents Act that established inter
partes review means the Federal Circuit’s remedy undermines clear Congressional objectives. Id.
at 19–22. Nor, according to Arthrex, does the Federal Circuit’s remedy of striking tenure
protections fix the fundamental problem because “there is still no principal executive officer who
can review APJ decisions.” Id. at 25. As a result, Arthrex contended in its petition that only
Congress can address the statutory defect. Id. at 33–34.
The government’s position in the Federal Circuit was that, if the Arthrex court determined
that there was an Appointments Clause violation, then “severance of the statutory removal
restrictions would be one appropriate means (among others) of curing the constitutional defect.”

6
Memo. for the United States at 5, Arthrex, Inc., No. 19-1458 (July 22, 2020). As related to the
various petitions, the government conceded that if this Court granted review on the first question,
then it would be appropriate to review the severability issues presented by Arthrex as well.
3.

This Court has now set the briefing schedule in Arthrex. As a result, the Court will

soon consider and resolve whether, in fact, APJs are appointed in violation of the Appointments
Clause, as the Federal Circuit held. Likewise, if this Court affirms that ruling, this Court will
resolve whether the severance remedy was appropriate and address, or remand for the Federal
Circuit to address, the appropriate remedy.
C.

The Proceedings in this Matter

1.

adidas is a leading manufacturer and retailer of athletic shoes and apparel in the

United States and elsewhere. adidas marketed and sold athletic shoes with knitted uppers using
adidas’s “Primeknit” technology that was created for the 2012 London Olympics. Nike filed a
patent suit in Germany, alleging that adidas’s Primeknit technology copied Nike’s Flyknit
technology, and asserting one of its German Flyknit patents. App. A, at 3. adidas successfully
challenged validity of the German Patent, but Nike nonetheless continued its public campaign and
“refused to grant Adidas a covenant not to sue, confirming that Adidas’ risk of infringement is
concrete and substantial.” App. A, at 3.
These actions led adidas to challenge, via an inter partes review filed in the PTAB in 2016,
patents related to the same “Flyknit” technique as Nike’s German patent, specifically, U.S. Patent
No. 7,814,598 to Dua et al. (“’598 patent”), and U.S. Patent No. 8,266,749 to Dua et al. (“’749
patent”). Both patents recite the same disclosure and generally describe a method for
manufacturing an article of footwear with a textile upper. App. A, at 4.
2.

adidas sought inter partes review of certain claims of the ’598 and ’749 patents.

App. B, at 2; C. at 2. The PTAB instituted review of the challenged claims, albeit not on all grounds

7
presented, and designated panels of three APJs to preside over the proceedings. App. D, at 1. On
the single ground on which institution was granted, the PTAB ultimately found the claims were
still patentable, ruling against adidas as to both patents App. D at 1.
adidas appealed that ruling. App. D at 1. During the pendency of the appeal, but after adidas
had filed its opening brief, this Court issued its ruling in SAS Institute Inc. v. Iancu, 138 S. Ct.
1348 (2018). The Federal Circuit granted adidas’ motion to remand for the Board to address the
ground that had not been instituted. App. D at 3.
On remand, the Board was reconstituted and one of the APJs replaced. The resulting panel
ruled against adidas on the newly instituted ground. App. A, at 7.
The Federal Circuit affirmed, finding that substantial evidence supported the APJs’
determinations. App. A, at 8.
REASONS FOR GRANTING THE PETITION
Should this Court affirm the Arthrex decision, that result would mean that
unconstitutionally appointed APJs adjudicated adidas’s claim of invalidity. As a result, the remedy
should be the same as in Arthrex—the Board’s final written decision should be vacated, and the
case remanded for a constitutionally valid proceeding. Likewise, if this Court selects another
remedy other than severance of tenure protections and remand for constitutionally valid
proceedings, adidas would likewise be entitled to such remedy. Given that the Court has already
granted certiorari to review those issues, this petition should be held for treatment consistent with
the outcome of the petitions for certiorari in Arthrex, Inc. v. Smith & Nephew, Inc., No. 19-1458;
Smith & Nephew, Inc. v. Arthrex, Inc., No. 19-1452; and United States v. Arthrex, Inc., No. 191434.
1.

The Arthrex decision correctly determined that there is an Appointments Clause

violation concerning APJs. Under Edmond, 520 U.S. at 663, “inferior officers’ are officers whose

8
work is directed and supervised at some level by others who were appointed by Presidential
nomination with the advice and consent of the Senate.” But no one directs or supervises the most
critical aspect of APJs’ work, their decisions that are unreviewable by any superior officer, and
they are protected from removal by restrictive standards. See Memo. in Resp. for Resp’t Arthrex,
Inc. at 13–19, Arthrex, Inc., Nos. 19-1434 & 19-1452 (July 24, 2020).
As to the latter, the Federal Circuit correctly reasoned that removal authority weighed in
favor of viewing APJs as principal officers, because neither the Secretary nor the Director had
“unfettered” authority to remove those judges from federal service. Arthrex, 941 F.3d at 1332. To
the contrary, the Secretary’s authority to remove was limited to “such cause as will promote the
efficiency of the service,” 5 U.S.C. § 7513(a), and that was insufficient because those judges
cannot be “remov[ed] without cause.” Arthrex, 941 F.3d at 1334. Nor was the Director’s “authority
to assign certain [judges] to certain panels” sufficient as that was simply not comparable to “the
authority to remove an [administrative patent judge] from judicial service without cause.” Id. at
1332.
The government’s response to these points is to argue that “collective” procedures, such as
“regulations, policies, and guidance the Director has issued, and . . . past decisions the Director
has designated as precedential,” suffice. Petition for Certiorari at 22, Arthrex, Inc., No. 19-1434,
2020 WL 3545866, at *22. Such indirect procedures are simply too attenuated. See Memo. in Resp.
for Resp’t Arthrex, Inc., Arthrex, Inc. at 19-21, Nos. 19-1434 & 19-1452.
2.

The Court should ultimately affirm the Federal Circuit’s finding of a violation of

the Appointments Clause. In that event, this Court will then need to consider the remedy proposed
by the Federal Circuit—specifically, severance of the tenure protections APJs are afforded. It is
beyond dispute that administrative adjudications must afford parties a “fair trial in a fair tribunal.”

9
Withrow v. Larkin, 421 U.S. 35, 46 (1975) (citation omitted). A central requirement to implement
that objective are decision makers that are “neutral and detached.” Ward v. Village of Monroeville,
409 U.S. 57 (1972).
The tenure protections afforded APJs were a central part of the congressional scheme for
ensuring fair trials and tribunals for addressing validity. Simply eliminating the tenure of APJs is
unlikely to further that goal and ensure both the reality and, as important, the public perception of
fair tribunals. Indeed, events after adidas first initiated its challenges indicated that, even with
tenure protections, as administrations changed, so too did the PTAB’s approach to assessing
validity of challenged patents. According to the PTAB’s own data, from October 2012 to
September 2020 the institution rate for Petitions plummeted from 87% to 56%.2 Not only did the
institution rate fall, but the likelihood that an instituted Petition would be successful declined
markedly—from Fiscal Years 2011-2019, 56% of all claims subject to institution were invalidated,
but during 2019 alone, just 46% of instituted claims were invalidated.3
Without tenure protections, political considerations may well play a more significant role
in PTAB decisions and undermine APJs’ independence and overall judgment. Should the Court
confirm there is an Appointments Clause violation connected to inter partes reviews, these
considerations suggest that the final remedy must be addressed by Congress, rather than this Court.
3.

Whether this Court affirms the remedy selected by the Federal Circuit, imposes

another remedy or leaves to Congress the remedy for any Appointments Clause violation, what

2

Trial

Statistics

IPR,

PGR,

CBM,

USPTO.gov,

at

6

(Sept.

2020),

https://www.uspto.gov/sites/default/files/documents/trial_statistics_20200930.pdf.
3

Boardside

Chat:

New

Developments,

USPTO.gov,

at

9,

15

(Jun.

11,

2020),

https://www.uspto.gov/sites/default/files/documents/PTAB_boardside_chat_new_trial_stats_sas_
and_operational_faqs_06_11_2020.pdf.

10
remains clear is that adidas was and remains entitled to adjudication of its claims by a properly
constituted panel.
At minimum, once this Court has ruled on the merits of the two questions presented, this
matter should be remanded back to the Federal Circuit for appropriate treatment. It is, after all,
fundamental that federal courts must apply any newly “controlling interpretation of federal law,”
and they have no “constitutional authority” to “disregard current law or to treat similarly situated
litigants differently.” Harper v. Va. Dep’t of Taxation, 509 U.S. 86, 97 (1993). Thus, whatever this
Court announces on the issues presented on Questions 1 and 2, supra, the Federal Circuit
necessarily must apply to adidas.
Nor does any principle of forfeiture or waiver preclude holding this petition and disposing
of it in light of the Court’s decision in Arthrex. After all, “the mere failure to interpose [a
constitutional] defense prior to the announcement of a decision which might support it cannot
prevent a litigant from later invoking such a ground.” Curtis Publ’g Co. v. Butts, 388 U.S. 130,
142–43 (1967). This is particularly true where a defense has been previously rejected by a court,
as was the case preceding the Arthrex decision.
This practice is also particularly applicable to Appointments Clause challenges. See, e.g.,
Freytag v. Comm’r, 501 U.S. 868, 879 (1991) (reviewing Appointments Clause challenge despite
potential waiver due to “the strong interest of the federal judiciary in maintaining the constitutional
plan of separation of powers” (citation omitted)); see also PHH Corp. v. Consumer Fin. Prot.
Bureau, 839 F.3d 1 (D.C. Cir. 2016), rev’d en banc, 881 F.3d 75 (D.C. Cir. 2018) (Kavanaugh, J.)
(permitting an Appointments Clause challenge despite claims of waiver). In Arthrex itself, the
Federal Circuit excused a forfeiture to reach the Appointments Clause issue, given that Arthrex
did not raise the issue before the PTAB, but argued it for the first time on appeal in the Federal

11
Circuit. 941 F.3d at 1327. It did so after recognizing that the Appointments Clause issue raised
“exceptionally important” questions, which justified hearing the issue over a challenge of waiver.
Id.
CONCLUSION

APPENDIX A

Case: 19-1787

Document: 64

Page: 1

Filed: 06/25/2020

United States Court of Appeals
for the Federal Circuit
______________________
ADIDAS AG,
Appellant
v.
NIKE, INC.,
Appellee
______________________
2019-1787, 2019-1788
______________________
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in Nos. IPR201600921, IPR2016-00922.
______________________
Decided: June 25, 2020
______________________
MITCHELL G. STOCKWELL, Kilpatrick Townsend &
Stockton LLP, Atlanta, GA, for appellant. Also represented by VAIBHAV P. KADABA, MICHAEL T. MORLOCK,
TIFFANY L. WILLIAMS.
CHRISTOPHER J. RENK, Banner & Witcoff, Ltd., Chicago,
IL, for appellee. Also represented by KEVIN DAM, MICHAEL
JOSEPH HARRIS.
______________________
Before MOORE, TARANTO, and CHEN, Circuit Judges.

Case: 19-1787

Document: 64

Page: 2

2

Filed: 06/25/2020

ADIDAS AG

v. NIKE, INC.

MOORE, Circuit Judge.
Nike, Inc. owns U.S. Patent Nos. 7,814,598 and
8,266,749, which share a specification and are directed to
methods of manufacturing an article of footwear with a textile upper. See ’598 patent at 1:18–21. Adidas AG petitioned for inter partes review of claims 1–13 of the ’598
patent and claims 1–9, 11–19 and 21 of the ’749 patent.
The Board held that Adidas had not demonstrated that the
challenged claims are unpatentable as obvious. Adidas appeals. Because the Board did not err in its obviousness
analysis and substantial evidence supports its underlying
factual findings, we affirm.
I. Standing
“Although we have jurisdiction to review final decisions
of the Board under 28 U.S.C. § 1295(a)(4)(A), an appellant
must meet ‘the irreducible constitutional minimum of
standing.’” Amerigen Pharm. Ltd. v. UCB Pharma GmBH,
913 F.3d 1076, 1082 (Fed. Cir. 2019) (quoting Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992)). As the party
seeking judicial review, Adidas must show that it “(1) suffered an injury in fact, (2) that is fairly traceable to the
challenged conduct [], and (3) that is likely to be redressed
by a favorable judicial decision.” Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016). Nike contends that Adidas
cannot establish an “injury in fact,” and therefore lacks
standing to bring this appeal, because Nike “has not sued
or threatened to sue Adidas for infringement of either the
’598 or the ’749 patent.” Appellant’s Br. 20. We do not
agree.
An appellant need not face “a specific threat of infringement litigation by the patentee” to establish the requisite
injury in an appeal from a final written decision in an inter
partes review. E.I. DuPont de Nemours & Co. v. Synvina
C.V., 904 F.3d 996, 1004 (Fed. Cir. 2018). Instead, “it is
generally sufficient for the appellant to show that it has
engaged in, is engaging in, or will likely engage in activity

Case: 19-1787

ADIDAS AG

Document: 64

v. NIKE, INC.

Page: 3

Filed: 06/25/2020

3

that would give rise to a possible infringement suit.” Grit
Energy Sols., LLC v. Oren Techs., LLC, 957 F.3d 1309, 1319
(Fed. Cir. 2020). In DuPont, we held that the appellant had
standing because it had concrete plans to make a potentially infringing product, including actually completing the
necessary production plant, and thus there was a substantial risk of future infringement. DuPont, 904 F.3d at 1005.
We determined that the patent owner’s refusal to grant appellant a covenant not to sue further confirmed that appellant’s risk of injury was not “conjectural” or “hypothetical.”
Id.
As in DuPont, Adidas and Nike are direct competitors.
J.A. 2584. In 2012, Nike accused Adidas, based on Adidas’
introduction of its “Primeknit” products, of infringing one
of Nike’s “Flyknit” patents 1—specifically, a German patent—and expressed its intent “to protect [Nike’s] rights
globally in the future against further infringing acts” by
Adidas. J.A. 2585–86; 2591–2613. Adidas markets shoes
that contain Primeknit-based uppers in the United States.
J.A. 2587. Although Nike has not yet accused Adidas of
infringing the ’598 or ’749 patents, Nike has asserted the
’749 patent against a third-party product similar to Adidas’
footwear. J.A. 2587–90, 2678–93. In 2019, Nike told this
court that “five months after [it] announced FLYKNIT,
[A]didas announced a similar product of its own that it
called ‘Primeknit.’” J.A. 2587 (emphasis added). Moreover,
Nike has refused to grant Adidas a covenant not to sue,
confirming that Adidas’ risk of infringement is concrete
and substantial. See DuPont, 904 F.3d at 1005. We therefore conclude that Adidas has Article III standing to bring
this appeal.

Nike has a portfolio of “more than 300 issued utility
patents,” including the ’749 patent, directed to its Flyknit
technology. J.A. 2652.
1

Case: 19-1787

Document: 64

Page: 4

4

Filed: 06/25/2020

ADIDAS AG

v. NIKE, INC.

II. Obviousness
The challenged claims recite a method of “mechanically-manipulating a yarn with a circular knitting machine . . . to form a cylindrical textile structure.” ’598
patent at 3:41–46. The claimed method involves removing
a textile element from the textile structure and incorporating it into an upper of the article of footwear. Id. at 3:41–
46. Claims 4 and 11 of the ’598 patent and claims 11 and
21 of the ’749 patent (collectively, the Unitary Construction
Claims) require that the textile element is a single material
element wherein portions of the textile element have different textures and “are not joined together by seams or
other connections.” Id. at 5:40–43, 6:41–50. The other
challenged claims (collectively, the Base Claims) are not so
limited.
Claim 1 of the ’598 patent is illustrative of the Base
Claims:
1. A method of manufacturing an article of footwear, the method comprising steps of:
mechanically-manipulating a yarn with a circular
knitting machine to form a cylindrical textile structure;
removing at least one textile element from the textile structure;
incorporating the textile element into an upper of
the article of footwear.
’598 patent at Claim 1. Claim 4 of the ’598 patent is illustrative of the Unitary Construction Claims:
4. The method recited in claim 1, wherein the step
of mechanically manipulating includes forming the
textile element to include a first area and a second
area with a unitary construction, the first area being formed of a first stitch configuration, and the
second area being formed of a second stitch

Case: 19-1787

ADIDAS AG

Document: 64

Page: 5

Filed: 06/25/2020

v. NIKE, INC.

5

configuration that is different from the first stitch
configuration to impart varying textures to a surface of the textile element.
’598 patent at Claim 4.
Adidas challenged the claims as obvious in view of:
(1) the combination of U.S. Patent Nos. 3,985,003 (Reed)
and 5,345,638 (Nishida) (Ground 1) and (2) the combination of Nishida and U.S. Patent Nos. 4,038,840 (Castello)
and 6,330,814 (Fujiwara) (Ground 2). 2 The Board held that
Adidas had not demonstrated that the challenged claims
are unpatentable as obvious under either ground. We review the Board’s legal determinations de novo and its factual findings for substantial evidence. In re Van Os, 844
F.3d 1359, 1360 (Fed. Cir. 2017). “Obviousness is a question of law based on underlying facts.” Arctic Cat Inc. v.
Bombardier Recreational Prods. Inc., 876 F.3d 1350, 1358
(Fed. Cir. 2017).
A. Ground 1
The Board held that Adidas had not established the unpatentability of the challenged claims under Ground 1 because Adidas had not demonstrated that a person of
ordinary skill in the art would have been motivated to combine Reed and Nishida. See J.A. 91, 214. In particular, the
Board noted that neither Adidas nor its declarant, Mr.
Holden, “addresses the fact that each of the relied upon
The Board initially declined to institute review on
Ground 2 because it was insufficiently particular.
J.A. 389–91, 414–16. The Board issued final written decisions on Ground 1 and Adidas appealed. We remanded in
view of SAS Institute Inc. v. Iancu, 138 S. Ct. 1348 (2018),
for the Board to “issue a decision as to all grounds raised
in Adidas’ petitions.” See Adidas AG v. Nike, Inc., 894 F.3d
1256, 1257 (Fed. Cir. 2018). This appeal concerns the
Board’s final written decisions after remand.
2

Case: 19-1787

6

Document: 64

Page: 6

Filed: 06/25/2020

ADIDAS AG

v. NIKE, INC.

embodiments of Reed teaches pre-seaming” whereas
Nishida involves seaming the textile element after it has
been cut from the textile structure. J.A. 89, 210. With respect to the Unitary Construction Claims, the Board further found that Adidas failed to show a motivation to
combine Reed and Nishida because the “unitary construction” limitation excludes seams of the type taught in Reed.
J.A. 90, 211. The Board therefore determined that combining Reed with Nishida would “require the alteration of the
principles of operation of Reed or would render Reed inoperable for its intended purpose.” J.A. 93–95.
Adidas contends that substantial evidence does not
support the Board’s motivation to combine findings. It argues that Reed and Nishida are entirely compatible because they both discuss knitting in multiple layers and that
a skilled artisan would be motivated to combine the references to reduce waste. With respect to the Base Claims,
Adidas argues that the pre-seaming differences between
Reed and Nishida are irrelevant in view of the Board’s construction of the Base Claims as “encompass[ing] methods
related to both pre-seamed and unseamed garments and
garment sections.” See J.A. 88, 210. It argues that in view
of the Board’s construction, all that was necessary was evidence of a suggestion to extend the teachings of Reed to
produce a textile element for incorporation into a footwear
upper. We do not agree.
The obviousness inquiry does not merely ask whether
a skilled artisan could combine the references, but instead
asks whether “they would have been motivated to do so.”
InTouch Techs., Inc. v. VGO Commc’ns, Inc., 751 F.3d 1327,
1352 (Fed. Cir. 2014). Fundamental differences between
the references are central to this motivation to combine inquiry. Thus, while the Board construed the Base Claims
as encompassing pre-seamed and unseamed garments and
garment sections, the Board properly considered the fundamental differences in the seaming techniques of Reed
and Nishida. Rather than address these differences,

Case: 19-1787

ADIDAS AG

Document: 64

Page: 7

v. NIKE, INC.

Filed: 06/25/2020

7

Adidas merely cites to “Reed’s other objects” concerning
cost reduction and garment production, which the Board
already considered and rejected. See, e.g., J.A. 87–88. In
view of the undisputed evidence of the pre-seaming differences between Reed and Nishida, we conclude that substantial evidence supports the Board’s motivation to
combine findings with respect to the Base Claims. Because
the Unitary Construction Claims depend from the independent Base Claims, we conclude that substantial evidence supports its motivation to combine findings with
respect to the Unitary Construction Claims.
B. Ground 2
The Board determined that Adidas had also not established the unpatentability of the challenged claims under
Ground 2 in part because Adidas failed to identify which
reference or combination of references it was relying on to
disclose each limitation of the challenged claims. J.A. 99,
221. The Board further found that Adidas failed to establish that a person of ordinary skill in the art would have
been motivated to combine “the teachings of Nishida and
Castello regarding unseamed garment portions with the
teachings of Fujiwara regarding pre-seamed garments.”
J.A. 112, 236. In view of the different seaming techniques,
the Board found that modifying Castello in view of Fujiwara would “change the principles under which Castello
operates.” J.A. 113, 236.
Adidas contends that substantial evidence does not
support the Board’s motivation to combine findings. It argues that a skilled artisan would have been motivated to
“modify Castello’s method to include additional features
described by Fujiwara and Nishida to reduce cost and
waste and to extend well-known knitting techniques and
machinery to produc[e] uppers.” J.A. 1299 ¶ 206. As with
Ground 1, Adidas contends that “preseamed versus unseamed garment portions have no bearing” on the proposed

Case: 19-1787

Document: 64

Page: 8

8

Filed: 06/25/2020

ADIDAS AG

v. NIKE, INC.

motivations to combine. Appellant’s Br. 60. Adidas’ contentions are unavailing.
As the Board found, Adidas relies upon disclosures of
Castello that do not teach pre-seaming. In contrast, “the
intended purpose of Fujiwara’s methods is to produce preseamed, substantially finished garments.”
J.A. 112;
J.A. 1370 at 1:53–55, 1371 at 3:14–18 (stating that the goal
of Fujiwara’s invention is to reduce the need for stitching).
As explained with respect to Ground 1, the Board properly
considered these fundamental differences in seaming techniques as part of its motivation to combine inquiry. Because Adidas failed to reconcile these differences, we
conclude that the Board’s motivation to combine findings
are supported by substantial evidence. 3
CONCLUSION
We have considered the parties’ remaining arguments
and do not find them persuasive. Because the Board did
not err in its obviousness analysis and substantial evidence
supports its underlying factual findings, we affirm.
AFFIRMED

Because we conclude that the Board’s motivation to
combine findings are supported by substantial evidence,
we do not reach the Board’s alternative determination regarding the particularity of Ground 2.
3

APPENDIX B

Trials@uspto.gov
571-272-7822

Paper 31
Entered: February 19, 2019

UNITED STATES PATENT AND TRADEMARK OFFICE
_____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
adidas AG,
Petitioner,
v.
NIKE, Inc.,
Patent Owner.
____________
Case IPR2016-00921
Patent 7,814,598 B2
____________

Before JOSIAH C. COCKS, JAMES B. ARPIN, and SCOTT A. DANIELS,
Administrative Patent Judges.
ARPIN, Administrative Patent Judge.

DECISION ON REMAND
35 U.S.C. § 144 and 37 C.F.R. § 42.5(a)

IPR2016-00921
Patent 7,814,598 B2
I.

BACKGROUND

adidas AG (“Petitioner”) filed a Petition pursuant to 35 U.S.C.
§§ 311–19 to institute an inter partes review of claims 1–13 of U.S. Patent
No. 7,814,598 B2 (Ex. 1001, “the ’598 patent”).1 Paper 1 (“Pet.”). Nike,
Inc. (“Patent Owner”) did not file a Preliminary Response.2 Applying the
standard set forth in 35 U.S.C. § 314(a), which requires demonstration of a
reasonable likelihood that Petitioner would prevail with respect to at least
one challenged claim, we instituted an inter partes review of claims 1–13 of
the ’598 patent as allegedly rendered obvious over the combined teachings
of Reed and Nishida. Paper 6 (“Inst. Dec.”), 22–23.
After institution, Patent Owner filed a Patent Owner Response to the
Petition (Paper 9 (“PO Resp.”)), and Petitioner replied (Paper 10
(“Reply”)).3 Each party requested an oral hearing (Papers 15 and 16), and

1

Petitioner identifies adidas International B.V.; adidas North America, Inc.;
adidas America, Inc.; and adidas International, Inc., as real parties-ininterest. Pet. 1.
2

Patent Owner identifies only itself as a real party-in-interest. Paper 5, 2.

Patent Owner filed objections to the admissibility of some of Petitioner’s
evidence. Paper 12. Petitioner served – and improperly filed –
supplemental evidence in response to Patent Owner’s objections. Paper 13;
Ex. 1015; 37 C.F.R. § 42.64(c); see 37 C.F.R. § 42.64(b)(2) (“The party
relying on evidence to which an objection is timely served may respond to
the objection by serving supplemental evidence within ten business days of
service of the objection.” (emphasis added)); GoPro, Inc. v. Contour IP
Holding LLC, Case IPR2015-01078, slip op. at 2–3 (PTAB Apr. 7, 2016)
(Paper 40) (“If the supplemental evidence does not cure the objection and
the opposing party files a motion to exclude, the submitting party may file
the supplemental evidence with its opposition to the motion to exclude.”).
Ultimately, Patent Owner did not file a motion to exclude, and, therefore,
2
3

IPR2016-00921
Patent 7,814,598 B2
we held a consolidated oral hearing with Case IPR2016-00922 on July 12,
2017. A transcript of that hearing is of record in this case. Paper 20 (“Tr.”).
On October 19, 2017, the panel issued its Final Written Decision
determining that Petitioner had failed to demonstrate that any of the
challenged claims in IPR2016-00921 were unpatentable. Paper 21 (“1st
FWD”). Petitioner appealed that Final Written Decision to the U.S. Court of
Appeals for the Federal Circuit (“The Federal Circuit”) (Paper 22), and the
Federal Circuit subsequently remanded that decision, so that the panel could
consider an uninstituted ground for unpatentability, pursuant to SAS Inst.,
Inc. v. Iancu, 138 S. Ct. 1348, 1354 (2018,) and “directed [the Board] to
promptly issue a final written decision as to all grounds raised in Adidas’s
petitions.” See Paper 23, 3–4 (citing Adidas AG v. Nike, Inc., 894 F.3d
1256, 1257–58 (Fed. Cir. 2018)). The Federal Circuit issued the order and
mandate simultaneously.
The panel modified its Institution Decision and instituted review on
all of the challenged claims and on all of the grounds asserted in the Petition.
Id. at 4. The panel granted additional briefing limited to: (1) addressing
issues discussed in the Institution Decision with respect to the newly
instituted ground (Inst. Dec. 20–22), including directing the panel to
information in the record that it overlooked or misunderstood regarding
Petitioner’s challenge to claim 1–13 based on the combined teachings of
Castello, Fujiwara, and Nishida; and (2) addressing what impact, if any,
arises from the Institution Decision’s determination that Petitioner had not
identified “with particularity,” as required by 35 U.S.C. § 312(a)(3), the

Patent Owner did not preserve its objections. 37 C.F.R. § 42.64(c).
Regardless, Exhibit 1015 is expunged because we did not authorize its filing.
3

IPR2016-00921
Patent 7,814,598 B2
arguments and evidence that supported its challenge to claims 1–13 based on
the combined teachings of Castello, Fujiwara, and Nishida. Id. at 11.
Petitioner was prohibited from introducing new argument or evidence with
its additional briefing, with the exception of deposition testimony identified
during the conference call and already existing in the record that Petitioner
believes is relevant to the sufficiency of its arguments in the Petition
regarding its challenge to claims 1–13 based on the combined teachings of
Castello, Fujiwara, and Nishida. Id. Each party filed additional briefing.
Papers 24 (“Pet. Supp. Br.”) and 25 (PO Supp. Br.”). Petitioner requested a
supplemental hearing. Paper 24, 10. The panel granted a telephonic,
supplemental hearing (Paper 27, 7), and a transcript of that supplemental
hearing is of record in this case. Paper 30 (“Supp. Tr.”).
We have jurisdiction under 35 U.S.C. § 6, and this Final Written
Decision, issued pursuant to 35 U.S.C. § 318(a) and 37 C.F.R. § 42.73,
addresses issues and arguments raised during the review. For the reasons
discussed below, we determine that Petitioner has not met its burden to
prove, by a preponderance of the evidence, that claims 1–13 of the ’598
patent are unpatentable on the grounds upon which we instituted inter partes
review.
A. The ’598 Patent
The ’598 patent is a divisional of U.S. Patent Application No.
10/791,289, filed on March 3, 2004, now issued as U.S. Patent No.
7,347,011 B2 (“the ’011 patent”) (Ex. 1001 at (62)) and relates to articles of
footwear incorporating an upper that is at least partially formed from a
textile material (id. at 1:18–21). Conventional articles of athletic footwear
may include two primary elements: an upper and a sole structure. Id. at
4

IPR2016-00921
Patent 7,814,598 B2
1:23–26. The upper may form a void in the interior of the footwear for
receiving a wearer’s foot, and the upper may extend over the instep and toe
areas, along the medial and lateral sides, and around the heel area of the
wearer’s foot. Id. at 1:41–46.
In particular, the Specification describes articles of footwear having
an upper incorporating a knitted textile element and having a sole structure
secured to the upper. Id. at 3:27–33, 47–48. Methods for manufacturing an
article of footwear include “mechanically-manipulating a yarn with a
circular knitting machine, for example, to form a cylindrical textile structure.
In addition, the method involves removing at least one textile element from
the textile structure, and incorporating the textile element into an upper of
the article of footwear.” Id. at 3:41–46.
Figure 9 of the ’598 patent is reproduced below.

Figure 9 depicts textile structure 60 formed on a circular knitting machine.
Id. at 7:38–41. For example,
5

IPR2016-00921
Patent 7,814,598 B2
[a] suitable knitting machine for forming textile element 40 is a
wide-tube circular knitting machine that is produced in the
Lonati Group by Santoni S.p.A. of Italy under the SM8 TOP1
model number. This Santoni S.p.A. wide-tube circular knitting
machine may form a textile structure having a diameter that
ranges from 10 inches to 20 inches, with 8 feeds for each
diameter.
Id. at 7:14–20. As discussed below, the types of stitches that form textile
structure 60 may be varied to form an outline of one or more textile
elements 40 on textile structure 60. Id. at 7:65–8:3. In particular, as
depicted in Figure 9, the outlines for at least two textile elements 40 may be
formed on textile structure 60. Id. at 7:53–54.
Figure 8 of the ’598 patent is reproduced below.

Figure 8 depicts an embodiment of an upper according to the ’598 patent.
Id. at 5:59–6:64. “Textile element 40 is a single material element that is
6

IPR2016-00921
Patent 7,814,598 B2
formed to exhibit a unitary (i.e., one-piece) construction, and textile element
40 is formed or otherwise shaped to extend around the foot.” Id. at 5:40–43;
see also id. at Figs. 10 (depicting textile element 40ʹ), 11 (depicting textile
element 40ʺ). In particular,
Textile element 40 is a single material element with a
unitary construction, as discussed above. As defined for
purposes of the present invention, unitary construction is
intended to express a configuration wherein portions of a textile
element are not joined together by seams or other connections,
as depicted with textile element 40 in FIG. 8. Although the
various edges 41a-44d are joined together to form seams 51-54,
the various portions of textile element 40 are formed as [a]
unitary element without seams . . . .
Id. at 6:41–50 (emphases added). Consequently, textile element 40 is
formed, such that portions of the textile element are not joined together with
seams or other connections. Id. at 5:40–43.
Figures 4 and 5 of the ’598 patent are reproduced below.

7

IPR2016-00921
Patent 7,814,598 B2

Figures 4 and 5 depict edges 41a–44d are joined together to form seams 51–
54, thereby forming at least a portion of a void for receiving the foot. Id. at
5:59–6:50; see id., Fig. 3. In contrast, lateral region 31, medial region 32,
instep region 33, lower regions 34, and heel regions 35 together have a
unitary construction without seams (id. at 5:46–58, 6:47–50).

8

IPR2016-00921
Patent 7,814,598 B2
Figure 11 of the ’598 patent is reproduced below.

Figure 11 depicts another embodiment of an upper according to the ’598
patent. Id. at 9:29–10:7. Textile element 40ʺ includes three different areas
with three different textures. Id. at 9:31–32. First texture 46ʺ is generally
smooth and extends in strips across lateral region 31, medial region 32, and
instep region 33 of the upper. Id. at 9:32–35. In addition, textile element
40ʺ includes second texture 47ʺ and third texture 48ʺ. Id. at 9:35–39.
Moreover, the Specification of the ’598 patent describes that:
The different textures 46ʺ-48ʺ are formed by merely varying the
type of stitch formed by the wide-tube circular knitting machine
at each location of textile element 40ʺ. Textures 46ʺ-48ʺ may
exhibit aesthetic differences, or the differences may be
structural. . . . The air-permeability of textile element 40ʺ may
also vary in the different areas.
Id. at 9:39–47 (emphasis added).
9

IPR2016-00921
Patent 7,814,598 B2
B. Illustrative Claims
Claims 1 and 9 are independent, method claims. Claims 2–8 depend
directly or indirectly from claim 1, and claims 10–13 depend directly or
indirectly from claim 9. Claims 1 and 4 are illustrative of the claims at issue
and are reproduced below:
1.
A method of manufacturing an article of footwear,
the method comprising steps of:
mechanically-manipulating a yarn with a circular knitting
machine to form a cylindrical textile structure;
removing at least one textile element from the textile
structure;
incorporating the textile element into an upper of the
article of footwear.
4.
The method recited in claim 1, wherein the step of
mechanically manipulating includes forming the textile
element to include a first area and a second area with a
unitary construction, the first area being formed of a first
stitch configuration, and the second area being formed of
a second stitch configuration that is different from the
first stitch configuration to impart varying textures to a
surface of the textile element.
Id. at 11:43–50 (claim 1), 11:58–12:6 (claim 4).
C. Related Proceedings
Neither party identifies any related litigation. Pet. 1; Paper 5, 2. As
discussed above, the ’598 patent is a divisional of the application that issued
as the ’011 patent, which is the subject of IPR2013-00067. Pet. 1. In that
case, the panel instituted inter partes review of claims 1–46 of the ’011
patent, and Patent Owner requested cancellation of claims 1–46 and
proposed substitute claims 47–50 in a Motion to Amend. The panel granted
Patent Owner’s request to cancel claims 1–46, but denied Patent Owner’s
10

IPR2016-00921
Patent 7,814,598 B2
request as to the substitute claims. Patent Owner appealed the Board’s
decision to the Federal Circuit. The Federal Circuit issued a decision in
Patent Owner’s appeal on February 11, 2016, which affirmed-in-part and
vacated-in-part the Board’s decision, and remanded the case to the Board for
further proceedings regarding the status of the substitute claims. Nike, Inc.
v. adidas AG, 812 F.3d 1326, 1329 (Fed. Cir. 2016). The Federal Circuit
issued its mandate in that case on April 4, 2016. On September 18, 2018,
the panel again denied Patent Owner’s motion as to the substitute claims.
IPR2013-00067, Paper 69. Patent Owner again appealed the Board’s
decision to the Federal Circuit. IPR2013-00067, Paper 70.
In addition, Petitioner requested inter partes review of claims of
related patents in IPR2016-00920 (U.S. Patent No. 8,042,288 B2),
institution denied (IPR2016-00920, Paper 6, 2), and IPR2016-00922 (U.S.
Patent No. 8,266,749 B2), institution granted (IPR2016-00922, Paper 6, 2).
On October 19, 2017, the panel issued a Final Written Decision determining
that Petitioner had failed to demonstrate that any of the challenged claims in
IPR2016-00922 was unpatentable. IPR2016-00922, Paper 21. Petitioner
appealed that Final Written Decision to the Federal Circuit (IPR2016-00922,
Paper 22), and the Federal Circuit subsequently remanded that decision, so
that the panel could consider an uninstituted ground for unpatentability,
pursuant to SAS Inst., Inc. v. Iancu, 138 S. Ct. 1348, 1354 (2018). See
IPR2016-00922, Paper 23, 3–4.
D. Applied References and Declaration
Petitioner relies on the following references and declaration in support
of its asserted ground of unpatentability:

11

IPR2016-00921
Patent 7,814,598 B2
Exhibit
1003
1006
1007
1008
1009
1010

1012

References and Declaration
Declaration of Mr. Lenny M. Holden
U.S. Patent No. 3,985,003 to Reed, issued Oct. 12, 1976
(“Reed”)
U.S. Patent No. 4,038,840 to Castello, issued Aug. 2, 1977
(“Castello”)
U.S. Patent No. 6,330,814 B1 to Fujiwara, issued Dec. 18,
2001 (“Fujiwara”)
U.S. Patent No. 5,345,638 to Nishida, issued Sept. 13, 1994
(“Nishida”)
David J. Spencer, Knitting technology: a comprehensive
handbook and practical guide, 1–413 (2001) (3rd Ed.,
Woodhead Publ. Ltd.) (“Spencer”)
International Standard, Textile machinery — Knitting
machines — Nominal diameters of circular machines, 1–6
(2003) (2nd Ed., ISO 8117:2003(E)) (“ISO 8117”)

Pet. iv.
E. Instituted Grounds of Unpatentability
We instituted review on the following ground of unpatentability:
References
Reed and Nishida
Castello, Fujiwara, and
Nishida

Basis
35 U.S.C. § 103(a)

Challenged Claims
1–13

35 U.S.C. § 103(a)

1–13

Pet. 8; see Paper 23, 4.
II. ANALYSIS
A. Person of Ordinary Skill in the Art
Petitioner argues that a person of ordinary skill in the relevant art
would have at least a few years of experience in the footwear industry, a
broad understanding of shoemaking, and an understanding of (1) the product
cycle for the process of designing, developing and bringing a new product to
12

IPR2016-00921
Patent 7,814,598 B2
market; (2) milestones for reviewing upper material designs; (3) the
available and varied ranges of typical construction methods within a
product cycle; and (4) the functional requirements of footwear and the range
of material choices available. Pet. 8–9 (citing Ex. 1003 ¶ 34) (emphasis
added). Patent Owner contests Petitioner’s assessment of the level of
ordinary skill in the relevant art, but does not propose an alternative
assessment. PO Resp. 12–14.
Initially, Patent Owner contends that Petitioner has failed to consider
appropriate factors identified by our reviewing court and utilized by other
panels to assess the level of ordinary skill in the art. Id. at 12–13. We agree
with Petitioner that it is not necessary to consider every factor or to weigh
the factors equally in order to assess the level of ordinary skill in the art.
Reply 2 (quoting In re GPAC Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995)).
Here, we may rely on Petitioner’s declarant’s testimony (Ex. 1003 ¶ 34) and
the teachings of the prior art to evaluate Petitioner’s assessment of the level
of ordinary skill in the art. Okajima v. Bourdeau, 261 F.3d 1350, 1355 (Fed.
Cir. 2001). In particular, Reed, Castello, Fujiwara, and Nishida identify the
types of problems encountered in the prior art solutions to these problems,
and the sophistication of the technology. E.g., Ex. 1006, 1:13–55; Ex. 1007,
1:8–32, 2:12–64; Ex. 1008, 1:11–54; Ex. 1009, 1:10–36; see, e.g., Ex. 1010,
145–160; see also Ex. 1010, Preface:
The aim of this book is to combine in a single volume the
fundamental principles of weft and warp knitting in such a
manner that its contents are useful to readers in education,
industry or commerce. It thus [fulfills] the long felt need for a
comprehensive up-to-date textbook explaining this important
sector of textile technology.

13

IPR2016-00921
Patent 7,814,598 B2
Patent Owner contends that the level of ordinary skill in the art is
“low” (PO Resp. 14), but it is not clear whether Patent Owner further
contends that Petitioner’s assessment is deficient because Petitioner fails to
argue that a person possessing such a “low” level of ordinary skill in the art
also would have “experience using knitting technologies to create knitted
footwear uppers” (id. at 13–14) or whether the inclusion of such skill would
raise the “low” level of skill in the art (id. at 14). Alternatively, Patent
Owner may merely be contending that Petitioner’s declarant fails to qualify
as a person of ordinary skill in the art. Id. at 14 (“If it was too ‘dangerous’
for Mr. Holden with his nearly forty years of experience, a person with just a
“few years of experience” would not have had any knitting experience, let
alone experience using knitting technologies to create uppers.”); see
Tr. 62:17–22. Patent Owner is not required to help us assess the level of
ordinary skill in the art and does not do so here. See PO Resp. 18
(“Petitioner may criticize NIKE for not submitting an expert declaration.
But it is Petitioner’s burden to prove unpatentability; it is not NIKE’s burden
to prove patentability.”).
In response to Patent Owner’s contentions, Petitioner argues that the
level of ordinary skill in the art is not low and that hands-on knitting
experience is not required. Reply 2–3. Petitioner further argues Patent
Owner has not required knitting experience in its previous assessment with
respect to a related patent of the level of ordinary skill in the art. Id. (citing
IPR2013-00067, Ex. 2010 ¶ 52). The parties do not attempt to argue the
level of ordinary skill further in their supplemental briefing. See Pet. Supp.
Br. 4–5; PO Supp. Br. 4 n.1. Based on the record before us and to the extent

14

IPR2016-00921
Patent 7,814,598 B2
necessary, we again adopt Petitioner’s assessment of a person of ordinary
skill in the relevant art. 1st FWD 11 (citing Inst. Dec. 8 n.3).
B. Claim Construction
In an inter partes review, claim terms in an unexpired patent are
construed according to their broadest reasonable interpretation in light of the
specification of the patent in which they appear. 37 C.F.R. § 42.100(b).
Under that standard, claim terms are given their ordinary and customary
meaning, as would be understood by one of ordinary skill in the art in the
context of the entire disclosure. In re Translogic Tech., Inc., 504 F.3d 1249,
1257 (Fed. Cir. 2007). The following four claim terms are at issue in this
proceeding. 1st FWD 11–15.
1. “a first area and a second area with a unitary construction”
(Claims 4 and 11)
Petitioner argues that the term “a first area and a second area with a
unitary construction” means “a textile element having a unitary construction
and having a first area and a second area.” Pet. 7. As Petitioner notes, this
is the construction that this panel gave to the same term appearing in the
substitute claims of the ’011 patent. adidas AG v. Nike, Inc., Case IPR201300067, slip op. at 16–17 (PTAB Apr. 28, 2014) (Paper 60); see adidas AG v.
Nike, Inc., Case IPR2013-00067, slip op. at 11–12 (PTAB Sep. 18, 2018)
(Paper 69). We further note that the ’598 patent’s Specification provides
that “[a]s defined for purposes of the present invention, unitary construction
is intended to express a configuration wherein portions of a textile element
are not joined together by seams or other connections, as depicted with
textile element 40 in FIG. 8.” Ex. 1001, 6:41–46 (emphasis added); see
IPR2013-00067, Ex. 1002, 6:41–46 (identical disclosure). The ’011 patent
15

IPR2016-00921
Patent 7,814,598 B2
and the ’598 patent share the same Specification (apart from their claims),
neither party contested our construction of this term in the appeal of our
decision in the inter partes review of the claims of the ’011 patent, and
Patent Owner does not contest Petitioner’s proposed construction of this
term in this proceeding. Therefore, in view of the express definition of the
phrase “unitary construction” in the Specification of the ’598 patent, we
adopt Petitioner’s proposed construction for this term. See Tr. 20:5–13,
37:11–17.
2. “wide-tube circular knitting machine” (Claims 2 and 9)
We determine that the broadest reasonable interpretation of the term
“wide-tube circular knitting machine” is “a circular knitting machine
forming body garment sized, tubular textile structures, including those
having a diameter that ranges from 10 inches to 20 inches.” See Inst. Dec.
10–11. Neither party contests this construction. See Tr. 20:5–13, 37:11–17.
3. “impart” (claims 4 and 11) and “texture” (claims 3, 4, 10,
and 11)
During the course of the review, the parties raised issues regarding the
construction of two additional terms that appear only in the challenged
dependent claims. First, Petitioner argues that the term “impart” means “to
give, convey, or grant from.” Reply 21 (citing Ex. 1014).4 Further,
Petitioner relies on a definition of “impart” from a current, on-line
dictionary rather than from a dictionary contemporaneous with the effective
filing date of the ’598 patent. However, the record contains no suggestion
that the relevant definition of “impart” has changed since the effective filing
date of the ’598 patent, and we determine that it has not. See RANDOM
HOUSE WEBSTER’S COLLEGE DICTIONARY, 659 (2nd ed. 1999) (Ex. 3001)
(“impart” means “to give; bestow”).
4

16

IPR2016-00921
Patent 7,814,598 B2
Petitioner argues that this definition is consistent with the use of the word
“impart” in the Specification of the ’598 patent. E.g., Ex. 1001, Abstract,
1:30–35, 1:60–63, 1:65–2:3, 3:33–37, 7:35–37; see Tr. 21:4–14. Patent
Owner does not propose an alternative construction for the term “impart.”
Further, neither party argues that the term “impart” carries special meaning
in the relevant art. In fact, we find Spencer’s use of the word “impart” in the
handbook on knitting technology consistent with Petitioner’s dictionary
definition and the word’s use in the Specification of the ’598 patent. See
Ex. 1010, 184, 216. Thus, to the extent any construction of this term is
necessary, we find that the broadest reasonable interpretation of the term
“impart” is “to give, convey, or grant from.” See Summit 6, LLC v.
Samsung Elecs. Co., 802 F.3d 1283, 1291 (Fed. Cir. 2015) (“[E]ach [term] is
used in common parlance and has no special meaning in the art. Because the
plain and ordinary meaning of the disputed claim language is clear, the
district court did not err by declining to construe the claim term.”).
Second, although Petitioner does not provide an express interpretation
for the term “texture,”5 Petitioner’s declarant testifies “texture” “generally
could be an actual texture or a perceived texture based on the arrangement of
colors in a pattern.” Reply 4 (citing Ex. 2004, 178:20–24; see also id. at
177:1–178:19, 178:25–184:11). Patent Owner disputes Mr. Holden’s
interpretation of “texture,” which appears inconsistent with Spencer’s
discussion of texture. See Ex. 2004, 80:24–81:8. In particular, according to
Spencer, “[c]olour is one of the five ingredients of fashion, the other four
A relevant dictionary definition of the word “texture” is “the characteristic
structure of the threads, fibers, etc., that make up a textile fabric: course
texture,” “a rough or grainy surface quality,” or “anything produced by
weaving; woven fabric.” Ex. 3001, 1351.
5

17

IPR2016-00921
Patent 7,814,598 B2
being style, silhouette, texture and pattern.” Ex. 1010, 127. Thus, Spencer
distinguishes between color and texture.
The Specification of the ’598 patent does not define “texture,” but
contrasts between “smooth” and “textured” areas of a textile element.
Ex. 1001, 9:20–21. Moreover, with respect to Figure 11, the Specification
of the ’598 patent explains that:
The different textures 46"-48" are formed by merely varying
the type of stitch formed by the wide-tube circular knitting
machine at each location of textile element 40". Textures 46"48" may exhibit aesthetic differences, or the differences may be
structural. For example, the degree of stretch in areas with
textures 46"-48" may be different, or the wear resistance of the
areas may vary depending upon the stitch utilized. The airpermeability of textile element 40" may also vary in the
different areas. Third texture 48" is formed to include a
plurality of apertures that extend through textile element 40".
The apertures may be formed by omitting stitches at specific
locations during the wide-tube circular knitting process, and the
apertures facilitate the transfer of air between the void within
upper 20 and the area outside of upper 20. Accordingly, the
various stitches formed in textile element 40", or one of textile
elements 40 or 40', may be utilized to vary the texture, physical
properties, or aesthetics of footwear 10 within a single, unitary
element of material.
Id. at 39–57 (emphasis added). From this explanation, we understand that
“texture,” as used in the ’598 patent, is distinguishable from the physical and
aesthetic properties of a textile element. According to the recitations of
claims 4 and 11, “texture” is produced as part of the step recited in claims 1
and 9 of “mechanically-manipulating a yarn with a circular knitting
machine.” See Ex. 1001, 11:45–46. Thus, to the extent any construction of
this term is necessary, we find that the broadest reasonable interpretation of
the term “texture” in the context of claims 4 and 11 is “a non-smooth surface
18

IPR2016-00921
Patent 7,814,598 B2
formed by mechanically-manipulating a yarn with a circular knitting
machine.” Such a surface may be created by “varying the type of stitch
formed by the wide-tube circular knitting machine at each location of textile
element.” Id. at 9:39–42.
4. Other Claim Terms
For purposes of this Final Written Decision, we discern no other claim
terms that require express interpretation. See Nidec Motor Corp. v.
Zhongshan Broad Ocean Motor Co., 868 F.3d 1013, 1017 (Fed. Cir. 2017)
(explaining that claim terms need to be construed “only to the extent
necessary to resolve the controversy” (quoting Vivid Techs., Inc. v. Am. Sci.
& Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999))).
C.

Obviousness over Reed and Nishida
1. Overview

Petitioner argues that claims 1–13 are unpatentable under 35 U.S.C.
§ 103(a) as obvious over the combined teachings of Reed and Nishida. To
support its arguments, Petitioner provides a detailed mapping of limitations
of the challenged claims to Reed and Nishida. Pet. 14–29. Petitioner also
cites Mr. Holden’s Declaration for support. See Ex. 1003 ¶¶ 92–130.
A patent claim is unpatentable under 35 U.S.C. § 103(a) if the
differences between the claimed subject matter and the prior art are “such
that the subject matter as a whole would have been obvious at the time the
invention was made to a person having ordinary skill in the art to which said
subject matter pertains.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406
(2007). The question of obviousness is resolved on the basis of underlying
factual determinations, including: (1) the scope and content of the prior art;
19

IPR2016-00921
Patent 7,814,598 B2
(2) any differences between the claimed subject matter and the prior art;
(3) the level of skill in the art;6 and (4) objective evidence of
nonobviousness, i.e., secondary considerations.7 See Graham v. John Deere
Co., 383 U.S. 1, 17–18 (1966). On this record and for the reasons set forth
below, we are not persuaded that Petitioner demonstrates by a
preponderance of the evidence that claims 1–13 of the ’598 patent are
unpatentable as rendered obvious over the combined teachings of Reed and
Nishida. We begin our analysis with a summary of the applied references.
2. Reed (Ex. 1006)
Reed is directed to a method of manufacturing a wearable item, which
includes, among other things, mechanically manipulating a yarn with a
circular-knitting machine to form a cylindrical textile structure (Ex. 1006,
2:22–25), textile elements located in different portions of the textile structure
(id. at 2:29–31), removing the textile elements from the textile structure (id.
at 3:12–19, 5:67–6:5), and incorporating the textile element(s) “to form all
types of garments worn by men, women and children” (id. at 5:56–58
(emphasis added); see id. at 1:33–35).8 In particular, Reed describes
See supra Section II.A.; see also Ex. 1003 ¶ 36 (“Based on my experience,
I have an understanding of the capabilities of the skilled person in this field,
and my opinions are provided from the perspective of such a person.”).
6

7

The record lacks arguments or evidence of secondary considerations. See
generally PO Resp.; Pet. Supp. Br. 4–5.
8

Patent Owner contends that Reed is not analogous art. PO Resp. 29–31. In
particular, Patent Owner contends that Reed is not from the same field of
endeavor as the challenged claims and that Reed’s teachings are not
reasonably pertinent to the particular problem with which the recited
methods are involved. Id. at 29–30. Because Reed is directed to the
manufacture of all types of garments, including footwear (Reply 12–14; see
20

IPR2016-00921
Patent 7,814,598 B2
methods of making preseamed garments (id. at 3:8–21) or preseamed
sections of a garment, which sections may be seamed together “by standard
practices” to form a garment (id. at 6:10–17). As Reed explains,
From the preceding description of the preferred embodiments,
it is evident that the objects of the invention are obtained to
produce a preformed and preseamed fabric on a circular
knitting machine so as to reduce time, cost and labor involved
in making garments. The types of program used to form the
final product is to be varied with the imagination of the
programmer, as well as the type of product which may be
formed. The essence of the present invention is a garment
formed of juxtaposed sections of simultaneously knitted,
concentric tubes interconnected by knitting.
Id. at 6:18–28 (emphasis added).
Reed’s Figure 1 is reproduced below.

Ex. 1006, 1:33–44), and Reed is related directly to preparation of garments’
layouts from a knitted textile structure (Reply 14–15; see Ex. 1006, 2:29–
35), we are persuaded that Reed is analogous art to the challenged claims.
21

IPR2016-00921
Patent 7,814,598 B2
Figure 1 depicts tubular knitted structure 10, such as that produced by a
circular knitting machine. Id. at 2:66–3:1. Knitted structure 10 comprises
inner tube 12 and outer tube 14, and
[a]round the circumference of the knitted structure 10 are
illustrated three garments which, for example, may be skirts 16,
18 and 20.[9]
The garments 16, 18 and 20 are outlined by a plurality of
interconnecting knitted stitches 22 and 24. The interconnecting
knitting 22 not only forms the outline of the garments 16, 18
and 20, but joins the inner tube 12 to the outer tube 14 so as to
create a seam. The interconnecting knitting 24 is merely to
define the lower outline of the skirt upon which the pattern may
be cut.
Id. at 3:1–15 (emphasis added).
Reed explains that the use of circular knitting machines in the garment
industry historically was limited to making tubular, knitted garments, such
as ladies stockings, sweaters, and other garments, wherein the entire knitted
fabric was used as a unit to form one surface of a finished garment. Pet. 10–
11 (citing Ex. 1006, 1:33–44; Ex. 1003 ¶ 94); see supra Section II.C.1.
(note 6). Reed further teaches that “[c]omputer electronic knitting brought
about the possibilities of making patterns and designs of up to three million
stitches (previously approximately 50,000 was maximum). With this
system, patterns and designs are possible that before could not be made.”
Ex. 1006, 1:50–55; see Ex. 1003 ¶ 95. Reed states that its method uses “an
electronic circular double knitting machine” and that an “object of the
[Reed] invention is to provide a method of reducing the cost of
manufacturing of garments by using the versatility of a computerized
9

We are persuaded that “skirts” are “body garments.” See Ex. 1003 ¶ 97.
22

IPR2016-00921
Patent 7,814,598 B2
electronic knitting machine.” Ex. 1006, 1:58–59, 2:22–25, Figs 1–6; see
Ex. 1003 ¶ 95. Further, Reed teaches that:
If the present process is used to preform an exterior
decorative fabric having a lining or inner-lining or interfacing
attached thereto, the severed sections must be assembled and
seamed by standard practices. By providing the lining or
interfacing already attached to the section, a substantial amount
of time is saved in measuring, marking and cutting the original
fabric and lining or interlining as well as stitching them
together.
Ex. 1006, 6:10–17 (emphases added).
3. Nishida (Ex. 1009)
Nishida is directed to the production of a shoe upper by (1) cutting out
a layout in the form of the shoe upper from a web of material and
(2) shaping the shoe upper by connecting material parts of the layout by the
formation of seams. See Ex. 1009, Abstract. By this process, such shoe
uppers may be produced efficiently and in reduced time despite the many
individual parts present or to be made visible. Id.

23

IPR2016-00921
Patent 7,814,598 B2
Figure 2 of Nishida is reproduced below.

Figure 2 illustrates an embodiment of the upper layout according to Nishida.
Id. at 3:6–12. Web of material 1 may include one or a plurality of layouts 2.
Further, web of material 1 includes backing 4 that may be a knitted material,
and different areas of layouts 2 may be formed by knitting different yarns or
fibers on backing 4. Id. at 3:15–26, 5:63–6:2. Moreover, Nishida’s web of
material 1 may be “knitted in two or more layers or can be especially thick
or additionally embroidered.” Id. at 3:66–4:1.
Consequently, web of material 1 may be used to produce layouts 2 by
different production measures, such as different styles, yarn material, color,
material thickness, number of layers of material, or the like, simultaneously
with the production of web of material 1. Id. at 4:12–18; see id. at 3:66–4:1,
Figs. 1, 2. Each layout 2, including a sole part, may be cut from web of
material 1 as a unit and processed into an upper. Id. Nishida describes the
24

IPR2016-00921
Patent 7,814,598 B2
manufacture of an article of footwear incorporating such an upper. Id. at
3:9–12, Fig. 3.
Figure 4 of Nishida is reproduced below.

Figure 4 depicts a section of web of material 1 with radially symmetric
layout 2 having sole part sections 29.1 and 29.2 provided on opposite sides
of the upper, as well as tongue 40. Id. at 2:64–66. Nishida sets forth the
following in association with Figure 4:
[T]ongue 40, for example, according to FIG. 4, can be provided
also in the course of producing the web of material 1 with
different weave structures and/or weave patterns and/or
embroideries or with one or with several prints or the like. On
a web of material 1, different tongues 40 can be produced
25

IPR2016-00921
Patent 7,814,598 B2
corresponding to a shoe shape and/or a shoe size both in shape,
size, color or colors, patterns or the like. Preferably, in each
case, related tongues 40 are produced simultaneously with a
layout 2 on same web of material 1.
For optimum surface use of web of material 1, a tongue
40 can be produced in the open space 41 located between the
two layout sections 42 and 43, which later form the rear of foot
or heel-pan shoe part.
Preferably, each layout 2 has at least five, preferably
more than ten, patterns and a tongue 40 has at least two,
preferably at least three patterns produced or appearing, which
are different from one another in each case.
Id. at 5:27–44; cf. id., Fig. 2 (reproduced above, depicting web of material 1
including layouts 2 without tongues). Thus, as depicted in Figure 4, tongues
may be individual parts of an article of footware “produced separately and
applied to the upper later” and are of a relatively simple, substantially
rectangular, shape. See Ex. 1009, 4:39–40 (describing the inclusion of a
tongue in a known article of footware); Figs. 3, 4. Tongues and uppers may
be taken from the same web of material or from different webs. See id. at
5:37–40.10
4. Petitioner’s Arguments
Petitioner argues that Reed and Nishida teach or suggest all of the
limitations of claims 1–13 of the ’598 patent. Pet. 9–29. In particular,
Petitioner argues that Reed and Nishida teach or suggest all of the
limitations of each of independent claims 1 and 9. Id. at 14–16 (claim 1),
19–20 (claim 9).
10

Although we find that Nishida teaches layouts both of an upper and of a
tongue, Petitioner does not argue that Nishida’s tongue layouts separately
teach textile elements that may be incorporated into an article of footwear.
See Pet. 16, 28; Ex. 1003 ¶ 86, App’x C (pg. 140).
26

IPR2016-00921
Patent 7,814,598 B2
a. Independent Claims 1 and 9
Independent claim 1 recites “[a] method of manufacturing an article of
footwear.” Ex. 1001, 11:43; see also id. at 12:21 (claim 9). Reed teaches
that its circular knitting methods may be used to manufacture “all types of
garments.” Ex. 1006, 5:56–57. Although Reed specifically identifies
stockings and hosiery (id. at 1:33–35, 5:57–58), e.g., footwear, as garments
manufactured by circular knitting, Reed does not describe shoes expressly as
“garments.” Nishida teaches processes for manufacturing footwear and that
the webs of material depicted in its Figures 1 and 2 are “produced by a
conventional textile process, [for] example, by weaving and/or knitting
and/or embroidering.” Ex. 1009, 3:6–9 (emphases added); see Ex. 1003
¶ 132. Thus, we are persuaded that Petitioner has shown that Reed alone, as
well as the combined teachings of Reed and Nishida,11 teach or suggest a
method of manufacturing an article of footwear.
The method of claim 1 further comprises the step of “mechanicallymanipulating a yarn with a circular knitting machine to form a cylindrical
textile structure.” Ex. 1001, 11:45–46 (emphasis added); see also id. at
12:23–25 (claim 9 reciting “a wide-tube circular knitting machine”
(emphasis added)). Reed teaches the use of circular knitting machines,
11

Because Petitioner argues that Reed alone, as well as the combined
teachings of Reed and Nishida, teach or suggest this limitation of claim 1
(Pet. 12–13) and that Nishida alone teaches or suggests the final limitation of
claim 1 (id. at 16), Petitioner’s asserted ground necessarily rests on the
combined teachings of Reed and Nishida. See Supp. Tr. 13:19–14:6; Pet.
Supp. Br. 3 (“Indeed, for Ground 1, the Petition cited to both Nishida and
Reed as disclosing multiple elements (e.g., Pet., 14-16), and the Board
agreed that both individually teach multiple claim elements. See [1st FWD],
23-24.”).
27

IPR2016-00921
Patent 7,814,598 B2
including such machines as can produce body garments, such as skirts (see
id. at Fig. 2), shirts and pants (see id. at Fig. 3), and dresses (see id. at Fig.
6), for men, women, and children (id. at 5:56–57). In view of our
construction of the term “a wide-tube circular knitting machine” above (see
supra Section II.B.2.; see also Ex. 1001, 7:6–8 (describing circular knitting
machine capable of producing textile structures large enough for
manufacturing “body garment[s]”)), we are persuaded that Reed teaches not
only a circular knitting machine, but also a wide-tube circular knitting
machine. See Pet. 18 (claim 2 recites a “wide-tube circular knitting
machine” and Petitioner relies solely on Reed to teach this limitation);
Ex. 1003 ¶ 97.
The method of claim 1 further comprises the step of “removing at
least one textile element from the textile structure.” Ex. 1001, 11:47–48; see
also id. at 12:26 (claim 9 recites “removing a textile element from the textile
structure”). Because the recited “textile structure” is manufactured on a
circular knitting machine, we are persuaded based on the evidence cited in
the Petition that Petitioner has shown that the teachings of Reed, or the
combined teachings of Reed and Nishida, teach or suggest this limitation of
the independent claims. Pet. 16 (claim 1; citing, e.g., Ex. 1006, 3:12–19; Ex.
1009, 1:10–18); id. at 19–20 (claim 9); see Ex. 1003 ¶¶ 103–104.
Finally, the method of claim 1 comprises the step of “incorporating
the textile element into an upper of the article of footwear.” Ex. 1001,
11:49–50 (emphases added); see id. at 12:27–28 (claim 9). Petitioner relies
solely on Nishida to supply this limitation, and argues that Nishida teaches
this limitation of the independent claims. Pet. 16 (claim 1), 20 (claim 9); see
Ex. 1003 ¶¶ 124–125. We agree.
28

IPR2016-00921
Patent 7,814,598 B2
Petitioner argues that a person of ordinary skill in the art would have
had reason to combine the identified teachings of Reed and Nishida to
achieve the methods recited in independent claims 1 and 9. Pet. 12–14. In
particular, Petitioner argues that, because Reed teaches that its methods are
applicable to “all types of garments” (Ex. 1006, 5:56–57 (emphasis added);
see Ex. 1003 ¶ 131)), a person of ordinary skill in the art would have had
reason to apply the teachings of Reed to the processes and shoe parts of
Nishida. Pet. 13 (citing Ex. 1003 ¶ 133). Further, Petitioner argues that,
because both Reed and Nishida teach the advantages of reducing cost
through the use of computer-controlled knitting machines, a person of
ordinary skill in the art would have had reason to combine their teachings.
Id. (citing Ex. 1003 ¶¶ 134–135). Finally, Petitioner argues that a person of
ordinary skill in the art would have had reason to apply Reed’s methods for
producing textile elements, from which to produce garments, to produce
Nishida’s shoe upper layouts. Id. at 13–14.
b. Dependent Claims 2–8 and 10–13
With respect to the challenged dependent claims, Petitioner argues
that Reed teaches or suggests the additional limitations recited in claim 2
(Pet. 17–18; see supra Section II.B.2.); that Nishida teaches or suggests the
additional limitations recited in claims 7, 8, 12, and 13 (id. at 28–29); and
that Reed and/or Nishida teaches or suggests the additional limitations
recited in claims 3–6,12 10, and 11 (id. at 18–28; see supra Section II.B.1.).

In particular, claim 6 recites the method of claim 1 “wherein the step of
mechanically manipulating includes forming apertures in the textile
element.” Ex. 1001, 12:10–12. Although Patent Owner contends that
Petitioner fails to demonstrate that Nishida teaches forming apertures by
29
12

IPR2016-00921
Patent 7,814,598 B2
Petitioner provides a detailed mapping of the limitations of each of these
dependent claims onto the teachings of Reed and/or Nishida. See Ex. 1003,
App’x A. Moreover, Petitioner argues that a person of ordinary skill in the
relevant art would have had at least the same reasons to combine the
teachings of Reed and Nishida to achieve the methods recited in these
dependent claims, as those given for combining the teachings of Reed and
Nishida to achieve the recited methods of the independent claims. See id. at
12–14.
Although we have reviewed the entirety of Petitioner’s analysis and
evidence for both the independent and dependent claims, we emphasize the
following specific evidence and arguments. Claim 4 recites:
The method recited in claim 1, wherein the step of
mechanically manipulating includes forming the textile element
to include a first area and a second area with a unitary
construction, the first area being formed of a first stitch
configuration, and the second area being formed of a second
stitch configuration that is different from the first stitch
configuration to impart varying textures to a surface of the
textile element.
Ex. 1001, 11:58–12:6 (emphasis added). Claim 11 depends from claim 9
and recites substantially the same limitations as claim 4. Id. at 12:33–40.
Petitioner argues that Reed teaches these limitations in two ways.
Pet. 21. First, Petitioner argues Reed teaches that the edges of the garments
16, 18, 20, depicted in Reed’s Figure 1 (reproduced above) are formed by
interknitted stitches and that the remainder of the garments 16, 18, 20 are
omitting stitches while knitting to form a net-like structure (see Pet. 26–28
(citing Ex. 1009, 4:1–5, 4:31–38); PO. Resp. 50–55; Reply 23–25), we are
persuaded that Nishida teaches the formation of apertures and that forming
apertures by omitting stiches was a well-known technique (see Ex. 1010, 57,
70, 172; Ex. 1003 ¶¶ 199, 200).
30

IPR2016-00921
Patent 7,814,598 B2
formed by non-interknitted stitches. Id. (citing Ex. 1003 ¶ 115).
Specifically, the seams or outlines of the garments 16, 18, 20 are formed
with interknitted stitches (shown in X’s and O’s in Reed’s Figure 2), which
are formed by feeds 1, 2, 3, and 4 on needles 7, 9, 8, and 10, as shown in
Reed’s Figures 3B and 3D. Ex. 1006, 5:3–18, Figs. 3A–3E; see Ex. 1003
¶ 115. Reed further teaches that “two feeds [i.e., feeds 1, 3 for the dial
needles] are used for one course of the inner tube 12 and two feeds [i.e.,
feeds 2, 4 for the cylinder needles] are used for the outer tube 14.”
Ex. 1006, 4:61–64, Figs. 2, 2A, 3A–3E; see id. at 5:67–6:3; Ex. 1003 ¶¶ 115,
116. “Because the interknitted stitches are part of the garments 16, 18, 20,
and the garments 16, 18, 20 also comprise areas that are only formed as part
of the outer tube 14 or the inner tube 12, the garments 16, 18, 20 have a
plurality of different knitted textures formed by varying at least one of the
stitch type and the yarn type.” Pet. 21 (citing Ex. 1003 ¶ 116). Thus,
because the stitches create a texture different from the remainder of the
textile element, Petitioner concludes that Reed teaches “a first area and a
second area with a unitary construction.”
Second, Petitioner argues that Reed teaches “how the two layers 12,
14 themselves may be formed of different yarns or stitch configurations.”
Pet. 21 (citing Ex. 1003 ¶ 117).
If the two tubes 12 and 14 are knitted of two different
fibers, the knitted structure may form sections of a garment to
be assembled in the regular manner. For example, the outside
tube 14 may be a normal decorative fabric wherein the inner
tube 12 may be formed of material such as lining. By
simultaneously knitting and interknitting the two layers, a step
is saved by producing a section of garment which is prelined.
Similarly, the layer 12 (instead of being lining) may be
interfacing, which is attached to the outside layer 14 and again
31

IPR2016-00921
Patent 7,814,598 B2
saves a step in the manufacture of garments. Another example
where two different fibers are used to make the inner and outer
tubing would be in the foundation garment industry, where the
inner fabric could be cotton or other soft fibers and the outer
fabric would be lycra or elasticized yarns.
Ex. 1006, 3:61–4:8; see Pet. 21–22; Ex. 1003 ¶ 117. Thus, Petitioner
alternatively argues that the separate, circular knitted tubes may be the first
and second areas recited in claims 4 and 11.
Finally, Petitioner alternatively argues that Nishida teaches these
limitations. Pet. 22. In particular, Nishida teaches “in the embodiment
according to FIGS. 1 and 2, with layout 2 on the web of material 1, areas 26
and 27 are produced in a configuration, color or style that is different from
the other areas.” Ex. 1009, 4:6–9 (emphasis added)); see id. at Abstract;
1:65–69, 2:40–45, 3:15–26, 3:47–48, 4:12–28, 4:48–55, 5:56–6:2; Ex. 1003
¶¶ 118, 119. Nishida further states
[l]ayout 2 is divided into different individual parts or areas,
which differ from one another, such as by being of another
material style and/or by being of different fibers or yarns, for
example, from wool, wool with metal yarns, silk, silk with
metal yarns, wool with plastic fibers or the like . . . .
Ex. 1009, 3:15–25; see Ex. 1003 ¶ 121. Petitioner argues that Nishida’s
teachings achieve a textile element with multiple knit constructions. Pet. 22.
Specifically, these varying constructions of Nishida’s layout may achieve
varying elasticity, air permeability, absorptivity, softness, extensibility, wear
resistance, and appearance, which Petitioner argues teach the “varying
textures” recited in these claims. Id. (citing Ex. 1009, 3:43–52, 5:63–6:2,
6:1–31); see Ex. 1003 ¶¶ 120, 121. Thus, Petitioner argues that either Reed
or Nishida teaches these limitations.

32

IPR2016-00921
Patent 7,814,598 B2
Although we have emphasized specific evidence and arguments, we
have reviewed the entirety of Petitioner’s analysis and evidence for
independent claims 1 and 9, as well for dependent claims 2–8 and 10–13,
and the supporting testimony of Mr. Holden. As noted above, Petitioner
relies on the same reasons to combine the teachings of Reed and Nishida for
its challenges to each of claims 1–13 of the ’598 patent. See Pet. 12–14.
5. Patent Owner’s Contentions
Patent Owner raises seven separate contentions why Petitioner fails to
demonstrate that the combined teachings of Reed and Nishida render any of
claims 1–13 of the ’598 patent unpatentable. See PO Resp. 3–4. Because
we find certain of the Patent Owner’s contentions persuasive and dispositive,
we do not address each of Patent Owner’s separate contentions.
a. Low Level of Ordinary Skill in the Art
Patent Owner contends that Petitioner’s assessment of the level of
ordinary skill in the art is conclusory and is not based on the factors that the
Board has considered in determining the level of ordinary skill in the art. Id.
at 12–13. We have addressed the appropriate assessment of the level of
ordinary skill in the art above. See supra Section II.A. Whether the level of
ordinary skill in the art is “low” or “high” may make it more or less difficult
for Petitioner to demonstrate obviousness. PO Resp. 14 (“In sum, the level
of ordinary skill in the art at the time of the ’598 patent was low. It is more
difficult, therefore, for Petitioner to establish obviousness. . . .”); see Kinetic
Concepts, Inc. v. Smith & Nephew, Inc., 688 F.3d 1342, 1366 (Fed. Cir.
2012) (“Because it is generally easier to establish obviousness under a
higher level of ordinary skill in the art, we must assume that, in light of the
33

IPR2016-00921
Patent 7,814,598 B2
jury’s verdict, it adopted the lower level of skill proposed by S & N.”
(citation omitted)). However, a “low” relative level of skill alone does not
prevent Petitioner from demonstrating obviousness.
Here, only Petitioner – the party bearing the burden of persuasion –
has proposed an assessment of the level of ordinary skill in the art. See
supra Section II.A.; but see IPR2013-00067, Ex. 2010 ¶ 52 (Patent Owner
proposed that a “POSITA . . . would have a few years of experience with
design and development of footwear and knowledge of textiles used in such
footwear”). For the reasons set forth above, we have adopted Petitioner’s
assessment. Further, as noted above, Petitioner’s declarant testifies from the
point of view of someone with the assessed level of skill, a level which the
declarant exceeds. See Ex. 1003 ¶ 36; Ex. 1004. Thus, regardless of
whether the level of ordinary skill is deemed “low” or “high,” we are not
persuaded that the relative assessment of the level of ordinary skill in the art
here affects our evaluation of Petitioner’s arguments and evidence.
b. Weight Given to Declarant’s Testimony
Patent Owner contends that Petitioner’s declarant, Mr. Holden, did not
author his declaration and, during cross-examination, Mr. Holden was
unable to answer basic questions about the declaration, the patent at issue,
the prior art, footwear, and knitting technologies. PO Resp. 15; see
Ex. 2004, 12:2–18. Mr. Holden testified that “[he] worked with counsel one
on one to basically give her a verbal description of my opinions and -- and
my thoughts on the -- on these issues, and she did the actual typing of the
document.” Reply 3 (quoting Ex. 2004, 12:7–11); see Ex. 2004, 12:12–
13:16. Declarants often have assistance in authoring their declarations. See
Square, Inc. v. Think Computer Corp., Case CBM2014-00159, slip op. at
34

IPR2016-00921
Patent 7,814,598 B2
26–27 (PTAB Nov. 27, 2015) (Paper 47) (“the mechanics of declaration
preparation is ‘a waste of time, both for the witness and the Board’”).
Mr. Holden was not required to be the sole author of his declaration. Rather,
the relevant issue regarding the preparation of Mr. Holden’s declaration is
whether Mr. Holden adopted the content of his declaration as his own. Here,
he has. See Ex. 1003 ¶¶ 3, 4, 209.
As Patent Owner suggests, we weigh Mr. Holden’s declaration
testimony in light of his testimony on cross-examination. Although
Mr. Holden indicated that he was unable to define or was unfamiliar with
certain terms during cross-examination, he did name references, including
Spencer (Ex. 1010), that he could and would consult to obtain the answers to
specific questions. Tr. 63:20–64:13. Moreover, Patent Owner’s counsel
acknowledged that persons of ordinary skill in the art (or declarants) do not
have to have all of the knowledge relevant to their testimony in their heads
and that they are allowed to consult references, as appropriate. Id. at 63:20–
64:2. Although Patent Owner notes that Mr. Holden apparently was not
aware of Spencer until this inter partes review (see Ex. 2004, 77:1–3;
Tr. 64:1–6), his learning of and relying on a new reference alone is not
sufficient reason to disregard, i.e., give no weight to, Mr. Holden’s
testimony. Further, the issue here is not whether Mr. Holden is a person of
ordinary skill in the art, but rather whether his testimony is of value to the
panel. See Tr. 64:15–18. Thus, as indicated in the discussion below, we
determine the appropriate weight to give to Mr. Holden’s testimony.

35

IPR2016-00921
Patent 7,814,598 B2
c. Failure to Explain How and Why a Person of
Ordinary Skill in the Art Would Have Combined the
Teachings of Reed and Nishida to Achieve the Recited
Methods
Initially, Patent Owner contends that Petitioner fails to address the full
scope and content of the prior art and ignores critical disclosure of both
references. PO Resp. 19. In particular, Patent Owner notes that “Reed states
that his ‘present invention relates generally to knitted garments and more
particularly to a garment which is preseamed and preformed on a circular
knitting machine.’” Id. (quoting Ex. 1006, 1:8–11 (emphasis omitted)); see
Tr. 36:3–9. Patent Owner contends that this description of Reed’s “present
invention” limits the scope of Reed to preseamed garments made on circular
knitting machines. PO Resp. 19–20. Although this description may limit
the scope of Reed’s recited methods, the scope of Reed’s teachings is
broader than what Reed specifically refers to as the “present invention”
(Ex. 1006, 1:8–11) and encompasses “the conventional methods involv[ing]
superimposing two preexisting panels of material, forming a garment into
those preexisting panels, cutting the shaped garment from the two
preexisting panels, and then seaming the two cutouts together to create the
final garment” (PO Resp. 20 (citing Ex. 1006, 6:18–22)). See Reply 7
(quoting In re Heck, 699 F.2d 1331, 1332–33 (Fed. Cir. 1983) (“The use of
patents as references is not limited to what the patentees describe as their
own inventions or to the problems with which they are concerned. They are
part of the literature of the art, relevant for all they contain.” (citation
omitted))). Although Reed’s teachings may be broader than preseamed
garments and garment sections, Petitioner relies only on the embodiments of
Reed’s invention that are directed to preseamed garments and to preseamed
36

IPR2016-00921
Patent 7,814,598 B2
sections of garments. Pet. 14–15 (citing Ex. 1006, 1:58–64); Reply 6–8; see
Tr. 9:17–10:7, 16:17–17:8, 25:17–26:21, 30:4–11.
With respect to Nishida, Patent Owner contends that Nishida’s web of
material has two primary components: a backing and one or more layouts
printed on or produced in the backing. PO Resp. 24–25 (citing Ex. 1009,
1:40–2:53, 3:6–26). The backing may be formed prior to the production of
the layouts. Id. Patent Owner notes that Nishida seeks to improve on
previously known methods for producing layouts, such as those described in
German Patent No. 627 878. Id. at 23. Nevertheless, the reference to the
German patent is exemplary, and we do not interpret Nishida as limited to
the methods described in the German Patent. See Ex. 1009, 1:39–46;
Reply 8.
After the backing is formed, Nishida teaches printing on or producing
layouts in the backing. Ex. 1009, 3:13–15. The layouts are printed by a
fabric printing process onto the backing or produced by a textile production
process inside the backing. PO Resp. 25 (citing Ex. 1009, 1:50–56, 2:20–26,
3:13–15, 5:45–52); see Reply 9. “[T]he material can be woven or knitted in
two or more layers or can be especially thick or additionally embroidered.”
Ex. 1009, 3:66–4:1.
As noted above, each of the embodiments of Reed, relied upon by
Petitioner, describes the pre-seaming of garments or sections of garments
before their removal from the cylindrical textile structure. The teachings of
Nishida, relied upon by Petitioner, do not teach pre-seaming but, instead,
teach the seaming of the upper layout after its removal from the web of
material. Ex. 1009, 4:19–30 (Figs. 2 and 3), 5:3–26 (Figs. 4 and 5); see
Pet. 28; PO Resp. 26–27; Tr. 45:2–46:8. Patent Owner contends that
37

IPR2016-00921
Patent 7,814,598 B2
Petitioner fails to explain why and how a person of ordinary skill in the art
would combine the relied upon teachings of Reed and Nishida to achieve the
recited methods of the challenged claims. PO Resp. 31–37. In particular,
because Petitioner relies on the teachings of the embodiments of Reed which
describe pre-seamed garments and pre-seamed sections of garments, and
because Nishida does not teach such pre-seaming, Patent Owner contends
that Petitioner has not shown why and how a person of ordinary skill in the
art would combine the teachings of Reed and Nishida to achieve the recited
methods of the challenged claims. For the following reasons, we agree.
i.

Failure of Proof

Petitioner bears the burden of proving by a preponderance of the
evidence that the challenged claims are unpatentable. This includes
demonstrating by a preponderance of the evidence that a person of ordinary
skill in the art would have had reason to combine the teachings of Reed and
Nishida to achieve the methods recited in the challenged claims. As noted
above, Petitioner argues that a person of ordinary skill in the art would have
had at least three reasons to combine the teachings of Reed and Nishida to
achieve the methods recited in the challenged claims. Pet. 12–14; see
Tr. 10:12–11:12. First, Petitioner argues that, because Reed teaches that its
methods are applicable to “all types of garments” (Ex. 1006, 5:56–57
(emphasis added); see Ex. 1003 ¶ 131), a person of ordinary skill in the art
would have had reason to apply the teachings of Reed to the processes and
shoe parts of Nishida. Pet. 13 (citing Ex. 1003 ¶ 133). Second, Petitioner
argues that, because both Reed and Nishida teach the advantages of reducing
cost through the use of computer-controlled knitting machines, a person of
ordinary skill in the art would have had reason to combine their teachings.
38

IPR2016-00921
Patent 7,814,598 B2
Pet. 13 (citing Ex. 1003 ¶¶ 134–135). Third, Petitioner argues that a person
of ordinary skill in the art would have had reason to apply Reed’s methods
for producing textile elements, from which to produce garments, to produce
Nishida’s shoe upper patterns. Id. at 13–14. However, none of these
reasons or any other reason identified by Petitioner addresses the differences
between Reed and Nishida, specifically pre-seaming.
Independent claims 1 and 9 do not mention seaming or pre-seaming
expressly. See Ex. 1001, 11:43–50 (claim 1), 12:21–28 (claim 9). Further,
Patent Owner acknowledged that at least independent claims 1 and 9 do not
mention seaming or pre-seaming. Tr. 37:7–10. Claims 2, 3, 5–8, 10, 12,
and 13 also do not mention seaming or pre-seaming expressly. See
Ex. 1001, 11:51–57, 12:7–20, 12:29–32, 12:41–48. As we noted above,
however, claims 4 and 11 recite “a unitary construction,” which “is intended
to express a configuration wherein portions of a textile element are not
joined together by seams or other connections.” Id. at 6:43–46. Thus, we
interpret the limitations of claims 4 and 11 to recite a textile element having
areas of different textures, but without seams. See supra Section II.B.1.
Moreover, under principles of claim differentiation, we are persuaded that
the scope of challenged claims 1–3, 5–10, 12, and 13 is broad enough to
encompass methods related to both pre-seamed and unseamed garments and
garment sections. Nothing in the Specification (Ex. 1001) or in the
prosecution history (Ex. 1002) of the ’598 patent overcomes the presumptive
scope of the independent claims arising from the doctrine of claim
differentiation. See Kraft Foods, Inc. v. Int’l Trading Co., 203 F.3d 1362,
1368 (Fed. Cir. 2000).

39

IPR2016-00921
Patent 7,814,598 B2
Neither Petitioner nor its declarant, Mr. Holden, addresses the fact
that each of the relied upon embodiments of Reed teaches pre-seaming, and
that none of the relied upon teachings of Nishida involves pre-seaming. PO
Resp. 31–37; see Tr. 34:17–35:12; see also Ex. 2004, 161:5–163:19
(Mr. Holden was unable to identify teachings in Nishida directed to preseamed and preformed uppers). Moreover, during cross-examination,
Mr. Holden acknowledged that he had not been asked to nor had he
considered how the teachings of these references could be combined. In
particular, the following colloquy occurred during Mr. Holden’s deposition:
Q. (By Mr. Harris) And isn’t it also true that nowhere in
your declaration do you describe how a person of ordinary skill
in the art would create a preseamed and preformed footwear
upper on a circular knitting machine?
MS. WILLIAMS: Objection.
THE WITNESS: I don't recall that there’s any por- -portion of that. Again, I was not asked to hypothesize on that
particular po1st
Q. (By Mr. Harris) Okay. Just so I’m clear, you weren't
asked to offer an opinion on how a person of ordinary skill in
the art would create a preseamed and preformed footwear upper
on a circular knitting machine; correct?
A. I don’t recall that I was asked that particular question.
Q. Thank you.
Ex. 2004, 152:22–153:13; see Tr. 53:19–57:5.
In ActiveVideo Networks, Inc. v. Verizon Communications, Inc., our
reviewing court found that where “[t]he expert failed to explain how specific
references could be combined, which combination(s) of elements in specific
references would yield a predictable result, or how any specific combination
would operate or read on the asserted claims,” such testimony “is not
40

IPR2016-00921
Patent 7,814,598 B2
sufficient and is fraught with hindsight bias.” 694 F.3d 1312, 1327 (Fed.
Cir. 2012); see PO Resp. 55–57; Reply 25–26; see also Hyundai Motor Co.
v. Blitzsafe Texas, LLC, Case IPR2016-01476, slip op. at 33 (PTAB Jan. 24,
2017) (Paper 12) (“A determination of obviousness cannot be reached where
the record lacks ‘explanation as to how or why the references would be
combined to produce the claimed invention.’”; quoting Trivascular, Inc. v.
Samuels, 812 F.3d 1056, 1066 (Fed. Cir. 2016)). Despite Mr. Holden’s
testimony that a person of ordinary skill in the art would have had reason to
combine the teachings of Reed and Nishida to achieve the recited methods
of the challenged claims (see Ex. 1003 ¶¶ 131–137), Mr. Holden’s testimony
during cross-examination makes clear that he did not perform the necessary
analysis to support his conclusions. See 37 C.F.R. § 42.65(a).
Petitioner’s evidence, and, in particular, Mr. Holden’s testimony, also
is deficient with respect to the limitations recited in claims 4 and 11, in that
it fails to offer any explanation why a person of ordinary skill in the art
would combine the teachings of Reed and Nishida to achieve a method in
which seams of the kind taught by Reed apparently are prohibited.
Petitioner argues that Reed teaches the “a unitary construction” limitation of
claims 4 and 11 either because the interconnecting stitches are a different
texture from the rest of the garment or garment section or because the inner
and outer circular knit materials may have different textures. Pet. 21–22.
Thus, Mr. Holden testifies in support that Reed’s interknitted stitches, i.e.,
the joining seams, teach textures different from the remainder of Reed’s
finished garments or garment sections (Ex. 1003 ¶¶ 115, 116) or that circular
knit materials, although joined by seams, may have different textures (id.
¶ 117). These arguments and testimony are inconsistent with Petitioner’s
41

IPR2016-00921
Patent 7,814,598 B2
position that either the finished garments or garment sections are the “textile
element” recited in the challenged claims and that, in claims 4 and 11, “the
textile element [includes] a first area and a second area with a unitary
construction.” See Tr. 16:17–17:12. These inconsistencies are not
explained.
Alternatively, Petitioner argues (Pet. 22) and Mr. Holden testifies
(Ex. 1003 ¶¶ 118–121) that the limitations of claims 4 and 11 are taught by
Nishida. In particular, Mr. Holden testifies that Nishida describes that, “in
the embodiment according to FIGS. 1 and 2, with layout 2 on the web of
material 1, areas 26 and 27 are produced in a configuration, color or style
that is different from the other areas.” Id. ¶ 118 (quoting Ex. 1009, 4:6–9
(emphasis added by declarant)). Mr. Holden concludes from his analysis of
Nishida that “[a] person of ordinary skill in the art at least as of March 3,
2004 would have understood that Nishida’s disclosure regarding varying the
knit of individual areas would include having a substantially smooth texture
in one area, and a rougher texture in another area.” Id. ¶ 121. What
Mr. Holden fails to explain, however, is how and why this teaching of
Nishida is combined with the teachings of the relied upon embodiments of
Reed to achieve the methods recited in claims 4 and 11. Petitioner and its
declarant rely instead on the general arguments presented in connection with
independent claims 1 and 9 regarding reasons to combine the teachings of
Reed and Nishida. Pet. 12–14; Ex. 1003 ¶¶ 131–137. Given the language of
the claims, our interpretation of that language, and the teachings of Reed and
Nishida, we find Petitioner’s arguments and evidence, especially
Mr. Holden’s testimony, insufficient and unpersuasive.

42

IPR2016-00921
Patent 7,814,598 B2
Consequently, having weighed Petitioner’s evidence of reasons to
combine the teachings of Reed and Nishida, noting the deficiencies in
Mr. Holden’s analysis in support of those reasons, we are not persuaded that
Petitioner has demonstrated by a preponderance of the evidence that a
person of ordinary skill in the art would have had reason to combine the
teachings of Reed and Nishida to achieve the methods recited in the
challenged claims.
ii.

Combined Teachings of Reed and Nishida Render Reed
Inoperable for its Intended Purpose

As our reviewing court has explained,
“obviousness is a question of law based on several underlying
factual findings,” including what a reference teaches, and
whether proposed modifications would change a reference’s
“principle of operation.” Where “a patent claims a structure
already known in the prior art that is altered by the mere
substitution of one element for another known in the field, the
combination must do more than yield predictable results.”
However, combinations that change the “basic principles under
which the [prior art] was designed to operate,” or that render
the prior art “inoperable for its intended purpose,” may fail to
support a conclusion of obviousness.
Plas-Pak Industries, Inc. v. Sulzer Mixpac AG, 600 F. App’x 755, 757–758
(Fed. Cir. 2015) (non-precedential) (citations omitted, emphasis added).
As noted above, we find that the fundamental purpose of Reed’s
methods is to produce pre-seamed, finished garments or sections of
garments. E.g., Ex. 1006, 1:58–64, 3:8–21, 5:67–6:17; see supra
Section II.C.2. As Reed explains, “[t]he essence of the present invention is a
garment formed of juxtaposed sections of simultaneously knitted, concentric
tubes interconnected by knitting.” Ex. 1006, 6:25–28 (emphases added). As
we also noted above, the methods recited in challenged claims 1–3, 5–10,
43

IPR2016-00921
Patent 7,814,598 B2
12, and 13 do not specify whether or not the textile elements are pre-seamed.
Thus, we interpret those claims broadly to cover both pre-seamed and
unseamed textile elements.
As discussed above, however, claims 4 and 11 are interpreted to
describe “a unitary construction,” which does not include seams. See supra
Section II.B.1. Thus, “a unitary construction” does not appear to read on
Reed’s pre-seamed, finished garments or garment sections. Further,
Petitioner does not argue that, like Reed, Nishida teaches pre-seamed uppers
or sections of uppers or tongues. Consequently, we determine that, relying
on Nishida’s teachings to supply the “unitary construction” limitation with
respect to claims 4 and 11 in the context of the teachings of Reed, as
Petitioner suggests (Pet. 22), would require the alteration of the principles of
operation of Reed or would render Reed inoperable for its intended purpose.
In response to Patent Owner’s contention that Petitioner’s
combination of the teachings of Reed and Nishida renders Reed inoperable
for its intended purpose, Petitioner argues that a person of ordinary skill in
the art would understand that
[t]o produce two single-layer layouts, the POSITA would
simply cut along the garment side of stitches 22, 24
(highlighted in red below) so that all seams remain with the
surrounding tube material, and the two layouts are no longer
connected to each other after removal from the tubes 12, 14.
Reply 18–19 (citing Ex. 1006, 3:9–15, 5:67–6:3; Ex. 1003 ¶¶ 103, 112). In
particular, Petitioner produces the following annotated version of Reed’s
Figure 1.

44

IPR2016-00921
Patent 7,814,598 B2

Reply 19. Petitioner has annotated Reed’s Figure 1 to add red lines
indicating cut lines on the garment inside of stitches 22, 24. Thus, as
depicted in annotated Figure 1, Petitioner argues that the finished garments
or garment sections could be cut from the textile structure inside of the
seams, as indicated by the red lines, to remove the seams from the garments
or garment sections. Id. According to Petitioner, “[t]he two separated
layouts are then processed and seamed along the edges, as described in both
Reed and Nishida.” Id. (emphases added). Nevertheless, Petitioner provides
no explanation of why a person of ordinary skill in the art would have reason
to seam the garments or garment sections, only then to remove the seams, so
that the garments or garment sections could be reseamed later. Id. at 18–19;
see Tr. 59:21–60:12, 68:20–70:21.13 We find these arguments contrary to
the teachings of Reed and unpersuasive.

Petitioner’s counsel argues that Reed’s seams may be used as an outline,
but we do not find that Reed teaches that cuts are taught inside the outline to
remove the seam from the garment section. Ex. 1006, 3:9–12
(Interconnected knitted stitches form both an outline and a seam joining the
inner and outer tubes.); see Tr. 70:2–21. Cutting inside the seams of a
45
13

IPR2016-00921
Patent 7,814,598 B2
Consequently, with respect to challenged claims 4 and 11, we find
that Petitioner’s proposed combination of the teachings of Reed and Nishida
would render Reed either inoperable or unsuitable for its intended purpose.
Thus, we are not persuaded that Petitioner has demonstrated by a
preponderance of the evidence that a person of ordinary skill in the art would
have had reason to combine the teachings of Reed and Nishida to achieve
the methods recited in challenged claims 4 and 11.
6. Summary
Based on our review of the arguments and evidence presented by each
party, we conclude that Petitioner fails to demonstrate by a preponderance of
the evidence that either of independent claims 1 and 9 is unpatentable as
rendered obvious by the combined teachings of Reed and Nishida.
Moreover, at least because Petitioner’s arguments for the obviousness of
dependent claims 2–8 and 10–13 over Reed and Nishida rely on the
arguments and evidence presented with respect to independent claims 1 and
9, we also conclude that Petitioner fails to demonstrate by a preponderance
of the evidence that any of the dependent claims is unpatentable as rendered
obvious by the combined teachings of Reed and Nishida. We further
determine that for the additional reasons set forth above, Petitioner fails to

finished garment would change a finished garment into an unfinished
garment or a seamed garment section into an unseamed garment section and
would appear entirely contrary to the teachings of Reed. See Ex. 1006,
3:15–21.
46

IPR2016-00921
Patent 7,814,598 B2
demonstrate by a preponderance of the evidence that claims 4 and 11 are
rendered obvious by the combined teachings of Reed and Nishida.14
D. Obviousness over Castello, Fujiwara, and Nishida
1. Overview
Petitioner argues that claims 1–13 are unpatentable under 35 U.S.C.
§ 103(a) as obvious over the combined teachings of Castello, Fujiwara, and
Nishida. To support its arguments, Petitioner provides a detailed mapping of
limitations of the challenged claims to Castello, Fujiwara, and Nishida.
Pet. 29–47. Petitioner also cites Mr. Holden’s Declaration for support. See
Ex. 1003 ¶¶ 145–192. We provide a summary of the applied references
below.15
2. Evaluating Petitioner’s Arguments and Evidence
Initially, we note that we declined to institute inter partes review of
the challenged claims based on the combined teachings of Castello,
Fujiwara, and Nishida because we found that Petitioner failed to articulate
its challenge with particularity, as required under 35 U.S.C. § 312(a)(3).
Inst. Dec. 20–22. For example, with the exception of the final limitations of
independent claims 1 and 9, for which Petitioner relies solely on the
teachings of Nishida (Pet. 37, 40), it is unclear from Petitioner’s arguments
and claim charts, which reference or combination of references Petitioner
relies upon to teach or suggest each limitation of the independent claims (id.
at 34–37, 39–40). At the Supplemental Hearing, Petitioner attempted to
14

Patent Owner also contends that Reed teaches away from its combination
with Nishida (PO Resp. 42–44; but see Reply 19–20); however, in view of
our determinations above, we need not reach this contention.
15

Nishida is summarized above. See supra Section II.C.3.
47

IPR2016-00921
Patent 7,814,598 B2
overcome this lack of particularity with Demonstrative Slide 3 (Ex. 1018, 3),
which presented a new mapping of the limitations of claim 1 onto the
applied references. Supp. Tr. 9:24–10:20, 23:15–21. This mapping,
however, is not consistent with the claim chart’s mapping of each of the
references onto the preamble and the first three limitations of claim 1.
Pet. 34–37. We have analyzed Petitioner’s arguments and evidence and
reached certain conclusions regarding a possible mapping of the limitations
of the claims onto particular references or combinations of references; by
statute and regulation, however, this was Petitioner’s task, not ours.16 35
U.S.C. § 312(a)(3); 37 C.F.R. § 42.104(b)(4); see Acceleration Bay, LLC v.
Activision Blizzard Inc., 908 F.3d 765, 775 (Fed. Cir. 2018).
Petitioner argues that the particularity requirement of 35 U.S.C.
§ 312(a)(3) and the finding of a lack of particularity has no impact on our
Final Written Decision. Pet. Supp. Br. 1. Instead, Petitioner argues that we
must determine whether Petitioner has satisfied its burden of showing

16

Unlike in Polygroup Limited MCO v. Willis Electric Company, Ltd., No.
2018-1745, 2019 WL 350753, at *7 (Fed. Cir. Jan. 28, 2019) (nonprecedential) or in Realtime Data, LLC v. Iancu, No. 2018-1154, 2019 WL
149835, at *4 (Fed. Cir. Jan. 10, 2019), Petitioner does not challenge claims
based on a single reference or on alternative combinations of references, but
only on the combined teachings of Castello, Fujiwara, and Nishida. Pet. 37
(“[A] person of ordinary skill in the relevant art would certainly have been
motivated to modify Castello’s method to include the additional features
described by Fujiwara and Nishida to produce a textile element for use in a
shoe upper, as well as to produce a shoe incorporating such a textile
element.”); Pet. Supp. Br. 4 (“The record shows Castello and Fujiwara
would be used by a POSITA to produce a footwear upper per Nishida.”
(emphases added)); see Supp. Tr. 13:11–16:22. Therefore, unlike Polygroup
or Realtime, there is no other challenge based on fewer than all of these three
references for us to consider.
48

IPR2016-00921
Patent 7,814,598 B2
unpatentability of the challenged claims by a preponderance of the evidence.
Id. at 2. Specifically, Petitioner asserts that “[n]othing in the statute
authorizes the Board to finally resolve merits questions on ‘particularity’
grounds.” Id. We disagree. “In an [inter partes review], the petitioner has
the burden from the onset to show with particularity why the patent it
challenges is unpatentable.” Harmonic Inc. v. Avid Tech., Inc., 815 F.3d
1356, 1363 (Fed. Cir. 2016) (emphasis added; citing 35 U.S.C. § 312(a)(3)
(requiring inter partes review petitions to identify “with particularity . . . the
evidence that supports the grounds for the challenge to each claim”)); see
U.S. v. Dunkel, 927 F.2d 955, 956 (7th Cir. 1991) (“Judges are not like pigs,
hunting for truffles buried in briefs.”).
Moreover, as Patent Owner points out, the Board has determined that
a petitioner may fail to satisfy its burden of persuasion due to its failure to
argue its challenge with the required particularity. PO Supp. Br. 5–6 (citing
HTC Corp. v. Koninklijke Philips N.V., Case IPR2017-00857, slip op. at 18
(PTAB Aug. 24, 2018) (Paper 33) and EMC Corp. v. Intellectual Ventures I
LLC, Case IPR2017-00439, slip op. at 16 (PTAB Jun. 20, 2018) (Paper 50)).
Perhaps most on point, Patent Owner notes that:
[the Board] denied institution on [a] ground because
the arguments and evidence in the Petition lack the
particularity and detail required by 35 U.S.C.
§ 322(a)(3)17 and 37 C.F.R. § 42.22(a)(2), and fail to
demonstrate that it is more likely than not that [the
challenged claims] are unpatentable as indefinite under
35 U.S.C. § 112, second paragraph.

17

35 U.S.C. § 322(a)(3) applies to covered business method reviews and
corresponds to 35 U.S.C. § 312(a)(3).
49

IPR2016-00921
Patent 7,814,598 B2
In response to SAS Institute Inc. v. Iancu, 138 S. Ct. 1348
(2018), [the Board] issued an Order instituting trial on the
ground of [the challenged claims] being unpatentable under 35
U.S.C. § 112, 2nd paragraph. . . .
For the reasons stated [in the] Institution Decision,
which [the Board] adopt[ed], Petitioner fail[ed] to show by a
preponderance of the evidence that [the challenged claims] are
unpatentable under 35 U.S.C. § 112, 2nd paragraph.
PO Supp. Br. 6 (quoting Dish Network Corp. v. Customedia Techs., L.L.C.,
Case CBM2017-00032, slip op. at 34 (PTAB Jul. 25, 2018) (Paper 50)). In
our view, the determination by the Board that a Petitioner has failed to
explain or justify a ground of unpatentability “with particularity” is in accord
with a determination made by the Board, on the same or similar evidentiary
record, that a Petitioner has failed to make its case by a preponderance of the
evidence. Stated differently, a lack of clarity or adequate explanation that is
present when determining whether to institute trial does not somehow later
benefit a Petitioner when examining the merits of the case under the guise of
“preponderance of the evidence.” Here, Petitioner’s challenge remains
deficient, and Petitioner fails to show that the challenged claims are
unpatentable by a preponderance of the evidence for the reasons set forth in
our Institution Decision (Inst. Dec. 20–22).18 Nevertheless, we address
additional deficiencies below.

18

The claim charts support numerous combinations of the identified
references, including some that do not rely on all three of Castello, Fujiwara,
and Nishida. Those combinations requiring fewer than all of the cited
references are not consistent with Petitioner’s challenge.
50

IPR2016-00921
Patent 7,814,598 B2
3. Castello (Ex. 1007)
Castello describes a method of manufacturing a textile element, which
includes mechanically-manipulating a yarn with a circular-knitting machine
to form a cylindrical textile structure. Ex. 1007, Abstract, 1:35–2:4, 3:34–
4:10, 4:22–5:44, 6:35–58, 7:1–5, Figs. 1, 2A, 2–5; see Ex. 1003 ¶¶ 145, 148,
149. Castello’s Figure 1 is reproduced below.

Figure 1 is a perspective view of a tubular cloth, knit on a circular knitting
machine, to produce knitted collars. Ex. 1007, 3:5–7. In Figure 1, textile
elements, i.e., collar constructions 16, are located in different portions of the
textile structure, i.e., tubular knitted cloth 10. Id. at 3:39–45, Fig. 1; see
Ex. 1003 ¶¶ 154, 155. The textile elements are removed from the textile
structure and incorporated into shirts worn by men, women, and children.
Ex. 1007, 3:67–4:4, 4:38–45, 4:67–5:17; see Ex. 1003 ¶¶ 145, 148. Castello
recognizes the benefits of using wide-tube circular knitting machines to
51

IPR2016-00921
Patent 7,814,598 B2
produce a web containing textile elements with complex stitch
configurations, which were removed from the web and incorporated into
finished garments. See Ex. 1007, 1:43–49; Ex. 1003 ¶ 148. Castello
explains that textile elements, such as collars, having a variety of features
like knitted folding creases, knitted sewing marks, mock fashion marks, and
Jacquard multi-color designs, were produced independently on one or more
slow producing flatbed machines. Ex. 1007, 1:12–32. With the advent of
single needle selection controlled by programmable patterns, those features
could be achieved on a single circular machine and knit simultaneously. Id.
at 1:39–53, 2:12–21, 3:35–44; see Ex. 1003 ¶ 148.
4. Fujiwara (Ex. 1008)
Fujiwara describes a method of manufacturing a textile element,
which includes mechanically-manipulating a yarn with a circular knitting
machine to form a cylindrical textile structure. Ex. 1008, 2:31–37; see
Ex. 1003 ¶ 157. Fujiwara’s Figure 1 is reproduced below.

52

IPR2016-00921
Patent 7,814,598 B2

Figure 1 is a schematic perspective view illustrating a double tube fabric,
having inner and outer tubular fabrics. Ex. 1008, 3:23–25. In Figure 1, the
textile elements, identified by garment outlines M, are located in different
portions of the textile structure having layers 18 and 20. Id. at 4:66–5:4.
Along the outline M of a necessary width, the inner and outer
tubular layers 18 and 20 are connected or stitched with each
other, so that . . . both layers 18 and 20 are integrated. As a
result, when the fabric is cut outwardly along the outline while
stitched parts are at least partially left, a garment can be
obtained, which has a front and back bodies, which are
connected along the outline M. The stitching between the inner
and outer layers along the outline M is obtained by a knitting by
using both of the dial needles 10 and the cylindrical needles 12.
Id. at 5:4–13; see id. at Abstract.

53

IPR2016-00921
Patent 7,814,598 B2
Fujiwara’s Figure 4 is reproduced below.

Figure 4 illustrates, schematically, a length of the fabric after the cutting of
the tubular fabric along its longitudinal direction. Id. at 3:30–32. In
Figure 4, a continuous length of fabric including the closed stitched lines M
is obtained by cutting cylindrical textile structure of Figure 1 along line Q.
Id. at 6:12–16; see Ex. 1003 ¶ 158. The fabric then is cut along stitched
lines M to remove “a garment (sweater) having a front body and a back
bodies, which are stitched with each other.” Ex. 1008, 6:20–22 (emphasis
added); see id. at Abstract (“A cutting of the fabric along the closed outline
is done in such a manner that the stitched parts are, at least partially left.”);
Ex. 1003 ¶ 158. Subsequently,

54

IPR2016-00921
Patent 7,814,598 B2
the cutting at locations of the garments such as sleeves and a
hemline is such that cutting lines are located completely inward
of the stitched part as shown by dotted lines a and b. As a
result, at these portions at the sleeve and the hemline or base,
the upper and lower layers of the fabric are separated, thereby
providing openings at the sleeves and the hemline, which
allows portions of human body (arm and body) to be passed
through the openings.
Ex. 1008, 6:23–30; see id. at 6:30–42 (discussing garment finishing as
depicted in Figs. 5A and 5B). As Petitioner explains,
Fujiwara also identifies that “sewing is a bottleneck from the
view point of increase in an production efficiency as well as of
decrease in a production cost” such that “there has heretofore
been a strong requirement as to a development in a garment
making by which any sewing is not necessary.”
Pet. 33 (quoting Ex. 1003, ¶ 204).
5. Petitioner’s Arguments
Petitioner argues that the combination of Castello, Fujiwara, and
Nishida teaches or suggests all of the limitations of claims 1–13 of the ’598
patent. Pet. 29–47. In particular, Petitioner argues that Castello, Fujiwara,
and Nishida teach or suggest all of the limitations of each of independent
claims 1 and 9. Id. at 34–37 (claim 1), 39–40 (claim 9). Because each of the
challenged dependent claims depends from claim 1 or 9, we focus our
analysis of Petitioner’s challenge on those independent claims.
Patent Owner opted to forego filing a Supplemental Patent Owner
Response addressing Petitioner’s challenges to claims 1–13 based on the
combined teachings of Castello, Fujiwara, and Nishida and to forego
deposing Petitioner’s declarant regarding this challenge. Paper 23, 10.
Consequently, other than those contentions presented in the Patent Owner’s
55

IPR2016-00921
Patent 7,814,598 B2
supplemental briefing (Paper 25), Patent Owner is deemed to have waived
any arguments for the patentability of claims 1–13 over the combined
teachings of Castello, Fujiwara, and Nishida. See Paper 7, 6. Nevertheless,
Petitioner bears the ultimate burden of persuasion of obviousness on this
ground, and we consider all record evidence of obviousness and nonobviousness in determining whether Petitioner has met that burden. In re
Magnum Oil Tools Int’l, Ltd., 829 F.3d 1364, 1376 (Fed. Cir. 2016); see Pet.
Supp. Br. 2–3.
a. Mapping Independent Claims 1 and 9 on Castello,
Fujiwara, and Nishida
Independent claim 1 recites “[a] method of manufacturing an article of
footwear.” Ex. 1001, 11:43; see also id. at 12:21 (claim 9). Castello teaches
“a novel method of fabricating knitted collars on circular knitting
machines.” Ex. 1007, 1:39–40 (emphasis added). Similarly, Fujiwara
teaches “a circular knitted fabric as a first embodiment of the present
invention, from which fabric a garment such as a sweater is obtained
without necessitating any subsequent sewing process.” Ex. 1008, 3:45–48
(emphasis added). Although neither Castello nor Fujiwara expressly teaches
use of circular knitting machines to manufacture an article of footwear, both
references generally describe use of circular knitting machines to
manufacture “garments.” See Pet. Supp. Br. 5. As noted above, although
Reed specifically identifies stockings and hosiery, e.g., footwear, as
garments manufactured by circular knitting (Ex. 1006, 1:33–35, 5:57–58),
Reed does not describe shoes expressly as “garments.” See supra
Section II.C.4.a. Despite Castello’s and Fujiwara’s lack of express teachings
regarding the manufacture of footwear, Petitioner asserts that each of the
56

IPR2016-00921
Patent 7,814,598 B2
three cited references teaches the preamble of claims 1 and 9. Pet. 34 (claim
1), 40 (claim 9). Although Nishida does not expressly teach the use of
circular knitting machines, Nishida teaches processes for manufacturing
footwear and that the webs of material depicted in its Figures 1 and 2 are
“produced by a conventional textile process, [for] example, by weaving
and/or knitting and/or embroidering.” Ex. 1009, 3:6–9 (emphases added);
see Ex. 1003 ¶ 132. Thus, we are persuaded that Petitioner has shown that
Castello, Fujiwara, or Nishida teaches or suggests “[a] method of
manufacturing an article of footwear.”
The method of claim 1 further comprises the step of “mechanicallymanipulating a yarn with a circular knitting machine to form a cylindrical
textile structure.” Ex. 1001, 11:45–46 (emphasis added); see also id. at
12:23–25 (claim 9 reciting “a wide-tube circular knitting machine”
(emphasis added)). As noted above, each of Castello and Fujiwara teaches
the use of circular knitting machines to produce a cylindrical textile
structure, from which textile elements may be produced. Ex. 1007, Fig. 1;
Ex. 1008, Fig. 1. Petitioner relies on any or all of Castello, Fujiwara, and
Nishida to teach or suggest this limitation. Pet. 35–36; see id. at 15–16
(citing to Nishida for this limitation), 40 (citing the claim chart for claim 1
with respect to claim 9); but see id. at 31–32 (discussing Castello’s teaching
of this limitation); Pet. Supp. Br. 6 (discussing Castello’s and Fujiwara’s
teaching of the corresponding limitations of claims 1 and 9). In view of our
construction of the term “a wide-tube circular knitting machine” above (see
supra Section II.B.2.; see also Ex. 1001, 7:6–8 (describing circular knitting
machine capable of producing textile structures large enough for
manufacturing “body garment[s]”)), we are persuaded that each of Castello
57

IPR2016-00921
Patent 7,814,598 B2
and Fujiwara teaches not only a circular knitting machine, but also a widetube circular knitting machine.19 See Pet. 37–38 (claim 2 recites a “widetube circular knitting machine” and Petitioner relies solely on Castello to
teach this limitation); Ex. 1003 ¶¶ 152, 153.
The method of claim 1 further comprises the step of “removing at
least one textile element from the textile structure.” Ex. 1001, 11:47–48; see
also id. at 12:26 (claim 9 recites “removing a textile element from the textile
structure”). Because the recited “textile structure” is manufactured on a
circular knitting machine, we are persuaded based on the evidence cited in
the Petition that Petitioner has shown that the teachings of Castello, or
Fujiwara, alone, or the teachings of Castello and/or Fujiwara combined with
those of Nishida, could teach or suggest this limitation of the independent
claims. Pet. 36–37 (claim 1; citing, e.g., Ex. 1007, 3:67–4:4; Ex. 1008, 5:7–
11; Ex. 1009, 1:10–18 (see claim chart at Pet. 18–19)); id. at 39–40
(claim 9); see Ex. 1003 ¶¶ 162–164.
Finally, the method of claim 1 comprises the step of “incorporating
the textile element into an upper of the article of footwear.” Ex. 1001,
11:49–50 (emphases added); see id. at 12:27–28 (claim 9). Petitioner relies
solely on Nishida to supply this limitation, and argues that Nishida teaches
this limitation of the independent claims. Pet. 37 (citing to id. at 16 (claim
1), 20 (claim 9)); see Ex. 1003 ¶ 176. We agree.

19

In our analysis of the challenge based on the combination of Reed and
Nishida, we were not persuaded that Nishida teaches or suggests this
limitation. See supra Section II.C.4.a.
58

IPR2016-00921
Patent 7,814,598 B2
b. Dependent Claims 2–8 and 10–13
With respect to the challenged dependent claims, Petitioner argues
that Castello teaches or suggests the additional limitations recited in claim 2
(Pet. 37–38; see supra Section II.B.2.); that Nishida teaches or suggests the
additional limitations recited in claims 7, 8, 12, and 13 (Pet. 47; see Ex. 1003
¶¶ 190–192); and that Castello, Fujiwara, and Nishida teach or suggest the
additional limitations recited in claims 3–6, 10, and 11 (id. at 38–39, 40–46;
see supra Section II.B.1.). See Pet. Supp. Br. 6–7. Petitioner’s declarant
provides a detailed mapping of the limitations of each of these dependent
claims onto the teachings of Castello, Fujiwara, and Nishida. See Ex. 1003,
App’x A.
c. Reason to Combine
Petitioner argues that a person of ordinary skill in the art would have
had reason to combine the identified teachings of Castello, Fujiwara, and
Nishida to achieve the methods recited in independent claims 1 and 9.
Pet. 32–34. In particular, Petitioner argues that, “as all three processes are
directed to methods of simultaneously forming textile elements within a
surrounding textile structure using programmable and/or computerized
single needle selection technology, removing the textile elements, and
incorporating the textile elements into a wearable item,” a person of ordinary
skill in the art would have found these references analogous. Id. at 32; see
Ex. 1003 ¶ 202. Further, Petitioner argues that, because each of Castello,
Fujiwara, and Nishida teach the advantages of reducing cost through the use
of computer-controlled knitting machines, a person of ordinary skill in the
art would have had reason to combine their teachings. Pet. 32–33; see Ex.
59

IPR2016-00921
Patent 7,814,598 B2
1003 ¶¶ 203–205. Finally, Petitioner argues that “a person of ordinary skill
in the relevant art would certainly have been motivated to modify Castello’s
method to include the additional features described by Fujiwara and
Nishida to produce a textile element for use in a shoe upper, as well as to
produce a shoe incorporating such a textile element, as this is nothing more
than combining ‘prior art elements according to known methods to yield
predictable results’ and/or the ‘[u]se of known technique[s] to improve
similar devices (methods, or products) in the same way.’” Pet. 33–34
(emphasis added) (citing KSR, 550 U.S. at 417–22); see Ex. 1003 ¶¶ 206,
207.
Moreover, Petitioner argues that a person of ordinary skill in the
relevant art would have had at least the same reasons to combine the
teachings of Castello, Fujiwara, and Nishida, to achieve the methods recited
in these dependent claims, as those given for combining the teachings of
Castello, Fujiwara, and Nishida to achieve the recited methods of the
independent claims. See Pet. Supp. Br. 6–10.
We have reviewed the entirety of Petitioner’s arguments and evidence
for independent claims 1 and 9, as well for dependent claims 2–8 and 10–13,
and the cited supporting testimony of Mr. Holden. As noted above,
Petitioner relies on the same reasons to combine the teachings of Castello,
Fujiwara, and Nishida for its challenges to each of claims 1–13 of the ’598
patent. See Pet. 29–47.
Assuming that Petitioner intended to argue that a combination of the
teachings of Castello, Fujiwara, and Nishida, as described in Petitioner’s
Supplemental Brief, renders independent claims 1 and 9 unpatentable, we
are not persuaded that Petitioner has shown an adequate reason to combine
60

IPR2016-00921
Patent 7,814,598 B2
the teachings of these three references by a preponderance of the evidence.
Pet. Supp. Br. 5–6; see WhatsApp, Inc. v. TriPlay, Inc., Appeal Nos. 20172549, 2017-2551, 2018 WL 5962733 at *4 (Fed. Cir. Nov. 14, 2018) (nonprecedential); Supp. Tr. 16:23–17:15. As noted above, Petitioner argues that
a person of ordinary skill in the relevant art would certainly
have been motivated to modify Castello’s method to include the
additional features described by Fujiwara and Nishida to
produce a textile element for use in a shoe upper, as well as to
produce a shoe incorporating such a textile element.
Pet. 33–34.
Fujiwara explains that “[a]ccording to the present invention, said
article is a garment, and said one side is a front body of the garment while
said other is a back body of the garment.” Ex. 1008, 2:7–9, 23–25, 63–65;
see Ex. 1008, Abstract, 3:14–18, 6:20–22. In particular, Fujiwara discloses
that:
In [Fujiwara’s] FIG. 1, a closed phantom line M
indicates, in a very schematic manner, an outline of a sweater as
a garment wherein one of the inner and outer layers 18 and 20
becomes one side (front body) of the sweater while the other of
the inner and outer layers 18 and 20 becomes the other side
(back body) of the sweater. Along the outline M of a necessary
width, the inner and outer tubular layers 18 and 20 are
connected or stitched with each other, so that the both of the
layers 18 and 20 are integrated.
Ex. 1008, 4:66–5:7 (emphasis added); see Pet. 36 (citing Ex. 1008, 4:66–5:7,
Figs. 1, 4 with respect to claim 1); see also Pet Supp. Br. 6 (citing Ex. 1008,
4:66–5:7). Thus, Petitioner relies on Fujiwara’s teachings of a pre-seamed
garment produced on a circular knitting machine. Pet. 36 (citing Ex. 1008,
1:58–3:18, 4:66–5:7, Figs. 1, 4).

61

IPR2016-00921
Patent 7,814,598 B2
Nishida and Castello, however, teach unseamed garments or portions
of garments. As discussed above with respect to the combination of Reed
and Nishida, Patent Owner contends that Nishida’s web of material has two
primary components: a backing and one or more layouts printed on or
produced in the backing. PO Resp. 24–25 (citing Ex. 1009, 1:40–2:53, 3:6–
26). The backing may be formed prior to the production of the layouts. Id.
After the backing is formed, Nishida teaches printing on or producing
layouts in the backing. Ex. 1009, 3:13–15. The layouts are printed by a
fabric printing process onto the backing or produced by a textile production
process inside the backing. PO Resp. 25 (citing Ex. 1009, 1:50–56, 2:20–26,
3:13–15, 5:45–52); see Reply 9. “[T]he material can be woven or knitted in
two or more layers or can be especially thick or additionally embroidered.”
Ex. 1009, 3:66–4:1.
As noted above, Castello teaches using wide-tube circular knitting
machines to produce a web containing textile elements with complex stitch
configurations, which were removed from the web and incorporated into
finished garments. See Ex. 1007, 1:43–49; Ex. 1003 ¶ 148. In particular,
Castello teaches
knitting a tubular fabric including a plurality of circular layers
in vertical juxtaposition wherein each layer contains a plurality
of individual collars, separating the layers and cutting the knit
fabric to sever the collars and then sewing the sides of the
collars to produce a plurality of collars suitable for attaching
to a shirt or sweater garment.
Ex. 1007, Abstract (emphasis added).
As noted above, Fujiwara’s teachings, relied upon by Petitioner,
describe the pre-seaming of garments or sections of garments before their

62

IPR2016-00921
Patent 7,814,598 B2
removal from the cylindrical textile structure. As Petitioner’s declarant
testifies,
Fujiwara also identifies that “sewing[, i.e., seaming,] is a
bottleneck from the view point of increase in an production
efficiency as well as of decrease in a production cost” such that
“there has heretofore been a strong requirement as to a
development in a garment making by which any sewing is not
necessary.”
Pet. 33 (quoting Ex. 1003 ¶ 204). The teachings of Nishida, relied upon by
Petitioner, do not teach pre-seaming but, instead, teach the seaming of the
upper layout after its removal from the web of material. Ex. 1009, 4:19–30
(Figs. 2 and 3), 5:3–26 (Figs. 4 and 5); see Pet. 37 (referring to Pet. 16
(“Nishida describes ‘stitching parts of the layout of the cut-out unit on
provided seams to form an upper of the shoe shaped part . . . .’”)).
Similarly, the teachings of Castello, relied upon by Petitioner, do not teach
pre-seaming but, instead, teach the seaming of the collars to another suitable
garment. Petitioner fails to explain why and how a person of ordinary skill
in the art would have combined the teachings of Nishida and Castello
regarding unseamed garment portions with the teachings of Fujiwara
regarding pre-seamed garments. See supra Section II.C.5.b.i. (discussing
combination of the teachings of Reed’s pre-seamed garments and Nishida’s
unseamed garments).
Further, as noted above, “combinations that change the ‘basic
principles under which the [prior art] as designed to operate,’ or that render
the prior art ‘inoperable for its intended purpose,’ may fail to support a
conclusion of obviousness.” Plas-Pak, 600 F. App’x at 758. We find that
the intended purpose of Fujiwara’s methods is to produce pre-seamed,
substantially finished garments. Ex. 1008, 1:53–55 (“The present invention
63

IPR2016-00921
Patent 7,814,598 B2
aims, thus, to eliminate substantially sewing, also, in a garment making from
a circular knitted fabric.” (emphasis added)), 3:14–18 (“[A]ccording to the
method invention, an article or garment can be obtained from a fabric
without or substantially without necessitating any sewing process, which
otherwise is essential, thereby reducing a production cost of an article or
garment from a fabric.” (emphasis added)). Castello, however, teaches that
“[t]he collars are cut along the designed cut marks, the sides are sewn to
create finished side edges by using a conventional overedging machine, such
as a Merrow sewing machine or other similar, well known, sewing machine”
and then are attached to other garments. Ex. 1007, Abstract, 1:68–2:4. We
determine that the record before us conveys that there is a fundamental
difference in the manufacturing techniques for producing preseamed
garment portions as compared with techniques producing unseamed garment
portions. In that respect, it is difficult to reconcile, on this record, combining
practices in which sewing is eliminated with teachings in which sewing is
required. Petitioner proposes to modify Castello in view of Fujiwara, but
such a modification would change the principles under which Castello
operates. See PO Resp. 38–42 (discussing change in intended purpose of
due to combination of the teachings of Reed’s pre-seamed garments and
Nishida’s unseamed garments).
d. Summary
Based on our review of the arguments and evidence presented by
Petitioner regarding this ground, we conclude that Petitioner fails to
demonstrate by a preponderance of the evidence that either of independent
claims 1 and 9 is unpatentable as rendered obvious by the combined
teachings of Castello, Fujiwara, and Nishida. Moreover, at least because
64

IPR2016-00921
Patent 7,814,598 B2
Petitioner’s arguments for the obviousness of dependent claims 2–8 and 10–
13 over Castello, Fujiwara, and Nishida rely on the arguments and evidence
presented with respect to independent claims 1 and 9, we also conclude that
Petitioner fails to demonstrate by a preponderance of the evidence that any
of the dependent claims is unpatentable as rendered obvious by the
combined teachings of Castello, Fujiwara, and Nishida.
III. SUMMARY
We are not persuaded that Petitioner demonstrates by a preponderance
of the evidence that any of claims 1–13 of the ’598 patent is rendered
obvious over the combined teachings of Reed and Nishida20 or those of
Castello, Fujiwara, and Nishida.
IV. ORDER
It is, therefore,
ORDERED that, pursuant to 35 U.S.C. § 318(a), Petitioner fails to
demonstrate by a preponderance of the evidence that any of claims 1–13 is
unpatentable as rendered obvious over the combined teachings of Reed and
Nishida or those of Castello, Fujiwara, and Nishida; and

20

Since the issuance of the initial Final Written Decision on October 19,
2017, Administrative Patent Judge Daniels has replaced Administrative
Patent Judge Fitzpatrick on this panel. Administrative Patent Judge
Fitzpatrick authored a concurring opinion offering an alternative reasoning
for rejecting Petitioner’s ground one challenge to claims 1–13. 1st FWD 1–
5 (concurring opinion). Because Administrative Patent Judge Fitzpatrick is
no longer a member of the panel, we do not reproduce his concurring
opinion here, but, to the extent required by the Federal Circuit’s mandate,
the concurring opinion is incorporated herein by reference.
65

IPR2016-00921
Patent 7,814,598 B2
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.

66

IPR2016-00921
Patent 7,814,598 B2
PETITIONER:
Mitchell G. Stockwell
Vaibhav P. Kadaba
Tiffany L. Williams
KILPATRICK TOWNSEND & STOCKTON LLP
mstockwell@kilpatricktownsend.com
wkadaba@kilpatricktownsend.com
tiwilliams@kilpatricktownsend.com
PATENT OWNER:
Christopher J. Renk
Michael J. Harris
BANNER & WITCOFF, LTD
crenk@bannerwitcoff.com
mharris@bannerwitcoff.com

67

APPENDIX C

Trials@uspto.gov
571-272-7822

Paper 31
Entered: February 19, 2019

UNITED STATES PATENT AND TRADEMARK OFFICE
_____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
adidas AG,
Petitioner,
v.
NIKE, Inc.,
Patent Owner.
____________
Case IPR2016-00922
Patent 8,266,749 B2
____________

Before JOSIAH C. COCKS, JAMES B. ARPIN, and SCOTT A. DANIELS,
Administrative Patent Judges.
ARPIN, Administrative Patent Judge.

DECISION ON REMAND
35 U.S.C. § 144 and 37 C.F.R. § 42.5(a)

IPR2016-00922
Patent 8,266,749 B2
I.

BACKGROUND

adidas AG (“Petitioner”) filed a Petition pursuant to 35 U.S.C.
§§ 311–319 to institute an inter partes review of claims 1–9, 11–19, and 21
of U.S. Patent No. 8,266,749 B2 (Ex. 1001, “the ’749 patent”).1 Paper 2
(“Pet.”). Nike, Inc. (“Patent Owner”) did not file a Preliminary Response.2
Applying the standard set forth in 35 U.S.C. § 314(a), which requires
demonstration of a reasonable likelihood that Petitioner would prevail with
respect to at least one challenged claim, we instituted an inter partes review
of claims 1–9, 11–19, and 21 of the ’749 patent as allegedly rendered
obvious over the combined teachings of Reed and Nishida. Paper 6 (“Inst.
Dec.”), 23.
After institution, Patent Owner filed a Patent Owner Response to the
Petition (Paper 9 (“PO Resp.”)), and Petitioner replied (Paper 10
(“Reply”)).3 Each party requested an oral hearing (Papers 15 and 16), and
1

Petitioner identifies adidas International B.V.; adidas North America, Inc.;
adidas America, Inc.; and adidas International, Inc., as real parties-ininterest. Pet. 1.
2
3

Patent Owner identifies only itself as a real party-in-interest. Paper 5, 2.

Patent Owner filed objections to the admissibility of some of Petitioner’s
evidence. Paper 12. Petitioner served – and improperly filed –
supplemental evidence in response to Patent Owner’s objections. Paper 13;
Ex. 1015; 37 C.F.R. § 42.64(c); see 37 C.F.R. § 42.64(b)(2) (“The party
relying on evidence to which an objection is timely served may respond to
the objection by serving supplemental evidence within ten business days of
service of the objection.” (emphasis added)); GoPro, Inc. v. Contour IP
Holding LLC, Case IPR2015-01078, slip op. at 2–3 (PTAB Apr. 7, 2016)
(Paper 40) (“If the supplemental evidence does not cure the objection and
the opposing party files a motion to exclude, the submitting party may file
the supplemental evidence with its opposition to the motion to exclude.”).
Ultimately, Patent Owner did not file a motion to exclude, and, therefore,
2

IPR2016-00922
Patent 8,266,749 B2
we held a consolidated oral hearing with Case IPR2016-00921 on July 12,
2017. A transcript of that hearing is of record in this case. Paper 20 (“Tr.”).
On October 19, 2017, the panel issued its initial Final Written
Decision determining that Petitioner had failed to demonstrate that any of
the challenged claims in IPR2016-00922 were unpatentable. Paper 21 (“1st
FWD”). Petitioner appealed that Final Written Decision to the U.S. Court of
Appeals for the Federal Circuit (“the Federal Circuit”) (Paper 22), and the
Federal Circuit subsequently remanded that decision, so that the panel could
consider an uninstituted ground for unpatentability, pursuant to SAS Inst.,
Inc. v. Iancu, 138 S. Ct. 1348, 1354 (2018), and “directed [the Board] to
promptly issue a final written decision as to all grounds raised in Adidas’s
petitions.” See Paper 23, 3–4 (citing Adidas AG v. Nike, Inc., 894 F.3d
1256, 1257–58 (Fed. Cir. 2018)). The Federal Circuit issued the order and
mandate simultaneously.
The panel modified its Institution Decision and instituted review on
all of the challenged claims and on all of the grounds asserted in the Petition.
Id. at 4. The panel granted additional briefing limited to: (1) addressing
issues discussed in the Institution Decision with respect to the newly
instituted ground (Inst. Dec. 20–22), including directing the panel to
information in the record that it overlooked or misunderstood regarding
Petitioner’s challenge to claim 1–9, 11–19, and 21 based on the combined
teachings of Castello, Fujiwara, and Nishida; and (2) addressing what
impact, if any, arises from the Institution Decision’s determination that
Petitioner had not identified “with particularity,” as required by 35 U.S.C.

Patent Owner did not preserve its objections. 37 C.F.R. § 42.64(c).
Regardless, Exhibit 1015 is expunged because we did not authorize its filing.
3

IPR2016-00922
Patent 8,266,749 B2
§ 312(a)(3), the arguments and evidence that supported its challenge to
claims 1–9, 11–19, and 21 based on the combined teachings of Castello,
Fujiwara, and Nishida. Id. at 11. Petitioner was prohibited from introducing
new argument or evidence with its additional briefing, with the exception of
deposition testimony identified during the conference call and already
existing in the record that Petitioner believes is relevant to the sufficiency of
its arguments in the Petition regarding its challenge to claims 1–9, 11–19,
and 21 based on the combined teachings of Castello, Fujiwara, and Nishida.
Id. Each party filed additional briefing. Papers 24 (“Pet. Supp. Br.”) and 25
(PO Supp. Br.”). Petitioner requested a supplemental hearing. Paper 24, 10.
The panel granted a telephonic, supplemental hearing (Paper 27, 7), and a
transcript of that supplemental hearing is of record in this case. Paper 30
(“Supp. Tr.”).
We have jurisdiction under 35 U.S.C. § 6, and this Final Written
Decision, issued pursuant to 35 U.S.C. § 318(a) and 37 C.F.R.
§ 42.73, addresses issues and arguments raised during the review. For the
reasons discussed below, we determine that Petitioner has not met its burden
to prove, by a preponderance of the evidence, that claims 1–9, 11–19, and 21
of the ’749 patent are unpatentable on the grounds upon which we have
instituted inter partes review.
A. The ’749 Patent
The ’749 patent claims priority from U.S. Patent Application No.
10/791,289, filed on March 3, 2004, now issued as U.S. Patent No.
7,347,011 B2 (“the ’011 patent”) (Ex. 1001, (60)) and relates to articles of
footwear incorporating an upper that is at least partially formed from a
textile material (id. at 1:20–23). Conventional articles of athletic footwear
4

IPR2016-00922
Patent 8,266,749 B2
may include two primary elements: an upper and a sole structure. Id. at
1:25–28. The upper may form a void in the interior of the footwear for
receiving a wearer’s foot, and the upper may extend over the instep and toe
areas, along the medial and lateral sides, and around the heel area of the
wearer’s foot. Id. at 1:42–47.
In particular, the Specification describes articles of footwear having
an upper incorporating a knitted textile element and having a sole structure
secured to the upper. Id. at 3:27–33, 47–48. Methods for manufacturing an
article of footwear include “mechanically-manipulating a yarn with a
circular knitting machine, for example, to form a cylindrical textile structure.
In addition, the method involves removing at least one textile element from
the textile structure, and incorporating the textile element into an upper of
the article of footwear.” Id. at 3:41–46.
Figure 9 of the ’749 patent is reproduced below.

5

IPR2016-00922
Patent 8,266,749 B2
Figure 9 depicts textile structure 60 formed on a circular knitting machine.
Id. at 7:38–41. For example,
[a] suitable knitting machine for forming textile element 40 is a
wide-tube circular knitting machine that is produced in the
Lonati Group by Santoni S.p.A. of Italy under the SM8 TOP1
model number. This Santoni S.p.A. wide-tube circular knitting
machine may form a textile structure having a diameter that
ranges from 10 inches to 20 inches, with 8 feeds for each
diameter.
Id. at 7:14–20. As discussed below, the types of stitches that form textile
structure 60 may be varied to form an outline of one or more textile
elements 40 on textile structure 60. Id. at 7:64–8:3. In particular, as
depicted in Figure 9, the outlines for at least two textile elements 40 may be
formed on textile structure 60. Id. at 7:53–54.
Figure 8 of the ’749 patent is reproduced below.

6

IPR2016-00922
Patent 8,266,749 B2

Figure 8 depicts an embodiment of an upper according to the ’749 patent.
Id. at 5:59–6:64. “Textile element 40 is a single material element that is
formed to exhibit a unitary (i.e., one-piece) construction, and textile element
40 is formed or otherwise shaped to extend around the foot.” Id. at 5:40–43;
see also id. at Figs. 10 (depicting textile element 40ʹ), 11 (depicting textile
element 40ʺ). In particular,
Textile element 40 is a single material element with a
unitary construction, as discussed above. As defined for
purposes of the present invention, unitary construction is
intended to express a configuration wherein portions of a textile
element are not joined together by seams or other connections,
as depicted with textile element 40 in FIG. 8. Although the
various edges 41a-44d are joined together to form seams 51-54,
the various portions of textile element 40 are formed as [a]
unitary element without seams . . . .
7

IPR2016-00922
Patent 8,266,749 B2
Id. at 6:41–50 (emphases added). Consequently, textile element 40 is
formed, such that portions of the textile element are not joined together with
seams or other connections. Id. at 5:40–43.
Figures 4 and 5 of the ’749 patent are reproduced below.

Figures 4 and 5 depict edges 41a–44d, depicted in Figure 8, are joined
together to form seams 51–54, depicted in Figures 4 and 5, thereby forming
at least a portion of a void for receiving the foot. Id. at 5:59–6:50; see id.,
Fig. 3. In contrast, lateral region 31, medial region 32, instep region 33,
lower regions 34, and heel regions 35 together have a unitary construction
without seams (id. at 5:46–58, 6:47–50). Referring to Figure 9,
a first textile element 40 and a second textile element 40 may be
simultaneously formed in a single textile structure 60. As the
diameter of textile element 60 is increased or the width of
textile element 40 decreases, however, an even greater number
of textile elements 40 may be outlined on textile structure 60.
8

IPR2016-00922
Patent 8,266,749 B2
Id. at 7:58–63 (emphasis added).
Figure 11 of the ’749 patent is reproduced below.

Figure 11 depicts another embodiment of an upper according to the ’749
patent. Id. at 9:29–10:7. Textile element 40ʺ includes three different areas
with three different textures. Id. at 9:31–32. First texture 46ʺ is generally
smooth and extends in strips across lateral region 31, medial region 32, and
instep region 33 of the upper. Id. at 9:32–35. In addition, textile element
40ʺ includes second texture 47ʺ and third texture 48ʺ. Id. at 9:32–35.
Moreover, the Specification of the ’749 patent describes that:
The different textures 46ʺ-48ʺ are formed by merely varying the
type of stitch formed by the wide-tube circular knitting machine
at each location of textile element 40ʺ. Textures 46ʺ-48ʺ may
exhibit aesthetic differences, or the differences may be
structural. . . . The air-permeability of textile element 40ʺ may
also vary in the different areas.
9

IPR2016-00922
Patent 8,266,749 B2
Id. at 9:39–47 (emphasis added).
B. Illustrative Claims
Claims 1 and 13 are independent, method claims. Claims 2–9, 11, and
12 depend directly or indirectly from claim 1, and claims 14–19 and 21
depend directly or indirectly from claim 13. Claims 1 and 11 are illustrative
of the claims at issue and are reproduced below:
1. A method of manufacturing an article of footwear, the
method comprising:
simultaneously knitting a textile element with a surrounding
textile structure, the knitted textile element having at least one
knitted texture that differs from a knitted texture in the
surrounding knitted textile structure;
removing the knitted textile element from the surrounding
knitted textile structure;
incorporating the knitted textile element into the article of
footwear.
11. The method of claim 1, wherein simultaneously knitting
a textile element with a surrounding textile structure includes
forming the knitted textile element to include a first area and a
second area with a unitary construction, the first area being
formed of a first stitch configuration, and the second area being
formed of a second stitch configuration that is different from
the first stitch configuration to impart varying textures to a
surface of the knitted textile element.
Id. at 11:43–52 (claim 1), 12:14–21 (claim 11).
C. Related Proceedings
Neither party identifies any related litigation. Pet. 1; Paper 4, 1. As
discussed above, the ’749 patent is a continuation of the application that
issued as the ’011 patent, which is the subject of IPR2013-00067. Pet. 1. In
that case, the panel instituted inter partes review of claims 1–46 of the
10

IPR2016-00922
Patent 8,266,749 B2
’011 patent, and Patent Owner requested cancellation of claims 1–46 and
proposed substitute claims 47–50 in a Motion to Amend. The panel granted
Patent Owner’s request to cancel claims 1–46, but denied Patent Owner’s
request as to the substitute claims. Patent Owner appealed the Board’s
decision to the Federal Circuit. The Federal Circuit issued a decision in
Patent Owner’s appeal on February 11, 2016, which affirmed-in-part and
vacated-in-part the Board’s decision, and remanded the case to the Board for
further proceedings regarding the status of the substitute claims. Nike, Inc.
v. adidas AG, 812 F.3d 1326, 1329 (Fed. Cir. 2016). The Federal Circuit
issued its mandate in that case on April 4, 2016. On September 18, 2018,
the panel again denied Patent Owner’s motion as to the substitute claims.
IPR2013-00067, Paper 69. Patent Owner again appealed the Board’s
decision to the Federal Circuit. IPR2013-00067, Paper 70.
In addition, Petitioner requested inter partes review of claims of
related patents in IPR2016-00920 (U.S. Patent No. 8,042,288 B2),
institution denied (IPR2016-00920, Paper 6, 2), and IPR2016-00921 (U.S.
Patent No. 7,814,598 B2), institution granted (IPR2016-00921, Paper 6, 2).
On October 19, 2017, the panel issued a Final Written Decision determining
that Petitioner had failed to demonstrate that any of the challenged claims in
IPR2016-00921 was unpatentable. IPR2016-00921, Paper 21. Petitioner
appealed that Final Written Decision to the Federal Circuit (IPR2016-00921,
Paper 22), and the Federal Circuit subsequently remanded that decision, so
that the panel could consider an uninstituted ground for unpatentability,
pursuant to SAS, 138 S. Ct. at 1354. See IPR2016-00921, Paper 23, 3–4.

11

IPR2016-00922
Patent 8,266,749 B2
D. Applied References and Declaration
Petitioner relies on the following references and declaration in support
of its asserted grounds of unpatentability:
Exhibit
1003
1006
1007
1008
1009
1010

1012

References and Declaration
Declaration of Mr. Lenny M. Holden
U.S. Patent No. 3,985,003 to Reed, issued Oct. 12, 1976
(“Reed”)
U.S. Patent No. 4,038,840 to Castello, issued Aug. 2, 1977
(“Castello”)
U.S. Patent No. 6,330,814 B1 to Fujiwara, issued Dec. 18,
2001 (“Fujiwara”)
U.S. Patent No. 5,345,638 to Nishida, issued Sept. 13, 1994
(“Nishida”)
David J. Spencer, Knitting technology: a comprehensive
handbook and practical guide, 1–413 (2001) (3rd Ed.,
Woodhead Publ. Ltd.) (“Spencer”)
International Standard, Textile machinery — Knitting
machines — Nominal diameters of circular machines, 1–6
(2003) (2nd Ed., ISO 8117:2003(E)) (“ISO 8117”)

Pet. iv.

12

IPR2016-00922
Patent 8,266,749 B2
E. Instituted Grounds of Unpatentability
We instituted review on the following ground of unpatentability:
References
Reed and Nishida
Castello, Fujiwara, and
Nishida

Basis
35 U.S.C. § 103(a)

Challenged Claims
1–9, 11–19, and 21

35 U.S.C. § 103(a)

1–9, 11–19, and 21

Pet. 7; see Paper 23, 4.
II. ANALYSIS
A. Person of Ordinary Skill in the Art
Petitioner argues that a person of ordinary skill in the relevant art
would have at least a few years of experience in the footwear industry, a
broad understanding of shoemaking, and an understanding of (1) the product
cycle for the process of designing, developing and bringing a new product to
market; (2) milestones for reviewing upper material designs; (3) the
available and varied ranges of typical construction methods within a
product cycle; and (4) the functional requirements of footwear and the range
of material choices available. Pet. 8 (citing Ex. 1003 ¶ 34) (emphasis
added). Patent Owner contests Petitioner’s assessment of the level of
ordinary skill in the relevant art, but does not propose an alternative
assessment. PO Resp. 17–19.
Initially, Patent Owner contends that Petitioner has failed to consider
appropriate factors identified by our reviewing court and utilized by other
panels to assess the level of ordinary skill in the art. Id. at 17–18. We agree
with Petitioner that it is not necessary to consider every factor or to weigh
the factors equally in order to assess the level of ordinary skill in the art.
Reply 2 (quoting In re GPAC Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995)).
13

IPR2016-00922
Patent 8,266,749 B2
Here, we may rely on Petitioner’s declarant’s testimony (Ex. 1003 ¶ 34) and
the teachings of the prior art to evaluate Petitioner’s assessment of the level
of ordinary skill in the art. Okajima v. Bourdeau, 261 F.3d 1350, 1355 (Fed.
Cir. 2001). In particular, Reed, Castello, Fujiwara, and Nishida identify the
types of problems encountered in the prior art solutions to these problems,
and the sophistication of the technology. E.g., Ex. 1006, 1:13–55; Ex. 1007,
1:8–32, 2:12–64; Ex. 1008, 1:11–54; Ex. 1009, 1:10–36; see, e.g., Ex. 1010,
145–160; see also Ex. 1010, Preface:
The aim of this book is to combine in a single volume the
fundamental principles of weft and warp knitting in such a
manner that its contents are useful to readers in education,
industry or commerce. It thus [fulfills] the long felt need for a
comprehensive up-to-date textbook explaining this important
sector of textile technology.
Patent Owner contends that the level of ordinary skill in the art is
“low” (PO Resp. 17–18), but it is not clear whether Patent Owner further
contends that Petitioner’s assessment is deficient because Petitioner fails to
argue that a person possessing such a “low” level of ordinary skill in the art
also would have “experience using knitting technologies to create knitted
footwear uppers” (id. at 18–19) or whether the inclusion of such skill would
raise the “low” level of skill in the art (id. at 19). Alternatively, Patent
Owner may merely be contending that Petitioner’s declarant fails to qualify
as a person of ordinary skill in the art. Id. at 19 (“If it was too ‘dangerous’
for Mr. Holden with his nearly forty years of experience, a person with just a
‘few years of experience’ would not have had any knitting experience, let
alone experience using knitting technologies to create uppers.”); see
Tr. 62:17–22. Patent Owner is not required to help us assess the level of
ordinary skill in the art and does not do so here. See PO Resp. 22
14

IPR2016-00922
Patent 8,266,749 B2
(“Petitioner may criticize NIKE for not submitting an expert declaration.
But it is Petitioner’s burden to prove unpatentability; it is not NIKE’s burden
to prove patentability.”).
In response to Patent Owner’s contentions, Petitioner argues that the
level of ordinary skill in the art is not low and that hands-on knitting
experience is not required. Reply 2–3. Petitioner further argues Patent
Owner has not required knitting experience in its previous assessment with
respect to a related patent of the level of ordinary skill in the art. Id. at 2
(citing IPR2013-00067, Ex. 2010 ¶ 52). The parties do not attempt to argue
the level of ordinary skill further in their supplemental briefing. See Pet.
Supp. Br. 4–5; PO Supp. Br. 4 n.1. Based on the record before us and to the
extent necessary, we again adopt Petitioner’s assessment of a person of
ordinary skill in the relevant art. 1st FWD 11 (citing Inst. Dec. 8 n.3).
B. Claim Construction
In an inter partes review, claim terms in an unexpired patent are
construed according to their broadest reasonable interpretation in light of the
specification of the patent in which they appear. 37 C.F.R. § 42.100(b).
Under that standard, claim terms are given their ordinary and customary
meaning, as would be understood by one of ordinary skill in the art in the
context of the entire disclosure. In re Translogic Tech., Inc., 504 F.3d 1249,
1257 (Fed. Cir. 2007). The following four claim terms are at issue in this
proceeding. 1st FWD 11–15.
1. “a first area and a second area with a unitary construction”
(Claims 11 and 21)
Petitioner argues that the term “a first area and a second area with a
unitary construction” means “a textile element having a unitary construction
15

IPR2016-00922
Patent 8,266,749 B2
and having a first area and a second area.” Pet. 6. As Petitioner notes, this
is the construction that this panel gave to the same term appearing in the
substitute claims of the ’011 patent. adidas AG v. Nike, Inc., Case IPR201300067, slip op. at 16–17 (PTAB Apr. 28, 2014) (Paper 60); see adidas AG v.
Nike, Inc., Case IPR2013-00067, slip op. at 11–12 (PTAB Sept. 18, 2018)
(Paper 69). We further note that the ’749 patent’s Specification provides
that “[a]s defined for purposes of the present invention, unitary construction
is intended to express a configuration wherein portions of a textile element
are not joined together by seams or other connections, as depicted with
textile element 40 in FIG. 8.” Ex. 1001, 6:42–46 (emphasis added); see
IPR2013-00067, Ex. 1002, 6:41–46 (identical disclosure). The ’011 patent
and the ’749 patent share the same Specification (apart from their claims),
neither party contested our construction of this term in the appeal of our
decision in the inter partes review of the claims of the ’011 patent, and
Patent Owner does not contest Petitioner’s proposed construction of this
term in this proceeding. Therefore, in view of the express definition of the
phrase “unitary construction” in the Specification of the ’749 patent, we
adopt Petitioner’s proposed construction as the broadest reasonable
interpretation for this term. See Tr. 20:5–13, 37:11–17.
2. “wide-tube circular knitting machine” (Claims 9 and 19)
We determine that the broadest reasonable interpretation of the term
“wide-tube circular knitting machine” is “a circular knitting machine
forming body garment sized, tubular textile structures, including those
having a diameter that ranges from 10 inches to 20 inches.” See Inst. Dec.
9–11. Neither party contests this construction. See Tr. 20:5–13, 37:11–17.

16

IPR2016-00922
Patent 8,266,749 B2
3. “impart” (claims 11 and 21) and “texture” (claims 8, 11,
and 21)
During the course of the review, the parties raised issues regarding the
construction of two additional terms that appear only in the challenged
dependent claims. First, Petitioner argues that the term “impart” means “to
give, convey, or grant from.” Reply 24 (citing Ex. 1014).4 Further,
Petitioner argues that this definition is consistent with the use of the word
“impart” in the Specification of the ’749 patent. E.g., Ex. 1001, Abstract,
1:30–35, 1:60–63, 1:65–2:3, 3:33–37, 7:35–37; see Tr. 21:4–14. Patent
Owner does not propose an alternative construction for the term “impart.”
Further, neither party argues that the term “impart” carries special meaning
in the relevant art. In fact, we find Spencer’s use of the word “impart” in the
handbook on knitting technology consistent with Petitioner’s dictionary
definition and the word’s use in the Specification of the ’749 patent. See
Ex. 1010, 184, 216. Thus, to the extent any construction of this term is
necessary, we find that the broadest reasonable interpretation of the term
“impart” is “to give, convey, or grant from.” See Summit 6, LLC v.
Samsung Elecs. Co., 802 F.3d 1283, 1291 (Fed. Cir. 2015) (“[E]ach [term] is
used in common parlance and has no special meaning in the art. Because the
plain and ordinary meaning of the disputed claim language is clear, the
district court did not err by declining to construe the claim term.”).
Petitioner relies on a definition of “impart” from a current, on-line
dictionary rather than from a dictionary contemporaneous with the effective
filing date of the ’749 patent. However, the record contains no suggestion
that the relevant definition of “impart” has changed since the effective filing
date of the ’749 patent, and we determine that it has not. See RANDOM
HOUSE WEBSTER’S COLLEGE DICTIONARY, 659 (2nd ed. 1999) (Ex. 3001)
(“impart” means “to give; bestow”).
4

17

IPR2016-00922
Patent 8,266,749 B2
Second, although Petitioner does not provide an express interpretation
for the term “texture,”5 Petitioner’s declarant testifies “texture” “generally
could be an actual texture or a perceived texture based on the arrangement of
colors in a pattern.” Reply 4–5 (citing Ex. 2004, 178:20–24; see also id. at
177:1–178:19, 178:25–184:11). Patent Owner disputes Mr. Holden’s
interpretation of “texture,” which appears inconsistent with Spencer’s
discussion of texture. See Ex. 2004, 80:24–81:8. In particular, according to
Spencer, “[c]olour is one of the five ingredients of fashion, the other four
being style, silhouette, texture and pattern.” Ex. 1010, 127 (emphasis
added). Thus, Spencer distinguishes between color and texture.
The Specification of the ’749 patent does not define “texture,” but
contrasts between “smooth” and “textured” areas of a textile element.
Ex. 1001, 9:20–21. Moreover, with respect to Figure 11, the Specification
of the ’749 patent explains that:
The different textures 46"-48" are formed by merely varying
the type of stitch formed by the wide-tube circular knitting
machine at each location of textile element 40". Textures 46"48" may exhibit aesthetic differences, or the differences may be
structural. For example, the degree of stretch in areas with
textures 46"-48" may be different, or the wear resistance of the
areas may vary depending upon the stitch utilized. The airpermeability of textile element 40" may also vary in the
different areas. Third texture 48" is formed to include a
plurality of apertures that extend through textile element 40".
The apertures may be formed by omitting stitches at specific
locations during the wide-tube circular knitting process, and the
apertures facilitate the transfer of air between the void within
A relevant dictionary definition of the word “texture” is “the characteristic
structure of the threads, fibers, etc., that make up a textile fabric: course
texture,” “a rough or grainy surface quality,” or “anything produced by
weaving; woven fabric.” Ex. 3001, 1351.
5

18

IPR2016-00922
Patent 8,266,749 B2
upper 20 and the area outside of upper 20. Accordingly, the
various stitches formed in textile element 40", or one of textile
elements 40 or 40', may be utilized to vary the texture, physical
properties, or aesthetics of footwear 10 within a single, unitary
element of material.
Id. at 9:39–57 (emphasis added). From this explanation, we understand that
“texture,” as used in the ’749 patent, is distinguishable from the physical and
aesthetic properties of a textile element. According to the recitations of
claims 11 and 21, “texture” is produced as part of the step recited in claims 1
and 13 of “simultaneously knitting a textile element with a surrounding
textile structure.” See Ex. 1001, 11:45–46. Thus, to the extent any
construction of this term is necessary, we find that the broadest reasonable
interpretation of the term “texture” in the context of claims 11 and 21 is “a
non-smooth surface formed while simultaneously knitting a textile element
with a surrounding textile structure.” Such a surface may be created by
“varying the type of stitch formed by the wide-tube circular knitting machine
at each location of textile element 40".” Id. at 9:39–42.
4. Other Claim Terms
For purposes of this Final Written Decision, we discern no other claim
terms that require express interpretation. See Nidec Motor Corp. v.
Zhongshan Broad Ocean Motor Co., 868 F.3d 1013, 1017 (Fed. Cir. 2017)
(explaining that claim terms need to be construed “only to the extent
necessary to resolve the controversy” (quoting Vivid Techs., Inc. v. Am. Sci.
& Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999))).

19

IPR2016-00922
Patent 8,266,749 B2
C. Obviousness over Reed and Nishida
1. Overview
Petitioner argues that claims 1–9, 11–19, and 21 are unpatentable
under 35 U.S.C. § 103(a) as obvious over the combined teachings of Reed
and Nishida. To support its arguments, Petitioner provides a detailed
mapping of limitations of the challenged claims to Reed and Nishida.
Pet. 13–32. Petitioner also cites Mr. Holden’s Declaration for support. See
Ex. 1003 ¶¶ 91–138.
A patent claim is unpatentable under 35 U.S.C. § 103(a) if the
differences between the claimed subject matter and the prior art are “such
that the subject matter as a whole would have been obvious at the time the
invention was made to a person having ordinary skill in the art to which said
subject matter pertains.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406
(2007). The question of obviousness is resolved on the basis of underlying
factual determinations, including: (1) the scope and content of the prior art;
(2) any differences between the claimed subject matter and the prior art;
(3) the level of skill in the art;6 and (4) objective evidence of
nonobviousness, i.e., secondary considerations.7 See Graham v. John Deere
Co., 383 U.S. 1, 17–18 (1966). On this record and for the reasons set forth
below, we are not persuaded that Petitioner demonstrates by a
preponderance of the evidence that claims 1–9, 11–19, and 21 of the ’749
patent are unpatentable as rendered obvious over the combined teachings of
See supra Section II.A.; see also Ex. 1003 ¶ 36 (“Based on my experience,
I have an understanding of the capabilities of the skilled person in this field,
and my opinions are provided from the perspective of such a person.”).
6

7

The record lacks arguments or evidence of secondary considerations. See
generally PO Resp.; Pet. Supp. Br. 4–5.
20

IPR2016-00922
Patent 8,266,749 B2
Reed and Nishida. We begin our analysis with a summary of the applied
references.
2. Reed (Ex. 1006)
Reed is directed to a method of manufacturing a wearable item, which
includes, among other things, simultaneously knitting two concentric tubes
with a circular-knitting machine to form a cylindrical textile structure
(Ex. 1006, Abstract, 1:58–64, 2:22–25, 3:3–5), textile elements located in
different portions of the textile structure (id. at 2:29–31), removing the
textile elements from the textile structure (id. at 3:12–19, 5:67–6:5), and
incorporating the textile element(s) “to form all types of garments worn by
men, women and children” (id. at 5:56–58 (emphasis added); see id. at 1:33–
35).8 In particular, Reed describes methods of making preseamed garments
(id. at 3:8–21) or preseamed sections of a garment, which sections may be
seamed together “by standard practices” to form a garment (id. at 6:10–17).
As Reed explains,
From the preceding description of the preferred embodiments,
it is evident that the objects of the invention are obtained to
produce a preformed and preseamed fabric on a circular
knitting machine so as to reduce time, cost and labor involved
in making garments. The types of program used to form the
8

Patent Owner contends that Reed is not analogous art. PO Resp. 34–36. In
particular, Patent Owner contends that Reed is not from the same field of
endeavor as the challenged claims and that Reed’s teachings are not
reasonably pertinent to the particular problem with which the recited
methods are involved. Id. at 34–35. Because Reed is directed to the
manufacture of all types of garments, including footwear (Reply 12–13; see
Ex. 1006, 1:33–44), and Reed is related directly to preparation of garments’
layouts from a knitted textile structure (Reply 14–15; see Ex. 1006, 2:29–
35), we are persuaded that Reed is analogous art to the challenged claims.
21

IPR2016-00922
Patent 8,266,749 B2
final product is to be varied with the imagination of the
programmer, as well as the type of product which may be
formed. The essence of the present invention is a garment
formed of juxtaposed sections of simultaneously knitted,
concentric tubes interconnected by knitting.
Id. at 6:18–28 (emphasis added).
Reed’s Figure 1 is reproduced below.

Figure 1 depicts tubular knitted structure 10, such as that produced by a
circular knitting machine. Id. at 2:66–3:1. Knitted structure 10 comprises
inner tube 12 and outer tube 14, and
[a]round the circumference of the knitted structure 10 are
illustrated three garments which, for example, may be skirts 16,
18 and 20.[9]
The garments 16, 18 and 20 are outlined by a plurality of
interconnecting knitted stitches 22 and 24. The interconnecting
knitting 22 not only forms the outline of the garments 16, 18
9

We are persuaded that “skirts” are “body garments.” See Ex. 1003 ¶ 97.
22

IPR2016-00922
Patent 8,266,749 B2
and 20, but joins the inner tube 12 to the outer tube 14 so as to
create a seam. The interconnecting knitting 24 is merely to
define the lower outline of the skirt upon which the pattern may
be cut.
Id. at 3:1–15 (emphasis added).
Reed explains that the use of circular knitting machines in the garment
industry historically was limited to making tubular, knitted garments, such
as ladies stockings, sweaters, and other garments, wherein the entire knitted
fabric was used as a unit to form one surface of a finished garment. Pet. 10–
11 (citing Ex. 1006, 1:33–44; Ex. 1003 ¶ 94); see supra Section II.C.1.
(note 6). Reed further teaches that “[c]omputer electronic knitting brought
about the possibilities of making patterns and designs of up to three million
stitches (previously approximately 50,000 was maximum). With this
system, patterns and designs are possible that before could not be made.”
Ex. 1006, 1:50–55; see Ex. 1003 ¶ 95. Reed states that its method uses “an
electronic circular double knitting machine” and that an “object of the
[Reed] invention is to provide a method of reducing the cost of
manufacturing of garments by using the versatility of a computerized
electronic knitting machine.” Ex. 1006, 1:58–59, 2:22–25, Figs 1–6; see
Ex. 1003 ¶ 95. Further, Reed teaches that:
If the present process is used to preform an exterior
decorative fabric having a lining or inner-lining or interfacing
attached thereto, the severed sections must be assembled and
seamed by standard practices. By providing the lining or
interfacing already attached to the section, a substantial amount
of time is saved in measuring, marking and cutting the original
fabric and lining or interlining as well as stitching them
together.
Ex. 1006, 6:10–17 (emphases added).

23

IPR2016-00922
Patent 8,266,749 B2
3. Nishida (Ex. 1009)
Nishida is directed to the production of a shoe upper by (1) cutting out
a layout in the form of the shoe upper from a web of material and
(2) shaping the shoe upper by connecting material parts of the layout by the
formation of seams. See Ex. 1009, Abstract. By this process, such shoe
uppers may be produced efficiently and in reduced time despite the many
individual parts present or to be made visible. Id.
Figure 2 of Nishida is reproduced below.

Figure 2 illustrates an embodiment of the upper layout according to Nishida.
Id. at 3:6–12. Web of material 1 may include one or a plurality of layouts 2.
Further, web of material 1 includes backing 4 that may be a knitted material,
and different areas of layouts 2 may be formed by knitting different yarns or
fibers on backing 4. Id. at 3:15–26, 5:63–6:2. Moreover, Nishida’s web of

24

IPR2016-00922
Patent 8,266,749 B2
material 1 may be “knitted in two or more layers or can be especially thick
or additionally embroidered.” Id. at 3:66–4:1.
Consequently, web of material 1 may be used to produce layouts 2 by
different production measures, such as different styles, yarn material, color,
material thickness, number of layers of material, or the like, simultaneously
with the production of web of material 1. Id. at 4:12–18; see id. at 3:66–4:1,
Figs. 1, 2. Each layout 2, including a sole part, may be cut from web of
material 1 as a unit and processed into an upper. Id. Nishida describes the
manufacture of an article of footwear incorporating such an upper. Id. at
3:9–12, Fig. 3.
Figure 4 of Nishida is reproduced below.

25

IPR2016-00922
Patent 8,266,749 B2

Figure 4 depicts a section of web of material 1 with radially symmetric
layout 2 having sole part sections 29.1 and 29.2 provided on opposite sides
of the upper, as well as tongue 40. Id. at 2:64–66. Nishida sets forth the
following in association with Figure 4:
[T]ongue 40, for example, according to FIG. 4, can be provided
also in the course of producing the web of material 1 with
different weave structures and/or weave patterns and/or
embroideries or with one or with several prints or the like. On
a web of material 1, different tongues 40 can be produced
corresponding to a shoe shape and/or a shoe size both in shape,
size, color or colors, patterns or the like. Preferably, in each
case, related tongues 40 are produced simultaneously with a
layout 2 on same web of material 1.
26

IPR2016-00922
Patent 8,266,749 B2
For optimum surface use of web of material 1, a tongue
40 can be produced in the open space 41 located between the
two layout sections 42 and 43, which later form the rear of foot
or heel-pan shoe part.
Preferably, each layout 2 has at least five, preferably
more than ten, patterns and a tongue 40 has at least two,
preferably at least three patterns produced or appearing, which
are different from one another in each case.
Id. at 5:27–44; cf. id., Fig. 2 (reproduced above, depicting web of material 1
including layouts 2 without tongues). Thus, as depicted in Figure 4, tongues
may be individual parts of an article of footware “produced separately and
applied to the upper later” and are of a relatively simple, substantially
rectangular shape. Ex. 1009, 2:45–47, see id. at 4:39–40 (describing the
inclusion of a tongue in a known article of footware). Tongues and uppers
may be taken from the same web of material or from different webs. See id.
at 5:37–40.10
4. Petitioner’s Arguments
Petitioner argues that Reed and Nishida teach or suggest all of the
limitations of claims 1–9, 11–19, and 21 of the ’749 patent. Pet. 9–32. In
particular, Petitioner argues that Reed and Nishida teach or suggest all of the
limitations of each of independent claims 1 and 13. Id. at 13–19 (claim 1),
20–21 (claim 13).

10

Although we find that Nishida teaches layouts both of an upper and of a
tongue, Petitioner does not argue that Nishida’s tongue layouts separately
teach textile elements that may be incorporated into an article of footwear.
See Pet. 16, 28; Ex. 1003 ¶ 86, App’x C (pg. 140).
27

IPR2016-00922
Patent 8,266,749 B2
a. Independent Claims 1 and 13
Independent claim 1 recites “[a] method of manufacturing an article of
footwear.” Ex. 1001, 11:43; see also id. at 12:27 (claim 13). Reed teaches
that its circular knitting methods may be used to manufacture “all types of
garments.” Ex. 1006, 5:56–57. Although Reed specifically identifies
stockings and hosiery (id. at 1:33–35, 5:57–58), e.g., footwear, as garments
manufactured by circular knitting, Reed does not describe shoes expressly as
“garments.” Nishida teaches processes for manufacturing footwear and that
the webs of material depicted in its Figures 1 and 2 are “produced by a
conventional textile process, [for] example, by weaving and/or knitting
and/or embroidering.” Ex. 1009, 3:6–9 (emphases added); see Ex. 1003
¶ 132. Thus, we are persuaded that Petitioner has shown that Reed alone, as
well as the combined teachings of Reed and Nishida,11 teach or suggest a
method of manufacturing an article of footwear.
The method of claim 1 further comprises the step of “simultaneously
knitting a textile element with a surrounding textile structure, the knitted
textile element having at least one knitted texture that differs from a knitted
texture in the surrounding knitted textile structure.” Ex. 1001, 11:45–48
(emphasis added). Similarly, claim 13 recites:

11

Because Petitioner argues that Reed alone, as well as the combined
teachings of Reed and Nishida, teach or suggest this limitation of claim 1
(Pet. 12–13) and that Nishida alone teaches or suggests the final limitation of
claim 1 (id. at 16), Petitioner’s asserted ground necessarily rests on the
combined teachings of Reed and Nishida. See Supp. Tr. 13:19–14:6; Pet.
Supp. Br. 3 (“Indeed, for Ground 1, the Petition cited to both Nishida and
Reed as disclosing multiple elements (e.g., Pet., 14-16), and the Board
agreed that both individually teach multiple claim elements. See [1st FWD],
23-24.”).
28

IPR2016-00922
Patent 8,266,749 B2
knitting a first textile element and a second textile
element simultaneously with knitting a surrounding textile
structure, the first knitted textile element located within a first
portion of the knitted textile structure, the second knitted textile
element located within a second portion of the knitted textile
structure,
varying at least one of the types of stitches or the types of
yarns in the knitted textile structure to impart a texture to the
first and second knitted textile elements different from a texture
of the knitted textile structure extending between the first and
second portions
Id. at 12:29–39 (emphasis added).
Reed teaches simultaneously knitting textile elements, including
producing body garments, such as skirts (see Ex. 1006 Fig. 2), shirts and
pants (see id. at Fig. 3), and dresses (see id. at Fig. 6), for men, women, and
children (id. at 5:56–57) with a surrounding textile structure. Pet. 14–15.
Reed further teaches simultaneously knitting textile elements, including
sections of garments having “an exterior decorative fabric having a lining or
inner-lining or interfacing attached thereto.” Ex. 1006, 6:10–12. As noted
above, Reed teaches that computerized knitting processes made possible
numerous stitch varieties. See id. at 1:50–59; Ex. 1003 ¶ 95. Nishida also
supplies this limitation. Pet. 14–15. Nishida’s Figure 2, reproduced above
(see supra Section II.C.3.) depicts textile elements, such as layouts 2, with a
surrounding textile structure, such as web of material 1. Pet. 15–16; see
Ex. 1009, 3:15–26. Moreover, as noted above,
[T]ongue 40, for example, according to FIG. 4, can be
provided also in the course of producing the web of material 1
with different weave structures and/or weave patterns and/or
embroideries or with one or with several prints or the like. On
a web of material 1, different tongues 40 can be produced
corresponding to a shoe shape and/or a shoe size both in shape,
29

IPR2016-00922
Patent 8,266,749 B2
size, color or colors, patterns or the like. Preferably, in each
case, related tongues 40 are produced simultaneously with a
layout 2 on same web of material 1.
...
Preferably, each layout 2 has at least five, preferably
more than ten, patterns and a tongue 40 has at least two,
preferably at least three patterns produced or appearing, which
are different from one another in each case.
Ex. 1009, 5:27–36, 41–44 (emphasis added). Thus, we determine that either
Reed or Nishida teaches “simultaneously knitting a textile element with a
surrounding textile structure” and “the first knitted textile element located
within a first portion of the knitted textile structure,” as recited in
independent claims 1 and 13, respectively.
With regard to the second part of this limitation of claims 1 and 13,
which Petitioner refers to as limitations 1C and 13C, Petitioner argues that:
Reed describes using different types of stitches or yarns to
impart a knitted texture to the textile element(s) that is different
from a knitted texture in the surrounding textile structure. For
example, Reed describes that the edges of the garments 16, 18,
20 are formed by interknitted stitches, whereas the remainder of
the garments 16, 18, 20 are formed by non-interknitted stitches.
. . . Because the interknitted stitches are part of the garments
16, 18, 20, they form a texture in the garments that is different
from the texture in the surrounding textile structure.
Pet. 16 (emphasis added; citing Ex. 1006, 5:3–18; Ex. 1003 ¶¶ 108–109); see
Ex. 1006, 6:10–17 (describing the knitting of garment sections). Similarly,
Petitioner argues that Nishida teaches that:
“only just those parts of the web of material are produced in the
necessary quality, thickness, multilayers or the like which
correspond to the pattern or to an area of a pattern of the shoe
upper or the related shoe part. The remaining area of the web
of material in contrast can consist of a simple, lightweight or
30

IPR2016-00922
Patent 8,266,749 B2
inexpensive material quality, which holds together only the
patterns or areas of such patterns in the web of material after
their completion.”
Pet. 17 (emphasis added; quoting Ex. 1009, 2:12–20; citing Ex. 1003
¶¶ 110–111); see Ex.1009, 5:27–44 (describing the knitting of various
tongues). We determine that either Reed or Nishida teaches this second part
of the limitations of independent claims 1 and 13.
The method of claim 1 further comprises the step of “removing the
knitted textile element from the surrounding knitted textile structure.”
Ex. 1001, 11:49–50; see also id. at 12:40–41 (claim 13 recites “removing the
first and second knitted textile element from the knitted textile structure”).
Because the recited “textile structure” may be manufactured on a circular
knitting machine (id. at 12:7–9 (claim 9), 64–67 (claim 19)), we are
persuaded based on the evidence cited in the Petition that Petitioner has
shown that the teachings of Reed, or the combined teachings of Reed and
Nishida, teach or suggest this limitation of the independent claims. Pet. 18
(claim 1; citing, e.g., Ex. 1006, 3:12–19; Ex. 1009, 1:10–18); id. at 21
(claim 13); see Ex. 1003 ¶¶ 103–104.
Finally, the method of claim 1 comprises the step of “incorporating
the knitted textile element into the article of footwear.” Ex. 1001, 11:51–52
(emphases added); see id. at 12:42–43 (claim 13). Petitioner relies solely on
Nishida to supply this limitation, and argues that Nishida teaches this
limitation of the independent claims. Pet. 16 (claim 1), 20 (claim 13); see
Ex. 1003 ¶ 126. We agree.
Petitioner argues that a person of ordinary skill in the art would have
had reason to combine the identified teachings of Reed and Nishida to
achieve the methods recited in independent claims 1 and 13. Pet. 11–13. In
31

IPR2016-00922
Patent 8,266,749 B2
particular, Petitioner argues that, because Reed teaches that its methods are
applicable to “all types of garments” (Ex. 1006, 5:56–57 (emphasis added);
see Ex. 1003 ¶ 131), a person of ordinary skill in the art would have had
reason to apply the teachings of Reed to the processes and shoe parts of
Nishida. Pet. 12 (citing Ex. 1003 ¶ 133). Further, Petitioner argues that,
because both Reed and Nishida teach the advantages of reducing cost
through the use of computer-controlled knitting machines, a person of
ordinary skill in the art would have had reason to combine their teachings.
Id. at 13 (citing Ex. 1003 ¶¶ 134–135). Finally, Petitioner argues that a
person of ordinary skill in the art would have had reason to apply Reed’s
methods for producing textile elements, from which to produce garments, to
produce Nishida’s shoe upper layouts. Id.
b. Dependent Claims 2–9, 11, 12, 14–19, and 21
With respect to the challenged dependent claims, Petitioner argues
that Reed teaches or suggests the additional limitations recited in claims 9
and 19 (Pet. 29–31; see supra Section II.B.2.); that Nishida teaches or
suggests the additional limitations recited in claims 7, 12, 17, and 18
(Pet. 25, 31–32); and that Reed and/or Nishida teaches or suggests the
additional limitations recited in claims 2–6, 8, 11, 14–16, and 21 (Pet. 19,
21–29, 31; see supra Section II.B.1.). Petitioner provides a detailed
mapping of the limitations of each of these dependent claims onto the
teachings of Reed and/or Nishida. See Ex. 1003, App’x A. Moreover,
Petitioner argues that a person of ordinary skill in the relevant art would
have had at least the same reason to combine the teachings of Reed and
Nishida to achieve the methods recited in these dependent claims, as those

32

IPR2016-00922
Patent 8,266,749 B2
given for combining the teachings of Reed and Nishida to achieve the
recited methods of the independent claims. See Pet. 11–13.
Although we have reviewed the entirety of Petitioner’s analysis and
evidence for both the independent and dependent claims, we emphasize the
following specific evidence and arguments. Claim 11 recites:
The method of claim 1, wherein simultaneously knitting
a textile element with a surrounding textile structure includes
forming the knitted textile element to include a first area and a
second area with a unitary construction, the first area being
formed of a first stitch configuration, and the second area being
formed of a second stitch configuration that is different from
the first stitch configuration to impart varying textures to a
surface of the knitted textile element.
Ex. 1001, 12:14–21 (emphasis added). Claim 21 depends from claim 13 and
recites substantially the same limitations as claim 11. Id. at 13:5–14:5.
Petitioner argues that Reed teaches these limitations in two ways.
Pet. 31. First, Petitioner argues Reed teaches that the edges of the garments
16, 18, 20, depicted in Reed’s Figure 1 (reproduced above) are formed by
interknitted stitches and that the remainder of the garments 16, 18, 20 are
formed by non-interknitted stitches. Id. at 25 (citing Ex. 1003 ¶¶ 115–116
with respect to the limitations of claim 8). Specifically, the seams or
outlines of the garments 16, 18, 20 are formed with interknitted stitches
(shown in X’s and O’s in Reed’s Figure 2), which are formed by feeds 1, 2,
3, and 4 on needles 7, 9, 8, and 10, as shown in Reed’s Figures 3B and 3D.
Ex. 1006, 5:3–18, Figs. 3A–3E; see Ex. 1003 ¶ 115. Reed further teaches
that “two feeds[, i.e., feeds 1, 3 for the dial needles] are used for one course
of the inner-tube 12 and two feeds[, i.e., feeds 2, 4 for the cylinder needles]
are used for the outer tube 14.” Ex. 1006, 4:61–64, Figs. 2, 2A, 3A–3E; see
id. at 5:67–6:3; Ex. 1003 ¶¶ 115–116. Thus, because the stitches create a
33

IPR2016-00922
Patent 8,266,749 B2
texture different from the remainder of the textile element, Petitioner
concludes that Reed teaches “a first area and a second area with a unitary
construction.”
Second, Petitioner argues that Reed teaches “how the two layers 12,
14 themselves may be formed of different yarns or stitch configurations.”
Pet. 26 (citing Ex. 1003 ¶ 117). In particular, Reed describes the following:
If the two tubes 12 and 14 are knitted of two different
fibers, the knitted structure may form sections of a garment to
be assembled in the regular manner. For example, the outside
tube 14 may be a normal decorative fabric wherein the inner
tube 12 may be formed of material such as lining. By
simultaneously knitting and interknitting the two layers, a step
is saved by producing a section of garment which is prelined.
Similarly, the layer 12 (instead of being lining) may be
interfacing, which is attached to the outside layer 14 and again
saves a step in the manufacture of garments. Another example
where two different fibers are used to make the inner and outer
tubing would be in the foundation garment industry, where the
inner fabric could be cotton or other soft fibers and the outer
fabric would be lycra or elasticized yarns.
Ex. 1006, 3:61–4:8; see Pet. 26, 31; Ex. 1003 ¶ 117. Taking into account the
above-noted description, Petitioner alternatively argues that Reed’s separate,
circular knitted tubes may be the first and second areas recited in claims 11
and 21.
Finally, Petitioner alternatively argues that Nishida also teaches the
limitation of “a first area and a second area with a unitary construction.”
Pet. 26–27, 31. In particular, Nishida teaches “in the embodiment according
to FIGS. 1 and 2, with layout 2 on the web of material 1, areas 26 and 27 are
produced in a configuration, color or style that is different from the other
areas.” Ex. 1009, 4:6–9 (emphasis added); see id. at Abstract, 1:65–69,
34

IPR2016-00922
Patent 8,266,749 B2
2:40–45, 3:15–26, 3:47–48, 4:12–28, 4:48–55, 5:56–6:2; Ex. 1003 ¶¶ 118–
119. Nishida further states:
[l]ayout 2 is divided into different individual parts or areas,
which differ from one another, such as by being of another
material style and/or by being of different fibers or yarns, for
example, from wool, wool with metal yarns, silk, silk with
metal yarns, wool with plastic fibers or the like . . . .
Ex. 1009, 3:15–25; see Ex. 1003 ¶ 121. Petitioner argues that Nishida’s
teachings achieve a textile element with multiple knit constructions. Pet. 27.
Specifically, these varying constructions of Nishida’s layout may achieve
varying elasticity, air permeability, absorptivity, softness, extensibility, wear
resistance, and appearance, which Petitioner argues teach the “varying
textures” recited in these claims. Id. (citing Ex. 1009, 3:43–52, 5:63–6:2,
6:1–31); see Ex. 1003 ¶¶ 120–121. Thus, Petitioner argues that either Reed
or Nishida teaches the above-noted limitation. Petitioner, however, does not
specifically address the limitation’s requirement that the knitted textile
element is formed to include a first area and a second area “with a unitary
construction” or how Reed and/or Nishida teaches “a unitary construction.”
See Pet. 31; see also supra Section II.B.1. (construing “a first area and a
second area with a unitary construction” (Claims 11 and 21)).
Although we have emphasized specific evidence and arguments, we
have reviewed the entirety of Petitioner’s analysis and evidence for
independent claims 1 and 13, as well for dependent claims 2–9, 11, 12, 14–
19, and 21, and the supporting testimony of Mr. Holden. As noted above,
Petitioner relies on the same reasons to combine the teachings of Reed and
Nishida for its challenges to each of claims 1–9, 11–19, and 21 of the ’749
patent. See Pet. 11–13.
35

IPR2016-00922
Patent 8,266,749 B2
5. Patent Owner’s Contentions
Patent Owner raises seven separate contentions why Petitioner fails to
demonstrate that the combined teachings of Reed and Nishida render any of
claims 1–9, 11–19, and 21 of the ’749 patent unpatentable. See PO
Resp. 2–4. Because we find certain of the Patent Owner’s contentions
persuasive and dispositive, we do not address each of Patent Owner’s
separate contentions.
a. Low Level of Ordinary Skill in the Art
Patent Owner contends that Petitioner’s assessment of the level of
ordinary skill in the art is conclusory and is not based on the factors that the
Board has considered in determining the level of ordinary skill in the art. Id.
at 17–19. We have addressed the appropriate assessment of the level of
ordinary skill in the art above. See supra Section II.A. Whether the level of
ordinary skill in the art is “low” or “high” may make it more or less difficult
for Petitioner to demonstrate obviousness. PO Resp. 19 (“In sum, the level
of ordinary skill in the art at the time of the ’749 patent was low. It is more
difficult, therefore, for Petitioner to establish obviousness. . . .”); see Kinetic
Concepts, Inc. v. Smith & Nephew, Inc., 688 F.3d 1342, 1366 (Fed. Cir.
2012) (“Because it is generally easier to establish obviousness under a
higher level of ordinary skill in the art, we must assume that, in light of the
jury’s verdict, it adopted the lower level of skill proposed by S & N.”
(citation omitted)). However, a “low” relative level of skill alone does
prevent Petitioner from demonstrating obviousness.
Here, only Petitioner – the party bearing the burden of persuasion –
has proposed an assessment of the level of ordinary skill in the art. See
36

IPR2016-00922
Patent 8,266,749 B2
supra Section II.A.; but see IPR2013-00067, Ex. 2010 ¶ 52 (Patent Owner
proposed that a “POSITA . . . would have a few years of experience with
design and development of footwear and knowledge of textiles used in such
footwear”). For the reasons set forth above, we have adopted Petitioner’s
assessment. Further, as noted above, Petitioner’s declarant testifies from the
point of view of someone with the assessed level of skill, a level which the
declarant exceeds. See Ex. 1003 ¶ 36; Ex. 1004. Thus, regardless of
whether the level of ordinary skill is deemed “low” or “high,” we are not
persuaded that the relative assessment of the level of ordinary skill in the art
here affects our evaluation of Petitioner’s arguments and evidence.
b. Weight Given to Declarant’s Testimony
Patent Owner contends that Petitioner’s declarant, Mr. Holden, did not
author his declaration and, during cross-examination, Mr. Holden was
unable to answer basic questions about the declaration, the patent at issue,
the prior art, footwear, and knitting technologies. PO Resp. 19; see
Ex. 2004, 12:2–18. Mr. Holden testified that “[he] worked with counsel one
on one to basically give her a verbal description of my opinions and -- and
my thoughts on the -- on these issues, and she did the actual typing of the
document.” Reply 3 (quoting Ex. 2004, 12:7–11); see Ex. 2004, 12:12–
13:16. Declarants often have assistance in authoring their declarations. See
Square, Inc. v. Think Computer Corp., Case CBM2014-00159, slip op.
at 26–27 (PTAB Nov. 27, 2015) (Paper 47) (“the mechanics of declaration
preparation is ‘a waste of time, both for the witness and the Board’”).
Mr. Holden was not required to be the sole author of his declaration. Rather,
the relevant issue regarding the preparation of Mr. Holden’s declaration is

37

IPR2016-00922
Patent 8,266,749 B2
whether Mr. Holden adopted the content of his declaration as his own. Here,
he has. See Ex. 1003 ¶¶ 3–4, 209.
As Patent Owner suggests, we weigh Mr. Holden’s declaration
testimony in light of his testimony on cross-examination. Although
Mr. Holden indicated that he was unable to define or was unfamiliar with
certain terms during cross-examination, he did name references, including
Spencer (Ex. 1010), that he could and would consult to obtain the answers to
specific questions. Tr. 63:20–64:13. Moreover, Patent Owner’s counsel
acknowledged that persons of ordinary skill in the art (or declarants) do not
have to have all of the knowledge relevant to their testimony in their heads
and that they are allowed to consult references, as appropriate. Id. at 63:20–
64:2. Although Patent Owner notes that Mr. Holden apparently was not
aware of Spencer until this inter partes review (see Ex. 2004, 77:1–3;
Tr. 64:1–6), his learning of and relying on a new reference alone is not
sufficient reason to disregard, i.e., give no weight to, Mr. Holden’s
testimony. Further, the issue here is not whether Mr. Holden is a person of
ordinary skill in the art, but rather whether his testimony is of value to the
panel. See Tr. 64:15–18. Thus, as indicated in the discussion below, we
determine the appropriate weight to give to Mr. Holden’s testimony.
c. Failure to Explain How and Why a Person of
Ordinary Skill in the Art Would Have Combined the
Teachings of Reed and Nishida to Achieve the Recited
Methods
Initially, Patent Owner contends that Petitioner fails to address the full
scope and content of the prior art and ignores critical disclosure of both
references. PO Resp. 24. In particular, Patent Owner notes that “Reed states
that his ‘present invention relates generally to knitted garments and more
38

IPR2016-00922
Patent 8,266,749 B2
particularly to a garment which is preseamed and preformed on a circular
knitting machine.’” Id. (quoting Ex. 1006, 1:8–11 (emphasis omitted)); see
Tr. 36:3–9. Patent Owner contends that this description of Reed’s “present
invention” limits the scope of Reed to preseamed garments made on circular
knitting machines. PO Resp. 24–25. Although this description may limit
the scope of Reed’s recited methods, the scope of Reed’s teachings is
broader than what Reed specifically refers to as the “present invention”
(Ex. 1006, 1:8–11) and encompasses “the conventional methods involv[ing]
superimposing two preexisting panels of material, forming a garment into
those preexisting panels, cutting the shaped garment from the two
preexisting panels, and then seaming the two cutouts together to create the
final garment” (PO Resp. 25 (citing Ex. 1006, 6:18–22)). See Reply 7
(quoting In re Heck, 699 F.2d 1331, 1332–33 (Fed. Cir. 1983) (“The use of
patents as references is not limited to what the patentees describe as their
own inventions or to the problems with which they are concerned. They are
part of the literature of the art, relevant for all they contain.” (citation
omitted))). Although Reed’s teachings may be broader than preseamed
garments and sections garments, Petitioner relies only on the embodiments
of Reed’s invention that are directed to preseamed garments and to
preseamed sections of garments. Pet. 14 (citing Ex. 1006, 1:58–64);
Reply 6–8; see Tr. 9:17–10:7, 16:17–17:8, 25:17–26:21, 30:4–11.
With respect to Nishida, Patent Owner contends that Nishida’s web of
material has two primary components: a backing and one or more layouts
printed on or produced in the backing. PO Resp. 28–29 (citing Ex. 1009,
1:40–2:53, 3:6–26). The backing may be formed prior to the production of
the layouts. Id. Patent Owner notes that Nishida seeks to improve on
39

IPR2016-00922
Patent 8,266,749 B2
previously known methods for producing layouts, such as those described in
German Patent No. 627 878. Id. at 28. Nevertheless, the reference to the
German patent is exemplary, and we do not interpret Nishida as limited to
the methods described in the German Patent. See Ex. 1009, 1:39–46;
Reply 8.
After the backing is formed, Nishida teaches printing on or producing
layouts in the backing. Ex. 1009, 3:13–15. The layouts are printed by a
fabric printing process onto the backing or produced by a textile production
process inside the backing. PO Resp. 29 (citing Ex. 1009, 1:50–56, 2:20–26,
3:13–15, 5:45–52); see Reply 9. “[T]he material can be woven or knitted in
two or more layers or can be especially thick or additionally embroidered.”
Ex. 1009, 3:66–4:1.
As noted above, each of the embodiments of Reed, relied upon by
Petitioner, describes the pre-seaming of garments or sections of garments
before their removal from the cylindrical textile structure. The teachings of
Nishida relied upon by Petitioner, do not teach pre-seaming but, instead,
teach the seaming of the upper layout after its removal from the web of
material. Ex. 1009, 4:19–30 (Figs. 2 and 3), 5:3–26 (Figs. 4 and 5); see
Pet. 24; PO Resp. 31; Tr. 45:2–46:8. Patent Owner contends that Petitioner
fails to explain why and how a person of ordinary skill in the art would
combine the relied upon teachings of Reed and Nishida to achieve the
recited methods of the challenged claims. PO Resp. 36–41. In particular,
because Petitioner relies on the teachings of the embodiments of Reed which
describe pre-seamed garments and pre-seamed sections of garments, and
because Nishida does not teach such pre-seaming, Patent Owner contends
that Petitioner has not shown why and how a person of ordinary skill in the
40

IPR2016-00922
Patent 8,266,749 B2
art would combine the teachings of Reed and Nishida to achieve the recited
methods of the challenged claims. For the following reasons, we agree.
i.

Failure of Proof

Petitioner bears the burden of proving by a preponderance of the
evidence that the challenged claims are unpatentable. This includes
demonstrating by a preponderance of the evidence that a person of ordinary
skill in the art would have had reason to combine the teachings of Reed and
Nishida to achieve the methods recited in the challenged claims. As noted
above, Petitioner argues that a person of ordinary skill in the art would have
had at least three reasons to combine the teachings of Reed and Nishida to
achieve the methods recited in the challenged claims. Pet. 11–13; see
Tr. 10:12–11:12. First, Petitioner argues that, because Reed teaches that its
methods are applicable to “all types of garments” (Ex. 1006, 5:56–57
(emphasis added); see Ex. 1003 ¶ 131), a person of ordinary skill in the art
would have had reason to apply the teachings of Reed to the processes and
shoe parts of Nishida. Pet. 12 (citing Ex. 1003 ¶ 133). Second, Petitioner
argues that, because both Reed and Nishida teach the advantages of reducing
cost through the use of computer-controlled knitting machines, a person of
ordinary skill in the art would have had reason to combine their teachings.
Id. at 13 (citing Ex. 1003 ¶¶ 134–135). Third, Petitioner argues that a person
of ordinary skill in the art would have had reason to apply Reed’s methods
for producing textile elements, from which to produce garments, to produce
Nishida’s shoe upper patterns. Id. However, none of these reasons or any
other reason identified by Petitioner addresses the differences between Reed
and Nishida, specifically pre-seaming.

41

IPR2016-00922
Patent 8,266,749 B2
Independent claims 1 and 13 do not mention seaming or pre-seaming
expressly. See Ex. 1001, 11:43–52 (claim 1), 12:27–43 (claim 13). Further,
Patent Owner acknowledged that at least independent claims 1 and 13 do not
mention seaming or pre-seaming. Tr. 37:7–10. Claims 2–9, 11, 12, 14–19,
and 21 also do not mention seaming or pre-seaming expressly. See
Ex. 1001, 11:51–57, 12:7–20, 12:29–32, 12:41–48. As we noted above,
however, claims 11 and 21 recite “a unitary construction,” which “is
intended to express a configuration wherein portions of a textile element are
not joined together by seams or other connections.” Id. at 6:42–46. Thus,
we interpret the limitations of claims 11 and 21 to recite a textile element
having areas of different textures, but without seams. See supra
Section II.B.1. Moreover, under principles of claim differentiation, we are
persuaded that the scope of challenged claims 1–9 and 12–19 is broad
enough to encompass methods related to both pre-seamed and unseamed
garments and garment sections. Nothing in the Specification (Ex. 1001) or
in the prosecution history (Ex. 1002) of the ’749 patent overcomes the
presumptive scope of the independent claims arising from the doctrine of
claim differentiation. See Kraft Foods, Inc. v. Int’l Trading Co., 203 F.3d
1362, 1368 (Fed. Cir. 2000).
Neither Petitioner nor its declarant, Mr. Holden addresses the fact that
each of the relied upon embodiments of Reed teaches pre-seaming, and that
none of the relied upon teachings of Nishida involves pre-seaming. PO
Resp. 36–41; see Tr. 34:17–35:12; see also Ex. 2004, 161:5–163:19
(Mr. Holden was unable to identify teachings in Nishida directed to preseamed and preformed uppers). Moreover, during cross-examination,
Mr. Holden acknowledged that he had not been asked to nor had he
42

IPR2016-00922
Patent 8,266,749 B2
considered how the teachings of these references could be combined. In
particular, the following colloquy occurred during Mr. Holden’s deposition:
Q. (By Mr. Harris) And isn’t it also true that nowhere in
your declaration do you describe how a person of ordinary skill
in the art would create a preseamed and preformed footwear
upper on a circular knitting machine?
MS. WILLIAMS: Objection.
THE WITNESS: I don't recall that there’s any por- -portion of that. Again, I was not asked to hypothesize on that
particular po1st
Q. (By Mr. Harris) Okay. Just so I’m clear, you weren't
asked to offer an opinion on how a person of ordinary skill in
the art would create a preseamed and preformed footwear upper
on a circular knitting machine; correct?
A. I don’t recall that I was asked that particular question.
Q. Thank you.
Ex. 2004, 152:22–153:13; see Tr. 53:19–57:5.
In ActiveVideo Networks, Inc. v. Verizon Communications, Inc., our
reviewing court found that where “[t]he expert failed to explain how specific
references could be combined, which combination(s) of elements in specific
references would yield a predictable result, or how any specific combination
would operate or read on the asserted claims,” such testimony “is not
sufficient and is fraught with hindsight bias.” 694 F.3d 1312, 1327 (Fed.
Cir. 2012); see PO Resp. 58–60; Reply 27; see also Hyundai Motor Co. v.
Blitzsafe Texas, LLC, Case IPR2016-01476, slip op. at 33 (PTAB Jan. 24,
2017) (Paper 12) (“A determination of obviousness cannot be reached where
the record lacks ‘explanation as to how or why the references would be
combined to produce the claimed invention.’”; quoting Trivascular, Inc. v.
Samuels, 812 F.3d 1056, 1066 (Fed. Cir. 2016)). Despite Mr. Holden’s
43

IPR2016-00922
Patent 8,266,749 B2
testimony that a person of ordinary skill in the art would have had reason to
combine the teachings of Reed and Nishida to achieve the recited methods
of the challenged claims (see Ex. 1003 ¶¶ 131–137), Mr. Holden’s testimony
during cross-examination makes clear that he did not perform the necessary
analysis to support his conclusions. See 37 C.F.R. § 42.65(a).
Petitioner’s evidence, and, in particular, Mr. Holden’s testimony, also
is deficient with respect to the limitations recited in claims 11 and 21, in that
it fails to offer any explanation why a person of ordinary skill in the art
would combine the teachings of Reed and Nishida to achieve a method in
which seams of the kind taught by Reed apparently are prohibited.
Petitioner argues that Reed teaches the “a unitary construction” limitation of
claims 11 and 21 either because the interconnecting stitches are a different
texture from the rest of the garment or garment section or because the inner
and outer circular knit materials may have different textures. Pet. 25–29, 31.
Thus, Mr. Holden testifies in support that Reed’s interknitted stitches, i.e.,
the joining seams, teach textures different from the remainder of Reed’s
finished garments or garment sections (Ex. 1003 ¶¶ 114–116) or that circular
knit materials, although joined by seams, may have different textures (id.
¶ 117). These arguments and testimony are inconsistent with Petitioner’s
position that either the finished garments or garment sections are the “textile
element” recited in the challenged claims and that, in claims 11 and 21,
the knitted textile element [is formed] to include a first area and
a second area with a unitary construction, the first area being
formed of a first stitch configuration, and the second area being
formed of a second stitch configuration that is different from
the first stitch configuration to impart varying textures to a
surface of the knitted textile element.

44

IPR2016-00922
Patent 8,266,749 B2
Pet. 19–20, 25–29, 31 (emphasis added); see Tr. 16:17–17:12. These
inconsistencies are not explained.
Alternatively, Petitioner argues (Pet. 26–29, 31) and Mr. Holden
testifies (Ex. 1003 ¶¶ 118–121) that the limitations of claims 11 and 21 are
taught by Nishida. In particular, Mr. Holden testifies that Nishida describes
that, “in the embodiment according to FIGS. 1 and 2, with layout 2 on the
web of material 1, areas 26 and 27 are produced in a configuration, color
or style that is different from the other areas.” Id. ¶ 118 (quoting Ex. 1009,
4:6–9 (emphasis added by declarant)). Mr. Holden concludes from his
analysis of Nishida that “[a] person of ordinary skill in the art at least as of
March 3, 2004 would have understood that Nishida’s disclosure regarding
varying the knit of individual areas would include having a substantially
smooth texture in one area, and a rougher texture in another area.” Id. ¶ 121.
What Mr. Holden fails to explain, however, is how and why this teaching of
Nishida is combined with the teachings of the relied upon embodiments of
Reed to achieve the methods recited in claims 11 and 21. Petitioner and its
declarant rely instead on the general arguments presented in connection with
independent claims 1 and 13 regarding reasons to combine the teachings of
Reed and Nishida. Pet. 11–13; Ex. 1003 ¶¶ 131–137. Given the language of
the claims, our interpretation of that language, and the teachings of Reed and
Nishida, we find Petitioner’s arguments and evidence, especially
Mr. Holden’s testimony, insufficient and unpersuasive.
Consequently, having weighed Petitioner’s evidence of reasons to
combine the teachings of Reed and Nishida, noting the deficiencies in
Mr. Holden’s analysis in support of those reasons, we are not persuaded that
Petitioner has demonstrated by a preponderance of the evidence that a
45

IPR2016-00922
Patent 8,266,749 B2
person of ordinary skill in the art would have had reason to combine the
teachings of Reed and Nishida to achieve the methods recited in the
challenged claims.
ii.

Combined Teachings of Reed and Nishida Render Reed
Inoperable for its Intended Purpose

As our reviewing court has explained,
“obviousness is a question of law based on several underlying
factual findings,” including what a reference teaches, and
whether proposed modifications would change a reference’s
“principle of operation.” Where “a patent claims a structure
already known in the prior art that is altered by the mere
substitution of one element for another known in the field, the
combination must do more than yield predictable results.”
However, combinations that change the “basic principles under
which the [prior art] was designed to operate,” or that render
the prior art “inoperable for its intended purpose,” may fail to
support a conclusion of obviousness.
Plas-Pak Industries, Inc. v. Sulzer Mixpac AG, 600 F. App’x 755, 757–758
(Fed. Cir. 2015) (non-precedential) (citations omitted, emphasis added).
As noted above, we find that the fundamental purpose of Reed’s
methods is to produce pre-seamed, finished garments or sections of
garments. E.g., Ex. 1006, 1:58–64, 3:8–21, 5:67–6:17; see supra
Section II.C.2. As Reed explains, “[t]he essence of the present invention is a
garment formed of juxtaposed sections of simultaneously knitted, concentric
tubes interconnected by knitting.” Ex. 1006, 6:25–28 (emphases added). As
we also noted above, the methods recited in challenged claims 1–9 and 12–
19 do not specify whether or not the textile elements are pre-seamed. Thus,
we interpret those claims broadly to cover both pre-seamed and unseamed
textile elements.

46

IPR2016-00922
Patent 8,266,749 B2
As discussed above, however, claims 11 and 21 are interpreted to
describe “a unitary construction,” which does not include seams. See supra
Section II.B.1. Thus, “a unitary construction” does not appear to read on
Reed’s pre-seamed, finished garments or garment sections. Further,
Petitioner does not argue that, like Reed, Nishida teaches pre-seamed uppers
or sections of uppers or tongues. Consequently, we determine that, relying
on Nishida’s teachings to supply the “unitary construction” limitation with
respect to claims 11 and 21 in the context of the teachings of Reed, as
Petitioner suggests (Pet. 26–29, 31), would require the alteration of the
principles of operation of Reed or would render Reed inoperable for its
intended purpose.
In response to Patent Owner’s contention that Petitioner’s
combination of the teachings of Reed and Nishida renders Reed inoperable
for its intended purpose, Petitioner argues that a person of ordinary skill in
the art would understand that
[t]o produce two single-layer layouts, the POSITA would
simply cut along the garment side of stitches 22, 24
(highlighted in red below) so that all seams remain with the
surrounding tube material, and the two layouts are no longer
connected to each other after removal from the tubes 12, 14.
Reply 18–19 (citing Ex. 1006, 3:9–15, 5:67–6:3; Ex. 1003 ¶¶ 103, 112). In
particular, Petitioner produces the following annotated version of Reed’s
Figure 1.

47

IPR2016-00922
Patent 8,266,749 B2

Reply 19. Petitioner has annotated Reed’s Figure 1 to add red lines
indicating cut lines on the garment inside of stitches 22, 24. Thus, as
depicted in annotated Figure 1, Petitioner argues that the finished garments
or garment sections could be cut from the textile structure inside of the
seams, as indicated by the red lines, to remove the seams from the garments
or garment sections. Id. According to Petitioner, “[t]he two separated
layouts are then processed and seamed along the edges, as described in both
Reed and Nishida.” Id. (emphases added). Nevertheless, Petitioner provides
no explanation of why a person of ordinary skill in the art would have reason
to seam the garments or garment sections, only then to remove the seams, so
that the garments or garment sections could be reseamed later. Id. at 18–19;
see Tr. 59:21–60:12, 68:20–70:21.12 We find these arguments contrary to
the teachings of Reed and unpersuasive.

Petitioner’s counsel argues that Reed’s seams may be used as an outline,
but we do not find that Reed teaches that cuts are taught inside the outline to
remove the seam from the garment section. Ex. 1006, 3:9–12
(Interconnected knitted stitches form both an outline and a seam joining the
inner and outer tubes.); see Tr. 70:2–21. Cutting inside the seams of a
48
12

IPR2016-00922
Patent 8,266,749 B2
Consequently, with respect to challenged claims 11 and 21, we find
that Petitioner’s proposed combination of the teachings of Reed and Nishida
would render Reed either inoperable or unsuitable for its intended purpose.
Thus, we are not persuaded that Petitioner has demonstrated by a
preponderance of the evidence that a person of ordinary skill in the art would
have had reason to combine the teachings of Reed and Nishida to achieve
the methods recited in challenged claims 11 and 21.
6. Summary
Based on our review of the arguments and evidence presented by each
party, we conclude that Petitioner fails to demonstrate by a preponderance of
the evidence that either of independent claims 1 and 13 is unpatentable as
rendered obvious by the combined teachings of Reed and Nishida.
Moreover, at least because Petitioner’s arguments for the obviousness of
dependent claims 2–9, 11, 12, 14–19, and 21 over Reed and Nishida rely on
the arguments and evidence presented with respect to independent claims 1
and 13, we also conclude that Petitioner fails to demonstrate by a
preponderance of the evidence that any of the dependent claims is
unpatentable as rendered obvious by the combined teachings of Reed and
Nishida. We further determine that for the additional reasons set forth
above, Petitioner fails to demonstrate by a preponderance of the evidence

finished garment would change a finished garment into an unfinished
garment or a seamed garment section into an unseamed garment section and
would appear entirely contrary to the teachings of Reed. See Ex. 1006,
3:15–21.
49

IPR2016-00922
Patent 8,266,749 B2
that claims 11 and 21 are rendered obvious by the combined teachings of
Reed and Nishida.13
D. Obviousness over Castello, Fujiwara, and Nishida
1. Overview
Petitioner argues that claims 1–9, 11–19, and 21 are unpatentable
under 35 U.S.C. § 103(a) as obvious over the combined teachings of
Castello, Fujiwara, and Nishida. To support its arguments, Petitioner
provides a detailed mapping of limitations of the challenged claims to
Castello, Fujiwara, and Nishida. Pet. 33–56. Petitioner also cites
Mr. Holden’s Declaration for support. See Ex. 1003 ¶¶ 145–193. We
provide a summary of the applied references below.14
2. Evaluating Petitioner’s Arguments and Evidence
Initially, we note that we declined to institute inter partes review of
the challenged claims based on the combined teachings of Castello,
Fujiwara, and Nishida because we found that Petitioner failed to articulate
its challenge with particularity, as required under 35 U.S.C. § 312(a)(3).
Inst. Dec. 21–23. For example, with the exception of the final limitations of
independent claims 1 and 13, for which Petitioner relies solely on the
teachings of Nishida (Pet. 44, 46), it is unclear from Petitioner’s arguments
and claim charts, which reference or combination of references Petitioner
relies upon to teach or suggest each limitation of the independent claims (id.
at 37–44, 45–46). At the Supplemental Hearing, Petitioner attempted to
13

Patent Owner also contends that Reed teaches away from its combination
with Nishida (PO Resp. 46–48; but see Reply 19–20); however, in view of
our determinations above, we need not reach this contention.
14

Nishida is summarized above. See supra Section II.C.3.
50

IPR2016-00922
Patent 8,266,749 B2
overcome this lack of particularity with Demonstrative Slide 3 (Ex. 1018, 3),
which presented a new mapping of the limitations of claim 1 onto the
applied references. Supp. Tr. 9:24–10:20, 23:15–21. This mapping,
however, is not consistent with the claim chart’s mapping of each of the
references onto the preamble and the first three limitations of claim 1.
Pet. 37–44. We have analyzed Petitioner’s arguments and evidence and
reached certain conclusions regarding a possible mapping of the limitations
of the claims onto particular references or combinations of references; by
statute and regulation, however, this was Petitioner’s task, not ours.15 35
U.S.C. § 312(a)(3); 37 C.F.R. § 42.104(b)(4); see Acceleration Bay, LLC v.
Activision Blizzard Inc., 908 F.3d 765, 775 (Fed. Cir. 2018).
Petitioner argues that the particularity requirement of 35 U.S.C.
§ 312(a)(3) and the finding of a lack of particularity has no impact on our
Final Written Decision. Pet. Supp. Br. 1. Instead, Petitioner argues that we
must determine whether Petitioner has satisfied its burden of showing

15

Unlike in Polygroup Limited MCO v. Willis Electric Company, Ltd., No.
2018-1745, 2019 WL 350753, at *7 (Fed. Cir. Jan. 28, 2019) (nonprecedential) or in Realtime Data, LLC v. Iancu, No. 2018-1154, 2019 WL
149835, at *4 (Fed. Cir. Jan. 10, 2019), Petitioner does not challenge claims
based on a single reference or on alternative combinations of references, but
only on the combined teachings of Castello, Fujiwara, and Nishida. Pet. 37
(“[A] person of ordinary skill in the relevant art would certainly have been
motivated to modify Castello’s method to include the additional features
described by Fujiwara and Nishida to produce a textile element for use in a
shoe upper, as well as to produce a shoe incorporating such a textile
element.”); Pet. Supp. Br. 4 (“The record shows Castello and Fujiwara
would be used by a POSITA to produce a footwear upper per Nishida.”
(emphases added)); see Supp. Tr. 13:11–16:22. Therefore, unlike Polygroup
or Realtime, there is no other challenge based on fewer than all of these three
references for us to consider.
51

IPR2016-00922
Patent 8,266,749 B2
unpatentability of the challenged claims by a preponderance of the evidence.
Id. at 2. Specifically, Petitioner asserts that “[n]othing in the statute
authorizes the Board to finally resolve merits questions on ‘particularity’
grounds.” Id. at 2. We disagree. “In an [inter partes review], the petitioner
has the burden from the onset to show with particularity why the patent it
challenges is unpatentable.” Harmonic Inc. v. Avid Tech., Inc., 815 F.3d
1356, 1363 (Fed. Cir. 2016) (emphasis added; citing 35 U.S.C. § 312(a)(3)
(requiring inter partes review petitions to identify “with particularity . . . the
evidence that supports the grounds for the challenge to each claim”)); see
U.S. v. Dunkel, 927 F.2d 955, 956 (7th Cir. 1991) (“Judges are not like pigs,
hunting for truffles buried in briefs.”).
Moreover, as Patent Owner points out, the Board has determined that
a petitioner may fail to satisfy its burden of persuasion due to its failure to
argue its challenge with the required particularity. PO Supp. Br. 5–6 (citing
HTC Corp. v. Koninklijke Philips N.V., Case IPR2017-00857, slip op. at 18
(PTAB Aug. 24, 2018) (Paper 33) and EMC Corp. v. Intellectual Ventures I
LLC, Case IPR2017-00439, slip op. at 16 (PTAB Jun. 20, 2018) (Paper 50)).
Perhaps most on point, Patent Owner notes that:
[the Board] denied institution on [a] ground because
the arguments and evidence in the Petition lack the
particularity and detail required by [35 U.S.C.
§ 322(a)(3)16 and 37 C.F.R. § 42.22(a)(2)], and fail to
demonstrate that it is more likely than not that [the
challenged claims] are unpatentable as indefinite under
35 U.S.C. § 112, second paragraph.

16

35 U.S.C. § 322(a)(3) applies to covered business method reviews and
corresponds to 35 U.S.C. § 312(a)(3).
52

IPR2016-00922
Patent 8,266,749 B2
In response to SAS Institute Inc. v. Iancu, 138 S. Ct. 1348
(2018), [the Board] issued an Order instituting trial on the
ground of [the challenged claims] being unpatentable under 35
U.S.C. § 112, 2nd paragraph. . . .
For the reasons stated [in the] Institution Decision,
which [the Board] adopt[ed], Petitioner fail[ed] to show by a
preponderance of the evidence that [the challenged claims] are
unpatentable under 35 U.S.C. § 112, 2nd paragraph.
PO Supp. Br. 6 (quoting Dish Network Corp. v. Customedia Techs., L.L.C.,
Case CBM2017-00032, slip op. at 34 (PTAB Jul. 25, 2018) (Paper 50)). In
our view, the determination by the Board that a Petitioner has failed to
explain or justify a ground of unpatentability “with particularity” is in accord
with a determination made by the Board, on the same or similar evidentiary
record, that a Petitioner has failed to make its case by a preponderance of the
evidence. Stated differently, a lack of clarity or adequate explanation that is
present when determining whether to institute trial does not somehow later
benefit a Petitioner when examining the merits of the case under the guise of
“preponderance of the evidence.” Here, Petitioner’s challenge remains
deficient, and Petitioner fails to show that the challenged claims are
unpatentable by a preponderance of the evidence, for the reasons set forth in
our Institution Decision (Inst. Dec. 21–23).17 Nevertheless, we address
additional deficiencies below.

17

The claim charts support numerous combinations of the identified
references, including some that do not rely on all three of Castello, Fujiwara,
and Nishida. Those combinations requiring fewer than all of the cited
references are not consistent with Petitioner’s challenge. See, e.g., Pet. 37;
Pet. Supp. Br. 4.
53

IPR2016-00922
Patent 8,266,749 B2
3. Castello (Ex. 1007)
Castello describes a method of manufacturing a textile element, which
includes mechanically-manipulating a yarn with a circular-knitting machine
to form a cylindrical textile structure. Ex. 1007, Abstract, 1:35–2:4, 3:34–
4:10, 4:22–5:44, 6:35–58, 7:1–5, Figs. 1, 2A, 2–5; see Ex. 1003 ¶¶ 145,
148–149. Castello’s Figure 1 is reproduced below.

Figure 1 is a perspective view of a tubular cloth, knit on a circular knitting
machine, to produce knitted collars. Ex. 1007, 3:5–7. In Figure 1, textile
elements, i.e., collar constructions 16, are located in different portions of the
textile structure, i.e., tubular knitted cloth 10. Id. at 3:39–45, Fig. 1; see
Ex. 1003 ¶¶ 154–155. The textile elements are removed from the textile
structure and incorporated into shirts worn by men, women, and children.
Ex. 1007, 3:67–4:4, 4:38–45, 4:67–5:17; see Ex. 1003 ¶¶ 145, 148. Castello
recognizes the benefits of using wide-tube circular knitting machines to
54

IPR2016-00922
Patent 8,266,749 B2
produce a web containing textile elements with complex stitch
configurations, which were removed from the web and incorporated into
finished garments. See Ex. 1007, 1:43–49; Ex. 1003 ¶ 148. Castello
explains that textile elements, such as collars, having a variety of features
like knitted folding creases, knitted sewing marks, mock fashion marks, and
Jacquard multi-color designs, were produced independently on one or more
slow producing flatbed machines. Ex. 1007, 1:12–32. With the advent of
single needle selection controlled by programmable patterns, those features
could be achieved on a single circular machine and knit simultaneously. Id.
at 1:39–53, 2:12–21, 3:35–44; see Ex.1003 ¶ 148.
4. Fujiwara (Ex. 1008)
Fujiwara describes a method of manufacturing a textile element,
which includes mechanically-manipulating a yarn with a circular knitting
machine to form a cylindrical textile structure. Ex. 1008, 2:31–37; see
Ex. 1003 ¶ 157. Fujiwara’s Figure 1 is reproduced below.

55

IPR2016-00922
Patent 8,266,749 B2

Figure 1 is a schematic perspective view illustrating a double tube fabric,
having inner and outer tubular fabrics. Ex. 1008, 3:23–25. In Figure 1, the
textile elements, identified by garment outlines M, are located in different
portions of the textile structure having layers 18 and 20. Id. at 4:66–5:4.
Along the outline M of a necessary width, the inner and outer
tubular layers 18 and 20 are connected or stitched with each
other, so that . . . both layers 18 and 20 are integrated. As a
result, when the fabric is cut outwardly along the outline while
stitched parts are at least partially left, a garment can be
obtained, which has a front and back bodies, which are
connected along the outline M. The stitching between the inner
and outer layers along the outline M is obtained by a knitting by
using both of the dial needles 10 and the cylindrical needles 12.
Id. at 5:4–13; see id. at Abstract.

56

IPR2016-00922
Patent 8,266,749 B2
Fujiwara’s Figure 4 is reproduced below.

Figure 4 illustrates, schematically, a length of the fabric after the cutting of
the tubular fabric along its longitudinal direction. Id. at 3:30–32. In
Figure 4, a continuous length of fabric including the closed stitched lines M
is obtained by cutting cylindrical textile structure of Figure 1 along line Q.
Id. at 6:12–16; see Ex. 1003 ¶ 158. The fabric then is cut along stitched
lines M to remove “a garment (sweater) having a front body and a back
bodies, which are stitched with each other.” Ex. 1008, 6:20–22 (emphasis
added); see id. at Abstract (“A cutting of the fabric along the closed outline
is done in such a manner that the stitched parts are, at least partially left.”);
Ex. 1003 ¶ 158. Subsequently,

57

IPR2016-00922
Patent 8,266,749 B2
the cutting at locations of the garments such as sleeves and a
hemline is such that cutting lines are located completely inward
of the stitched part as shown by dotted lines a and b. As a
result, at these portions at the sleeve and the hemline or base,
the upper and lower layers of the fabric are separated, thereby
providing openings at the sleeves and the hemline, which
allows portions of human body (arm and body) to be passed
through the openings.
Ex. 1008, 6:23–30; see id. at 6:30–42 (discussing garment finishing as
depicted in Figs. 5A and 5B). As Petitioner explains,
Fujiwara also identifies that “sewing is a bottleneck from the
view point of increase in an production efficiency as well as of
decrease in a production cost” such that “there has heretofore
been a strong requirement as to a development in a garment
making by which any sewing is not necessary.”
Pet. 36 (quoting Ex. 1003 ¶ 204).
5. Petitioner’s Arguments
Petitioner argues that the combination of Castello, Fujiwara, and
Nishida teaches or suggests all of the limitations of claims 1–9, 11–19, and
21 of the ’749 patent. Pet. 33–56. In particular, Petitioner argues that
Castello, Fujiwara, and Nishida teach or suggest all of the limitations of each
of independent claims 1 and 13. Id. at 37–44 (claim 1), 45–46 (claim 13).
Because each of the challenged dependent claims depends from claim 1 or
13, we focus our analysis of Petitioner’s challenge on those independent
claims.
Patent Owner opted to forego filing a Supplemental Patent Owner
Response addressing Petitioner’s challenges to claims 1–9, 11–19, and 21
based on the combined teachings of Castello, Fujiwara, and Nishida and to
forego deposing Petitioner’s declarant regarding this challenge. Paper 23,
58

IPR2016-00922
Patent 8,266,749 B2
10. Consequently, other than those contentions presented in the Patent
Owner’s supplemental briefing (Paper 25), Patent Owner is deemed to have
waived any arguments for the patentability of claims 1–9, 11–19, and 21
over the combined teachings of Castello, Fujiwara, and Nishida. See
Paper 7, 6. Nevertheless, Petitioner bears the ultimate burden of persuasion
of obviousness on this ground, and we consider all record evidence of
obviousness and non-obviousness in determining whether Petitioner has met
that burden. In re Magnum Oil Tools Int’l, Ltd., 829 F.3d 1364, 1376 (Fed.
Cir. 2016); see Pet. Supp. Br. 2–3.
a. Mapping Independent Claims 1 and 13 on Castello,
Fujiwara, and Nishida
Independent claim 1 recites “[a] method of manufacturing an article of
footwear.” Ex. 1001, 11:43; see also id. at 12:27 (claim 13). Castello
teaches “a novel method of fabricating knitted collars on circular knitting
machines.” Ex. 1007, 1:39–40 (emphasis added). Similarly, Fujiwara
teaches “a circular knitted fabric as a first embodiment of the present
invention, from which fabric a garment such as a sweater is obtained
without necessitating any subsequent sewing process.” Ex. 1008, 3:45–48
(emphasis added). Although neither Castello nor Fujiwara expressly teaches
use of circular knitting machines to manufacture an article of footwear, both
references generally describe use of circular knitting machines to
manufacture “garments.” See Pet. Supp. Br. 5. As noted above, although
Reed specifically identifies stockings and hosiery, e.g., footwear, as
garments manufactured by circular knitting (Ex. 1006, 1:33–35, 5:57–58),
Reed does not describe shoes expressly as “garments.” See supra
Section II.C.4.a. Despite Castello’s and Fujiwara’s lack of express teachings
59

IPR2016-00922
Patent 8,266,749 B2
regarding the manufacture of footwear, Petitioner asserts that each of the
three cited references teaches the preamble of claims 1 and 13. Pet. 37–38
(claim 1), 45 (claim 13). Nishida teaches processes for manufacturing
footwear and that the webs of material depicted in its Figures 1 and 2 are
“produced by a conventional textile process, [for] example, by weaving
and/or knitting and/or embroidering.” Ex. 1009, 3:6–9 (emphases added);
see Ex. 1003 ¶ 151. Thus, we are persuaded that Petitioner has shown that
Castello, Fujiwara, or Nishida teaches or suggests “[a] method of
manufacturing an article of footwear.”
The method of claim 1 further comprises the step of “simultaneously
knitting a textile element with a surrounding textile structure.” Ex. 1001,
11:45–46 (emphasis added); see also id. at 12:29–34 (claim 13 reciting
“knitting a first textile element and a second textile element simultaneously
with knitting a surrounding textile structure, the first knitted textile element
located within a first portion of the knitted textile structure, the second
knitted textile element located within a second portion of the knitted textile
structure” (emphasis added)). As noted above, each of Castello and
Fujiwara teaches the use of circular knitting machines to produce a
cylindrical textile structure, from which textile elements may be produced.
Ex. 1007, Fig. 1; Ex. 1008, Fig. 1. Petitioner relies on any or all of Castello,
Fujiwara, and Nishida to teach or suggest this limitation. Pet. 39–41; see id.
at 15–16 (citing to Nishida for this limitation), 45 (citing the claim chart for
claim 1 with respect to claim 13); but see id. at 34–35 (discussing Castello’s
teaching of this limitation); Pet. Supp. Br. 5–6 (discussing Castello’s and
Nishida’s teaching of the corresponding limitations of claims 1 and 13). We
are persuaded that each of Castello, Fujiwara, and Nishida teaches this
60

IPR2016-00922
Patent 8,266,749 B2
limitation.18 See Ex. 1003 ¶¶ 133, 154–157. During the supplemental
hearing, however, Petitioner mapped this limitation onto Castello only. See
Supp. Tr. 14:16–16:22 (discussing Ex. 1018, 3 (color coded mapping of
limitations and applied art)).
The method of claim 1 further comprises the limitation “the knitted
textile element having at least one knitted texture that differs from a knitted
texture in the surrounding knitted textile structure.” Ex. 1001, 11:46–48
(emphasis added); see also id. at 12:35–39 (claim 13 recites “varying at least
one of the types of stitches or the types of yarns in the knitted textile
structure to impart a texture to the first and second knitted textile elements
different from a texture of the knitted textile structure extending between the
first and second portions” (emphasis added)). Petitioner argues that:
Castello describes using two different stitch
configurations, which would give a different texture. [Ex.
1007], 7:5-9. Fujiwara builds on this disclosure, by describing
multiple different types of interknitted stitches (e.g., jacquard,
birds eye, eyelet, circular rib, or interlock stitch) to provide a
different texture. [Ex. 1008], 5:57-6:7. Yet again, the Board
has already found that Nishida discloses this claim element.
See [1st FWD] 26.
Pet. Supp. Br. 6; see Pet. 42–44 (claim 1), 46 (claim 13). During the
supplemental hearing, however, Petitioner mapped this limitation onto
Fujiwara only. See Supp. Tr. 14:16–16:22 (discussing Ex. 1018, 3 (color
coded mapping of limitations and applied art)).
The method of claim 1 further comprises the step of “removing the
knitted textile element from the surrounding knitted textile structure.”
18

In our analysis of the challenge based on the combined teachings of Reed
and Nishida, we were persuaded that Nishida teaches or suggests this
limitation. See supra Section II.C.4.a.
61

IPR2016-00922
Patent 8,266,749 B2
Ex. 1001, 11:49–50; see also id. at 12:40–41 (claim 13 recites “removing the
first and second knitted textile elements from the knitted textile structure”).
Because the recited “textile structure” may be manufactured on a circular
knitting machine (id. at 12:7–9 (claim 9), 64–67 (claim 19)), we are
persuaded based on the evidence cited in the Petition that Petitioner has
shown that the teachings of Castello or Fujiwara, alone, or the teachings of
Castello and/or Fujiwara combined with those of Nishida, teach or suggest
this limitation of the independent claims. Pet. 39 (citing Ex. 1003 ¶¶ 155,
157); see id. at 44 (claim 1; citing, e.g., Ex. 1007, 3:67–4:4; Ex. 1008, 5:7–
11; Ex. 1009, 1:10–18 (see claim chart at Pet. 18–19)), 46 (claim 13).
Finally, the method of claim 1 comprises the step of “incorporating
the knitted textile element into [an upper of] the article of footwear.”
Ex. 1001, 11:51–52 (emphases added); see id. at 12:42–43 (claim 13:
“incorporating at least one of the first and second knitted textile elements
into the article of footwear”). Petitioner relies solely on Nishida to supply
this limitation, and argues that Nishida teaches this limitation of the
independent claims. Pet. 44, 46 (citing to id. at 19 (claim 1), 21 (claim 13),
respectively); Pet. Supp. Br. 6; see Ex. 1003 ¶¶ 96, 161; see also Ex. 1018, 3
(color coded mapping of this final limitation on Nishida). We agree. See
supra Section II.C.4.a.
b. Dependent Claims 2–9, 11, 12, 14–19, and 21
With respect to the challenged dependent claims, we understand that
Petitioner argues that Castello, Fujiwara, and Nishida teach or suggest the
additional limitations recited in claim 2 (Pet. 45); in claims 3, 4, and 14 (id.
at 46–47); in claim 8 (Pet. 51–52 (“The chart below shows how Castello,
Fujiwara, and Nishida collectively disclose the features of claim 8, and thus
62

IPR2016-00922
Patent 8,266,749 B2
renders claim 8 obvious.” (emphasis added)); and in claims 11 and 12 (id. at
56; see Ex. 1003 ¶¶ 177–186). We understand Petitioner further argues that
Castello, Fujiwara, or Nishida teaches or suggests the additional limitations
recited in in claims 5 and 15. Pet. 47–48 (discussing the teachings of each
reference separately); see id. at 48–49 (claim chart listing all references);
Ex. 1003 ¶¶ 165–167 (separately discussing each reference’s teaching of the
recited limitations). Similarly, we understand Petitioner argues that
Castello, Fujiwara, or Nishida teaches or suggests the additional limitations
recited in in claims 6 and 16. Pet. 49–50 (discussing the teachings of each
reference separately); see id. at 50 (claim chart listing all references);
Ex. 1003 ¶¶ 188–190 (separately discussing each reference’s teaching of the
recited limitations). We further understand that Petitioner argues that
Nishida teaches or suggests the additional limitations recited in claims 7, 12,
17, and 18 (Pet. 50–51, 56; see Ex. 1003 ¶¶ 190–191, 193), and that Castello
teaches or suggests the additional limitations recited in claims 9 and 19
(Pet. 55–56; see Ex. 1003 ¶¶ 152–153). Petitioner’s declarant provides a
detailed mapping of the limitations of each of these dependent claims onto
the teachings of Castello, Fujiwara, and/or Nishida. See Ex. 1003, App’x A.
c. Reason to Combine
Petitioner argues that a person of ordinary skill in the art would have
had reason to combine the identified teachings of Castello, Fujiwara, and
Nishida to achieve the methods recited in independent claims 1 and 13.
Pet. 35–37. Initially, Petitioner argues that
the skilled person would have been motivated to modify
Castello’s process to incorporate additional computerized
advances in independent needle selection with a double layer
circular knitting machine, such as the type described in
63

IPR2016-00922
Patent 8,266,749 B2
Fujiwara, for independent needle selection at both the dial and
cylinder needles as a way to increase the options for combining
even more features simultaneously in a knitted textile element.
(Ex. 1003, ¶201.) Furthermore, the skilled person would have
been motivated to use Castello’s process to produce textile
elements for all types of clothing, including forming textile
elements to be incorporated into footwear as described in
Nishida. (Ex. 1003, ¶201.)
Pet. 35. In particular, Petitioner argues that, “as all three processes are
directed to methods of simultaneously forming textile elements within a
surrounding textile structure using programmable and/or computerized
single needle selection technology, removing the textile elements, and
incorporating the textile elements into a wearable item,” a person of ordinary
skill in the art would have found these references analogous. Id. at 36; see
Ex. 1003 ¶ 202. Further, Petitioner argues that, because each of Castello,
Fujiwara, and Nishida teaches the advantages of reducing cost through the
use of computer-controlled knitting machines, a person of ordinary skill in
the art would have had reason to combine their teachings. Pet. 36–37; see
Ex. 1003 ¶¶ 203–205. Finally, Petitioner argues that
a person of ordinary skill in the relevant art would certainly
have been motivated to modify Castello’s method to include the
additional features described by Fujiwara and Nishida to
produce a textile element for use in a shoe upper, as well as to
produce a shoe incorporating such a textile element, as this is
nothing more than combining “prior art elements according to
known methods to yield predictable results” and/or the “[u]se of
known technique[s] to improve similar devices (methods, or
products) in the same way.”
Pet. 37 (emphasis added) (citing KSR, 550 U.S. at 417–22); see Ex. 1003
¶¶ 206–207.

64

IPR2016-00922
Patent 8,266,749 B2
Moreover, Petitioner argues that a person of ordinary skill in the
relevant art would have had at least the same reasons to combine the
teachings of Castello, Fujiwara, and Nishida to achieve the methods recited
in these dependent claims, as those given for combining the teachings of
Castello, Fujiwara, and Nishida to achieve the recited methods of the
independent claims. See Pet. Supp. Br. 7–10.
We have reviewed the entirety of Petitioner’s arguments and evidence
for independent claims 1 and 13, as well for dependent claims 2–9, 11, 12,
14–19, and 21, and the cited supporting testimony of Mr. Holden. As noted
above, Petitioner relies on the same reasons to combine the teachings of
Castello, Fujiwara, and Nishida for its challenges to each of claims 1–9, 11–
19, and 21 of the ’749 patent. See Pet. 33–56.
Assuming that Petitioner intended to argue that a combination of the
teachings of Castello, Fujiwara, and Nishida, as described in Petitioner’s
Supplemental Brief, renders independent claims 1 and 13 unpatentable, we
are not persuaded that Petitioner has shown an adequate reason to combine
the teachings of these three references by a preponderance of the evidence.
Pet. Supp. Br. 5–6; see WhatsApp, Inc. v. TriPlay, Inc., Appeal Nos. 20172549, 2017-2551, 2018 WL 5962733, at *4 (Fed. Cir. Nov. 14, 2018) (nonprecedential); Supp. Tr. 16:23–17:15. As noted above, Petitioner argues that
a person of ordinary skill in the relevant art would certainly
have been motivated to modify Castello’s method to include the
additional features described by Fujiwara and Nishida to
produce a textile element for use in a shoe upper, as well as to
produce a shoe incorporating such a textile element.
Pet. 37.

65

IPR2016-00922
Patent 8,266,749 B2
Fujiwara explains that “[a]ccording to the present invention, said
article is a garment, and said one side is a front body of the garment while
said other is a back body of the garment.” Ex. 1008, 2:7–9, 23–25, 63–65;
see Ex. 1008, Abstract, 3:14–18, 6:20–22; Ex. 1003 ¶ 158. In particular,
Fujiwara discloses that:
In [Fujiwara’s] FIG. 1, a closed phantom line M
indicates, in a very schematic manner, an outline of a sweater as
a garment wherein one of the inner and outer layers 18 and 20
becomes one side (front body) of the sweater while the other of
the inner and outer layers 18 and 20 becomes the other side
(back body) of the sweater. Along the outline M of a necessary
width, the inner and outer tubular layers 18 and 20 are
connected or stitched with each other, so that the both of the
layers 18 and 20 are integrated.
Ex. 1008, 4:66–5:7 (emphasis added); see Pet. 40–41 (citing Ex. 1008, 4:66–
5:7, Figs. 1, 4 with respect to claim 1); see also Pet Supp. Br. 7 (citing
Ex. 1008, 4:66–5:7 with respect to claims 3, 4, and 14). Thus, Petitioner
relies on Fujiwara’s teachings of a pre-seamed garment produced on a
circular knitting machine. Pet. 40–41 (citing Ex. 1008, 2:31–37, 4:66–5:7,
Figs. 1, 4).
Nishida and Castello, however, teach unseamed garments or portions
of garments. As discussed above with respect to the combination of Reed
and Nishida, Patent Owner contends that Nishida’s web of material has two
primary components: a backing and one or more layouts printed on or
produced in the backing. PO Resp. 29 (citing Ex. 1009, 1:40–2:53, 3:6–26).
The backing may be formed prior to the production of the layouts. Id. After
the backing is formed, Nishida teaches printing on or producing layouts in
the backing. Ex. 1009, 3:13–15. The layouts are printed by a fabric printing
process onto the backing or produced by a textile production process inside
66

IPR2016-00922
Patent 8,266,749 B2
the backing. PO Resp. 29 (citing Ex. 1009, 1:50–56, 2:20–26, 3:13–15,
5:45–52); see Reply 9. “[T]he material can be woven or knitted in two or
more layers or can be especially thick or additionally embroidered.”
Ex. 1009, 3:67–4:1. Referring to Nishida’s Figure 3, “[a]fter cutting out
layout 2 from the web of material 1, the edges 7 and 8 are stitched together
and a heel seam thus is formed.” Id. at 3:31–33.
As noted above, Castello teaches using wide-tube circular knitting
machines to produce a web containing textile elements with complex stitch
configurations, which were removed from the web and incorporated into
finished garments. See Ex. 1007, 1:43–49; Ex. 1003 ¶ 148. In particular,
Castello teaches:
knitting a tubular fabric including a plurality of circular layers
in vertical juxtaposition wherein each layer contains a plurality
of individual collars, separating the layers and cutting the knit
fabric to sever the collars and then sewing the sides of the
collars to produce a plurality of collars suitable for attaching
to a shirt or sweater garment.
Ex. 1007, Abstract (emphasis added).
As noted above, Fujiwara’s teachings, relied upon by Petitioner,
describe the pre-seaming of garments or sections of garments before their
removal from the cylindrical textile structure. As Petitioner’s declarant
testifies,
Fujiwara also identifies that “sewing[, i.e., seaming,] is a
bottleneck from the view point of increase in an production
efficiency as well as of decrease in a production cost” such that
“there has heretofore been a strong requirement as to a
development in a garment making by which any sewing is not
necessary.”
Pet. 36 (quoting Ex. 1003 ¶ 204). The teachings of Nishida, relied upon by
Petitioner, do not teach pre-seaming but, instead, teach the seaming of the
67

IPR2016-00922
Patent 8,266,749 B2
upper layout after its removal from the web of material. Ex. 1009, 4:19–30
(Figs. 2 and 3), 5:3–26 (Figs. 4 and 5); see Pet. 32 (“Nishida describes
‘stitching parts of the layout of the cut-out unit on provided seams to form
an upper of the shoe shaped part . . . .’ Nishida, 6:36–38 (emphasis
added).”); see also Pet. at 19 (referring to Ground 1). Similarly, the
teachings of Castello, relied upon by Petitioner, do not teach pre-seaming
but, instead, teach the seaming of the collars to another suitable garment.
Petitioner fails to explain why and how a person of ordinary skill in the art
would have combined the teachings of Nishida and Castello regarding
unseamed garment portions with the teachings of Fujiwara regarding preseamed garments. See supra Section II.C.5.c.ii. (discussing combination of
the teachings of Reed’s pre-seamed garments and Nishida’s unseamed
garments).
Further, as noted above, “combinations that change the ‘basic
principles under which the [prior art] as designed to operate,’ or that render
the prior art ‘inoperable for its intended purpose,’ may fail to support a
conclusion of obviousness.” Plas-Pak, 600 F. App’x at 758. We find that
the intended purpose of Fujiwara’s methods is to produce pre-seamed,
substantially finished garments. Ex. 1008, 1:53–55 (“The present invention
aims, thus, to eliminate substantially sewing, also, in a garment making from
a circular knitted fabric.” (emphasis added)), 3:14–18 (“[A]ccording to the
method invention, an article or garment can be obtained from a fabric
without or substantially without necessitating any sewing process, which
otherwise is essential, thereby reducing a production cost of an article or
garment from a fabric.” (emphasis added)). Castello, however, teaches that
“[t]he collars are cut along the designed cut marks, the sides are sewn to
68

IPR2016-00922
Patent 8,266,749 B2
create finished side edges by using a conventional overedging machine, such
as a Merrow sewing machine or other similar, well known, sewing machine”
and then are attached to other garments. Ex. 1007, 1:68–2:4 (emphasis
added); see id. at Abstract. Similarly to Castello, Nishida teaches, “[a]fter
cutting out layout 2 from the web of material 1, the edges 7 and 8 are
stitched together and a heel seam thus is formed.” Ex. 1009, 3:31–33. We
determine that the record before us conveys that there is a fundamental
difference in the manufacturing techniques for producing preseamed
garment portions as compared with techniques producing unseamed garment
portions. In that respect, it is difficult to reconcile, on this record, combining
practices in which sewing is eliminated with teachings in which sewing is
required. Petitioner proposes to modify Castello in view of Fujiwara, and
further in view of Nishida, but such a modification would change the
principles under which Castello operates. See PO Resp. 41–46 (discussing
change in intended purpose of due to combination of the teachings of Reed’s
pre-seamed garments and Nishida’s unseamed garments).
d. Summary
Based on our review of the arguments and evidence presented by
Petitioner regarding this ground, we conclude that Petitioner fails to
demonstrate by a preponderance of the evidence that either of independent
claims 1 and 13 is unpatentable as rendered obvious by the combined
teachings of Castello, Fujiwara, and Nishida. Moreover, at least because
Petitioner’s arguments for the obviousness of dependent claims 2–9, 11, 12,
14–19, and 21 over Castello, Fujiwara, and Nishida rely on the arguments
and evidence presented with respect to independent claims 1 and 13, we also
conclude that Petitioner fails to demonstrate by a preponderance of the
69

IPR2016-00922
Patent 8,266,749 B2
evidence that any of the dependent claims is unpatentable as rendered
obvious by the combined teachings of Castello, Fujiwara, and Nishida.
III. SUMMARY
We are not persuaded that Petitioner demonstrates by a preponderance
of the evidence that any of claims 1–9, 11–19, and 21 of the ’749 patent is
rendered obvious over the combined teachings of Reed and Nishida19 or
those of Castello, Fujiwara, and Nishida.
IV. ORDER
It is, therefore,
ORDERED that, pursuant to 35 U.S.C. § 318(a), Petitioner fails to
demonstrate by a preponderance of the evidence that any of claims 1–9, 11–
19, and 21 is unpatentable as rendered obvious over the combined teachings
of Reed and Nishida or those of Castello, Fujiwara, and Nishida; and
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.

19

Since the issuance of the initial Final Written Decision on October 19,
2017, Administrative Patent Judge Daniels has replaced Administrative
Patent Judge Fitzpatrick on this panel. Administrative Patent Judge
Fitzpatrick authored a concurring opinion offering an alternative reasoning
for rejecting Petitioner’s ground one challenge to claims 1–9, 11–19, and 21.
1st FWD 1–5 (concurring opinion). Because Administrative Patent Judge
Fitzpatrick is no longer a member of the panel, we do not reproduce his
concurring opinion here, but, to the extent required by the Federal Circuit’s
mandate, the concurring opinion is incorporated herein by reference.
70

IPR2016-00922
Patent 8,266,749 B2
PETITIONER:
Mitchell G. Stockwell
Vaibhav P. Kadaba
Tiffany L. Williams
KILPATRICK TOWNSEND & STOCKTON LLP
mstockwell@kilpatricktownsend.com
wkadaba@kilpatricktownsend.com
tiwilliams@kilpatricktownsend.com
PATENT OWNER:
Christopher J. Renk
Michael J. Harris
BANNER & WITCOFF, LTD
crenk@bannerwitcoff.com
mharris@bannerwitcoff.com

71

APPENDIX D

United States Court of Appeals
for the Federal Circuit
______________________
ADIDAS AG,
Appellant
v.
NIKE, INC.,
Appellee
______________________
2018-1180, 2018-1181
______________________
Appeals from the United States Patent and Trademark Office, Patent Trial and Appeal Board in Nos.
IPR2016-00921, IPR2016-00922.
______________________
MITCHELL G. STOCKWELL, Kilpatrick Townsend &
Stockton LLP, Atlanta, GA, for appellant. Also represented by VAIBHAV P. KADABA, MICHAEL T. MORLOCK,
TIFFANY L. WILLIAMS.
CHRISTOPHER J. RENK, Banner & Witcoff, Ltd., Chicago, IL, for appellee. Also represented by AARON PATRICK
BOWLING, MICHAEL JOSEPH HARRIS.
______________________
ON MOTION
______________________
Before MOORE, WALLACH, and TARANTO, Circuit Judges.

2

ADIDAS AG

v. NIKE, INC.

MOORE, Circuit Judge.
ORDER
In light of the Supreme Court’s recent decision in SAS
Institute Inc. v. Iancu, 138 S. Ct. 1348 (2018), Adidas AG
(“Adidas”) moves to remand this appeal to the Patent
Trial and Appeal Board for additional proceedings. Nike,
Inc. opposes. We grant the motion and remand.
Nike owns U.S. Patent Nos. 7,814,598 (“the ’598
patent”) and 8,266,749 (“the ’749 patent”). Adidas petitioned the Director of the United States Patent and
Trademark Office to institute inter partes review of
claims 1–13 of the ’598 patent and claims 1–9, 11–19, and
21 of the ’749 patent. Adidas’s petitions raised two
grounds in challenging each of those claims: ground 1
argued that each claim would have been obvious based on
the Reed and Nishida references and ground 2 argued
that each claim would have been obvious based on the
Castello, Fujiwara, and Nishida references.
The Board, acting on behalf of the Director, granted
Adidas’s petitions and instituted inter partes review of all
of the challenged claims. However, the Board limited its
review proceedings to ground 1. On October 19, 2017, the
Board issued its final written decisions, holding that
Adidas had not met its burden of demonstrating any of
the claims would have been obvious based on ground 1.
The Board never addressed the merits of the combination
of references argued in ground 2 or suggested that its
conclusions as to ground 1 would be dispositive as to
ground 2 which was based on a different combination of
references. Adidas timely appealed. After the Supreme
Court issued its decision in SAS, Adidas promptly moved
to remand for the Board to consider ground 2.
Adidas argues that remand is appropriate under SAS
for the Board to issue final written decisions addressing

ADIDAS AG

v. NIKE, INC.

3

ground 2. Adidas contends that “[t]he Supreme Court’s
reasoning in SAS—that the Petition controls the scope of
the proceeding—likewise requires that the Board institute on all grounds raised in the Petition.” Adidas argues
that the Patent Office recently issued public guidance
indicating that, in light of SAS, if a trial is instituted, the
Board will institute review on all challenges raised in the
petitions. See Guidance on the Impact of SAS on AIA
Trial Proceedings (Apr. 26, 2018). Nike responds that
SAS is “irrelevant to the present appeal” because SAS
requires only institution as to all claims, as was done
here, and that Adidas has waived any “all grounds”
argument by failing to present it to the Board.
We hold that remand is appropriate here. The Court
explained in SAS that in establishing inter partes review,
Congress set forth “a process in which it’s the petitioner,
not the Director, who gets to define the contours of the
proceeding.” 138 S. Ct. at 1355. The Court held that if
the Director institutes review proceedings, the review
must proceed “in accordance with or in conformance to the
petition,” id. at 1356 (internal quotations omitted), a
“petition describing ‘each claim challenged’ and ‘the
grounds on which the challenge to each claim is based,’”
id. at 1355 (quoting 35 U.S.C. § 312(a)(3)). “Nothing
suggests the Director enjoys a license to depart from the
petition and institute a different inter partes review of his
own design.” Id. at 1356 (emphasis in original). The
Court found that “the petitioner’s petition, not the Director’s discretion, is supposed to guide the life of the litigation,” id., and “that the petitioner’s contentions, not the
Director’s discretion, define the scope of the litigation all
the way from institution through to conclusion,” id. at
1357.
In several cases since SAS, we have found it appropriate to remand to the Board to consider arguments
addressed to non-instituted claims and found waiver
inapplicable to a prompt remand request due to the

4

ADIDAS AG

v. NIKE, INC.

significant change in the law. See, e.g., Baker Hughes
Oilfield v. Smith Int’l, Inc., Nos. 2018-1754, -1755, slip op.
at 4–5 (Fed. Cir. May 30, 2018); Polaris Indus. Inc. v.
Arctic Cat, Inc., Nos. 2017-1870, 2017-1871, slip op. at 3–4
(Fed. Cir. May 30, 2018); Ulthera, Inc. v. DermaFocus
LLC, No. 2018-1542, slip op. at 3 (Fed. Cir. May 25, 2018).
We see no reason to treat this case differently. As we
recently explained in PGS Geophysical AS v. Iancu, __
F.3d __, slip op. at 7 (Fed. Cir. June 7, 2018), “[e]qual
treatment of claims and grounds for institution purposes
has pervasive support in SAS.” Adidas promptly requested a remand for consideration of the non-instituted
grounds. In this case, we think it appropriate to grant
that request, as in the above-cited cases, without first
deciding the appeal of the claims and grounds already
before us.
Accordingly,
IT IS ORDERED THAT:
(1) The motion to remand is granted. The Board is
directed to promptly issue a final written decision as to all
grounds raised in Adidas’s petitions.
(2) Each side shall bear its own costs.
FOR THE COURT
July 2, 2018
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

ISSUED AS MANDATE: July 2, 2018

APPENDIX E

Trials@uspto.gov
571-272-7822

Paper 21
Entered: October 19, 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
_____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
adidas AG,
Petitioner,
v.
NIKE, Inc.,
Patent Owner.
____________
Case IPR2016-00921
Patent 7,814,598 B2
____________

Before JOSIAH C. COCKS, MICHAEL J. FITZPATRICK, and
JAMES B. ARPIN, Administrative Patent Judges.
Opinion for the Board filed by Administrative Patent Judge ARPIN.
Opinion Concurring by Administrative Patent Judge FITZPATRICK.
ARPIN, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73

IPR2016-00921
Patent 7,814,598 B2
I.

BACKGROUND

adidas AG (“Petitioner”) filed a Petition pursuant to 35 U.S.C.
§§ 311–19 to institute an inter partes review of claims 1–13 of U.S. Patent
No. 7,814,598 B2 (Ex. 1001, “the ’598 patent”). 1 Paper 1 (“Pet.”). Nike,
Inc. (“Patent Owner”) did not file a Preliminary Response. 2 Applying the
standard set forth in 35 U.S.C. § 314(a), which requires demonstration of a
reasonable likelihood that Petitioner would prevail with respect to at least
one challenged claim, we instituted an inter partes review of claims 1–13 of
the ’598 patent. Paper 6 (“Inst. Dec.”), 22–23.
After institution, Patent Owner filed a Patent Owner Response to the
Petition (Paper 9 (“PO Resp.”)), and Petitioner replied (Paper 10
(“Reply”)). 3 Each party requested an oral hearing (Papers 15 and 16); and

1

Petitioner identifies adidas International B.V.; adidas North America, Inc.;
adidas America, Inc.; and adidas International, Inc., as real parties-ininterest. Pet. 1.
2
3

Patent Owner identifies only itself, as a real party-in-interest. Paper 5, 2.

Patent Owner filed objections to the admissibility of some of Petitioner’s
evidence. Paper 12. Petitioner served – and improperly filed –
supplemental evidence in response to Patent Owner’s objections. Paper 13;
Ex. 1015; 37 C.F.R. § 42.64(c); see 37 C.F.R. § 42.64(b)(2) (“The party
relying on evidence to which an objection is timely served may respond to
the objection by serving supplemental evidence within ten business days of
service of the objection.” (emphasis added)); GoPro, Inc. v. Contour IP
Holding LLC, Case IPR2015-01078, slip op. at 2–3 (PTAB Apr. 7, 2016)
(Paper 40) (“If the supplemental evidence does not cure the objection and
the opposing party files a motion to exclude, the submitting party may file
the supplemental evidence with its opposition to the motion to exclude.”).
Ultimately, Patent Owner did not file a motion to exclude, and, therefore,
Patent Owner did not preserve its objections. 37 C.F.R. § 42.64(c).
Regardless, Exhibit 1015 is expunged because we did not authorize its filing.
2

IPR2016-00921
Patent 7,814,598 B2
we held a consolidated oral hearing with Case IPR2016-00922 on July 12,
2017. A transcript of that hearing is of record in this case. Paper 20 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6, and this Final Written
Decision, issued pursuant to 35 U.S.C. § 318(a) and 37 C.F.R. § 42.73,
addresses issues and arguments raised during the review. For the reasons
discussed below, we determine that Petitioner has not met its burden to
prove, by a preponderance of the evidence, that claims 1–13 of the ’598
patent are unpatentable on the ground upon which we instituted inter partes
review.
A. The ’598 Patent
The ’598 patent is a divisional of U.S. Patent Application No.
10/791,289, filed on March 3, 2004, now issued as U.S. Patent No.
7,347,011 B2 (“the ’011 patent”) (Ex. 1001 at (62)) and relates to articles of
footwear incorporating an upper that is at least partially formed from a
textile material (id. at 1:18–21). Conventional articles of athletic footwear
may include two primary elements: an upper and a sole structure. Id. at
1:23–26. The upper may form a void in the interior of the footwear for
receiving a wearer’s foot, and the upper may extend over the instep and toe
areas, along the medial and lateral sides, and around the heel area of the
wearer’s foot. Id. at 1:41–46.
In particular, the Specification describes articles of footwear having
an upper incorporating a knitted textile element and having a sole structure
secured to the upper. Id. at 3:27–33. Methods for manufacturing an article
of footwear include “mechanically-manipulating a yarn with a circular
knitting machine, for example, to form a cylindrical textile structure. In
addition, the method involves removing at least one textile element from the
3

IPR2016-00921
Patent 7,814,598 B2
textile structure, and incorporating the textile element into an upper of the
article of footwear.” Id. at 3:41–46.
Figure 9 of the ’598 patent is reproduced below.

Figure 9 depicts textile structure 60 formed on a circular knitting
machine. Id. at 7:48–51. For example,
[a] suitable knitting machine for forming textile element 40 is a
wide-tube circular knitting machine that is produced in the
Lonati Group by Santoni S.p.A. of Italy under the SM8 TOP1
model number. This Santoni S.p.A. wide-tube circular knitting
machine may form a textile structure having a diameter that
ranges from 10 inches to 20 inches, with 8 feeds for each
diameter.
Id. at 7:14–20. As discussed below, the types of stitches that form textile
structure 60 may be varied to form an outline of one or more textile
elements 40 on textile structure 60. Id. at 7:65–8:3. In particular, as
depicted in Figure 9, the outlines for at least two textile elements 40 may be
formed on textile structure 60. Id. at 7:53–54.
4

IPR2016-00921
Patent 7,814,598 B2
Figure 8 of the ’598 patent is reproduced below.

Figure 8 depicts an embodiment of an upper according to the ’598
patent. Id. at 5:59–6:64. “Textile element 40 is a single material element
that is formed to exhibit a unitary (i.e., one-piece) construction, and textile
element 40 is formed or otherwise shaped to extend around the foot.” Id. at
5:40–43; see also id. at Figs. 10 (depicting textile element 40ʹ), 11 (depicting
textile element 40ʺ). In particular,
Textile element 40 is a single material element with a
unitary construction, as discussed above. As defined for
purposes of the present invention, unitary construction is
intended to express a configuration wherein portions of a textile
element are not joined together by seams or other connections,
as depicted with textile element 40 in FIG. 8. Although the
various edges 41a-44d are joined together to form seams 51-54,
5

IPR2016-00921
Patent 7,814,598 B2
the various portions of textile element 40 are formed as [a]
unitary element without seams . . . .
Id. at 6:41–50 (emphases added). Consequently, textile element 40 is
formed, such that portions of the textile element are not joined together with
seams or other connections. Id. at 5:40–43. Edges 41a–44d are joined
together as shown in Figures 3–5 to form seams 51–54, thereby forming at
least a portion of a void for receiving the foot. Id. at 6:41–50. In contrast,
lateral region 31, medial region 32, instep region 33, lower regions 34, and
heel regions 35 together have a unitary construction without seams (id. at
5:46–58, 6:47–50).
Figure 11 of the ’598 patent is reproduced below.

Figure 11 depicts another embodiment of an upper according to the
’598 patent. Id. at 9:29–10:7. Textile element 40ʺ includes three different
6

IPR2016-00921
Patent 7,814,598 B2
areas with three different textures. Id. at 9:31–32. First texture 46ʺ is
generally smooth and extends in strips across lateral region 31, medial
region 32, and instep region 33 of the upper. Id. at 9:32–35. In addition,
textile element 40ʺ includes second texture 47ʺ and third texture 48ʺ. Id. at
9:35–39. Moreover, the Specification of the ’598 patent describes that:
The different textures 46ʺ-48ʺ are formed by merely varying the
type of stitch formed by the wide-tube circular knitting machine
at each location of textile element 40ʺ. Textures 46ʺ-48ʺ may
exhibit aesthetic differences, or the differences may be
structural. . . . The air-permeability of textile element 40ʺ may
also vary in the different areas.
Id. at 9:39–47 (emphasis added).
B. Illustrative Claim
Claims 1 and 9 are independent, method claims. Claims 2–8 depend
directly or indirectly from claim 1, and claims 10–13 depend directly or
indirectly from claim 9. Claims 1 and 4 are illustrative of the claims at issue
and are reproduced below:
1.
A method of manufacturing an article of footwear,
the method comprising steps of:
mechanically-manipulating a yarn with a circular knitting
machine to form a cylindrical textile structure;
removing at least one textile element from the textile
structure;
incorporating the textile element into an upper of the
article of footwear.
4.
The method recited in claim 1, wherein the step of
mechanically manipulating includes forming the textile
element to include a first area and a second area with a
unitary construction, the first area being formed of a first
stitch configuration, and the second area being formed of
a second stitch configuration that is different from the
7

IPR2016-00921
Patent 7,814,598 B2
first stitch configuration to impart varying textures to a
surface of the textile element.
Id. at 11:43–50 (claim 1), 11:58–12:6 (claim 4).
C. Related Proceedings
Neither party identifies any related litigation. Pet. 1; Paper 5, 2. As
discussed above, the ’598 patent is a divisional of the application that issued
as the ’011 patent, which is the subject of IPR2013-00067. Pet. 1. In that
case, the panel instituted inter partes review of claims 1–46 of the ’011
patent, and Patent Owner requested cancellation of claims 1–46 and
proposed substitute claims 47–50 in a Motion to Amend. The panel granted
Patent Owner’s request to cancel claims 1–46, but denied Patent Owner’s
request as to the substitute claims. Patent Owner appealed the Board’s
decision to the U.S. Court of Appeals for the Federal Circuit (the “Federal
Circuit”). The Federal Circuit issued a decision in Patent Owner’s appeal on
February 11, 2016, which affirmed-in-part and vacated-in-part the Board’s
decision, and remanded the case to the Board for further proceedings
regarding the status of the substitute claims. Nike, Inc. v. adidas AG, 812
F.3d 1326, 1329 (Fed. Cir. 2016). The Federal Circuit issued its mandate in
that case on April 4, 2016. In addition, Petitioner has requested inter partes
review of claims of related patents in IPR2016-00920 (U.S. Patent No.
8,042,288 B2), institution denied, and IPR2016-00922 (U.S. Patent No.
8,266,749 B2), institution granted. Paper 5, 2.
D. Applied References and Declaration
Petitioner relies on the following references and declaration in support
of its asserted ground of unpatentability:

8

IPR2016-00921
Patent 7,814,598 B2
Exhibit
1003
1006
1009
1010

1012

References and Declaration
Declaration of Mr. Lenny M. Holden
U.S. Patent No. 3,985,003 to Reed, issued Oct. 12, 1976
(“Reed”)
U.S. Patent No. 5,345,638 to Nishida, issued Sept. 13, 1994
(“Nishida”)
David J. Spencer, Knitting technology: a comprehensive
handbook and practical guide, 1–413 (2001) (3rd Ed.,
Woodhead Publ. Ltd.) (“Spencer”)
International Standard, Textile machinery — Knitting
machines — Nominal diameters of circular machines, 1–6
(2003) (2nd Ed., ISO 8117:2003(E)) (“ISO 8117”)

Pet. iv.
E. Instituted Ground of Unpatentability
We instituted review on the following ground of unpatentability:
References
Reed and Nishida

Basis
35 U.S.C. § 103(a)

Challenged Claims
1–13

Pet. 8.
II. ANALYSIS
A. Person of Ordinary Skill in the Art
Petitioner argues that a person of ordinary skill in the relevant art
would have at least a few years of experience in the footwear industry, a
broad understanding of shoemaking, and an understanding of (1) the product
cycle for the process of designing, developing and bringing a new product to
market; (2) milestones for reviewing upper material designs; (3) the
available and varied ranges of typical construction methods within a
product cycle; and (4) the functional requirements of footwear and the range
of material choices available. Pet. 8–9 (citing Ex. 1003 ¶ 34). Patent Owner

9

IPR2016-00921
Patent 7,814,598 B2
contests Petitioner’s assessment of the level of ordinary skill in the relevant
art, but does not propose an alternative assessment. PO Resp. 12–14.
Initially, Patent Owner contends that Petitioner has failed to consider
appropriate factors identified by our reviewing court and utilized by other
panels to assess the level of ordinary skill in the art. Id. at 12–13. We agree
with Petitioner that it is not necessary to consider every factor or to weigh
the factors equally in order to assess the level of ordinary skill in the art.
Reply 2 (quoting In re GPAC Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995)).
Here, we may rely on Petitioner’s declarant’s testimony (Ex. 1003 ¶ 34) and
the teachings of the prior art to evaluate Petitioner’s assessment of the level
of ordinary skill in the art. Okajima v. Bourdeau, 261 F.3d 1350, 1355 (Fed.
Cir. 2001). In particular, Reed and Nishida identify the types of problems
encountered in the art prior art solutions to these problems, and the
sophistication of the technology. E.g., Ex. 1006, 1:13–55; Ex. 1009, 1:10–
36; see, e.g., Ex. 1007, 1:8–32, 2:12–64; Ex. 1008, 1:11–54; Ex. 1010, 145–
160; see also Ex. 1010, Preface (“The aim of this book is to combine in a
single volume the fundamental principles of weft and warp knitting in such a
manner that its contents are useful to readers in education, industry or
commerce. It thus [fulfills] the long felt need for a comprehensive up-todate textbook explaining this important sector of textile technology.”).
Patent Owner contends that the level of ordinary skill in the art is
“low” (PO Resp. 13), but it is not clear whether Patent Owner further
contends that Petitioner’s assessment is deficient because Petitioner fails to
argue that a person possessing such a “low” level of ordinary skill in the art
also would have “experience using knitting technologies to create knitted
footwear uppers” (id. at 13–14) or whether the inclusion of such skill would
10

IPR2016-00921
Patent 7,814,598 B2
raise the “low” level of skill in the art (id. at 14). Alternatively, Patent
Owner may merely be contending that Petitioner’s declarant fails to qualify
as a person of ordinary skill in the art. Id. at 14 (“If it was too ‘dangerous’
for Mr. Holden with his nearly forty years of experience, a person with just a
“few years of experience” would not have had any knitting experience, let
alone experience using knitting technologies to create uppers.”); see Tr.
62:17–22. Patent Owner is not required to help us assess the level of
ordinary skill in the art and does not do so here. See PO Resp. 18
(“Petitioner may criticize NIKE for not submitting an expert declaration.
But it is Petitioner’s burden to prove unpatentability; it is not NIKE’s burden
to prove patentability.”).
In response to Patent Owner’s contentions, Petitioner argues that the
level of ordinary skill in the art is not low and that hands-on knitting
experience is not required. Reply 2–3. Petitioner further argues Patent
Owner has not required knitting experience in its previous assessment with
respect to a related patent of the level of ordinary skill in the art. Id. (citing
IPR2013-00067, Ex. 2010 ¶ 52). Based on the record before us and to the
extent necessary, we again adopt Petitioner’s assessment of a person of
ordinary skill in the relevant art. Inst. Dec. 8 n.3.
B. Claim Construction
In an inter partes review, claim terms in an unexpired patent are
construed according to their broadest reasonable interpretation in light of the
specification of the patent in which they appear. 37 C.F.R. § 42.100(b).
Under that standard, claim terms are given their ordinary and customary
meaning, as would be understood by one of ordinary skill in the art in the
context of the entire disclosure. In re Translogic Tech., Inc., 504 F.3d 1249,
11

IPR2016-00921
Patent 7,814,598 B2
1257 (Fed. Cir. 2007). The following four claim terms are at issue in this
proceeding.
1. “a first area and a second area with a unitary construction”
(Claims 4 and 11)
Petitioner argues that the term “a first area and a second area with a
unitary construction” means “a textile element having a unitary construction
and having a first area and a second area.” Pet. 7. As Petitioner notes, this
is the construction that this panel gave to the same term appearing in the
substitute claims of the ’011 patent. adidas AG v. Nike, Inc., Case IPR201300067, slip op. at 16–17 (PTAB Apr. 28, 2014) (Paper 60). We further note
that the ’598 patent’s Specification provides that “[a]s defined for purposes
of the present invention, unitary construction is intended to express a
configuration wherein portions of a textile element are not joined together
by seams or other connections, as depicted with textile element 40 in FIG.
8.” Ex. 1001, 6:41–46 (emphasis added); see IPR2013-00067, Ex. 1002,
6:41–46 (identical disclosure). The ’011 patent and the ’598 patent share the
same Specification (apart from their claims), neither party contested our
construction of this term in the appeal of our decision in the inter partes
review of the claims of the ’011 patent, and Patent Owner does not contest
Petitioner’s proposed construction of this term in this proceeding.
Therefore, in view of the express definition of the phrase “unitary
construction” in the Specification of the ’598 patent, we adopt Petitioner’s
proposed construction for this term. See Tr. 20:5–13, 37:11–17.
2. “wide-tube circular knitting machine” (Claims 2 and 9)
We determine that the broadest reasonable interpretation of the term
“wide-tube circular knitting machine” is “a circular knitting machine
12

IPR2016-00921
Patent 7,814,598 B2
forming body garment sized, tubular textile structures, including those
having a diameter that ranges from 10 inches to 20 inches.” See Inst. Dec.
10–11. Neither party contests this construction. See Tr. 20:5–13, 37:11–17.
3. “impart” (claims 4 and 11) and “texture” (claims 3, 4, 10,
and 11)
During the course of the review, the parties raised issues regarding the
construction of two additional terms that appear only in the challenged
dependent claims. First, Petitioner argues that the term “impart” means “to
give, convey, or grant from.” Reply 21 (citing Ex. 1014).4 Further,
Petitioner argues that this definition is consistent with the use of the word
“impart” in the Specification of the ’598 patent. E.g., Ex. 1001, Abstract,
1:30–35, 1:60–63, 1:65–2:3, 3:33–37, 7:35–37; see Tr. 21:4–14. Patent
Owner does not propose an alternative construction for the term “impart.”
Further, neither party argues that the term “impart” carries special meaning
in the relevant art. In fact, we find Spencer’s use of the word “impart” in the
handbook on knitting technology consistent with Petitioner’s dictionary
definition and the word’s use in the Specification of the ’598 patent. See
Ex. 1010, 189. Thus, to the extent any construction of this term is necessary,
we find that the broadest reasonable interpretation of the term “impart” is “to
give, convey, or grant from.” See Summit 6, LLC v. Samsung Elecs. Co.,
802 F.3d 1283, 1291 (Fed. Cir. 2015) (“[E]ach [term] is used in common
4

Petitioner relies on a definition of “impart” from a current, on-line
dictionary rather than from a dictionary contemporaneous with the effective
filing date of the ’598 patent. However, the record contains no suggestion
that the relevant definition of “impart” has changed since the effective filing
date of the ’598 patent, and we determine that it has not. See RANDOM
HOUSE WEBSTER’S COLLEGE DICTIONARY, 659 (2nd ed. 1999) (Ex. 3001)
(“impart” means “to give; bestow”).
13

IPR2016-00921
Patent 7,814,598 B2
parlance and has no special meaning in the art. Because the plain and
ordinary meaning of the disputed claim language is clear, the district court
did not err by declining to construe the claim term.”).
Second, although Petitioner does not provide an express interpretation
for the term “texture,” 5 Petitioner’s declarant testifies “texture” “generally
could be an actual texture or a perceived texture based on the arrangement of
colors in a pattern.” Reply 4 (citing Ex. 2004, 178:20–24; see also id. at
177:1–178:19, 178:25–184:11). Patent Owner disputes Mr. Holden’s
interpretation of “texture,” which appears inconsistent with Spencer’s
discussion of texture. See Ex. 2004, 80:24–81:8. In particular, according to
Spencer, “[c]olour is one of the five ingredients of fashion, the other four
being style, silhouette, texture and pattern.” Ex. 1010, 127. Thus, Spencer
appears to distinguish between color and texture.
The Specification of the ’598 patent does not define “texture,” but
contrasts between “smooth” and “textured” areas of a textile element.
Ex. 1001, 9:23–24. Moreover, with respect to Figure 11, the Specification
of the ’598 patent explains that:
The different textures 46"-48" are formed by merely varying
the type of stitch formed by the wide-tube circular knitting
machine at each location of textile element 40". Textures 46"48" may exhibit aesthetic differences, or the differences may be
structural. For example, the degree of stretch in areas with
textures 46"-48" may be different, or the wear resistance of the
areas may vary depending upon the stitch utilized. The airpermeability of textile element 40" may also vary in the
5

A relevant dictionary definition of the word “texture” is “the characteristic
structure of the threads, fibers, etc., that make up a textile fabric: course
texture,” “a rough or grainy surface quality,” or “anything produced by
weaving; woven fabric.” Ex. 3001, 1351.
14

IPR2016-00921
Patent 7,814,598 B2
different areas. Third texture 48" is formed to include a
plurality of apertures that extend through textile element 40".
The apertures may be formed by omitting stitches at specific
locations during the wide-tube circular knitting process, and the
apertures facilitate the transfer of air between the void within
upper 20 and the area outside of upper 20. Accordingly, the
various stitches formed in textile element 40", or one of textile
elements 40 or 40', may be utilized to vary the texture, physical
properties, or aesthetics of footwear 10 within a single, unitary
element of material.
Id. at 39–57 (emphasis added). From this explanation, we understand that
“texture,” as used in the ’598 patent, is distinguishable from the physical and
aesthetic properties of a textile element. According to the recitations of
claims 4 and 11, “texture” is produced as part of the step recited in claims 1
and 9 of “mechanically-manipulating a yarn with a circular knitting
machine.” See Ex. 1001, 11:45–46. Thus, to the extent any construction of
this term is necessary, we find that the broadest reasonable interpretation of
the term “texture” in the context of claims 4 and 11 is “a non-smooth surface
formed by mechanically-manipulating a yarn with a circular knitting
machine.” Such a surface may be created by “varying the type of stitch
formed by the wide-tube circular knitting machine at each location of textile
element.” Id. at 9:39–42.
4. Other Claim Terms
For purposes of this Final Written Decision, we discern no other claim
terms that require express interpretation.

15

IPR2016-00921
Patent 7,814,598 B2
C. Obviousness over Reed and Nishida
1. Overview
Petitioner argues that claims 1–13 are unpatentable under 35 U.S.C.
§ 103(a) as obvious over the combined teachings of Reed and Nishida. To
support its arguments, Petitioner provides a detailed mapping of limitations
of the challenged claims to Reed and Nishida. Pet. 14–29. Petitioner also
cites Mr. Holden’s Declaration for support. See Ex. 1003 ¶¶ 92–130.
A patent claim is unpatentable under 35 U.S.C. § 103(a) if the
differences between the claimed subject matter and the prior art are “such
that the subject matter as a whole would have been obvious at the time the
invention was made to a person having ordinary skill in the art to which said
subject matter pertains.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406
(2007). The question of obviousness is resolved on the basis of underlying
factual determinations, including: (1) the scope and content of the prior art;
(2) any differences between the claimed subject matter and the prior art;
(3) the level of skill in the art; 6 and (4) objective evidence of
nonobviousness, i.e., secondary considerations. 7 See Graham v. John Deere
Co., 383 U.S. 1, 17–18 (1966). On this record and for the reasons set forth
below, we are not persuaded that Petitioner demonstrates by a
preponderance of the evidence that claims 1–13 of the ’598 patent are

6

See supra Section II.A.; see also Ex. 1003 ¶ 36 (“Based on my experience,
I have an understanding of the capabilities of the skilled person in this field,
and my opinions are provided from the perspective of such a person.”).
7

The record lacks arguments or evidence of secondary considerations. See
generally PO Resp.
16

IPR2016-00921
Patent 7,814,598 B2
unpatentable as rendered obvious over the combined teachings of Reed and
Nishida.
2. Reed (Ex. 1006)
Reed is directed to a method of manufacturing a wearable item, which
includes, among other things, mechanically manipulating a yarn with a
circular-knitting machine to form a cylindrical textile structure (Ex. 1006,
2:22–25), textile elements located in different portions of the textile structure
(id. at 2:29–31), removing the textile elements from the textile structure (id.
at 3:12–19, 5:67–6:5), and incorporating the textile element(s) “to form all
types of garments worn by men, women and children” (id. at 5:56–58
(emphasis added); see id. at 1:33–35).8 In particular, Reed describes
methods of making preseamed garments (id. at 3:8–21) or preseamed
sections of a garment, which sections may be seamed together “by standard
practices” to form a garment (id. at 6:10–17). As Reed explains,
From the preceding description of the preferred embodiments,
it is evident that the objects of the invention are obtained to
produce a preformed and preseamed fabric on a circular
knitting machine so as to reduce time, cost and labor involved
in making garments. The types of program used to form the
final product is to be varied with the imagination of the
programmer, as well as the type of product which may be
8

Patent Owner contends that Reed is not analogous art. PO Resp. 29–31. In
particular, Patent Owner contends that Reed is not from the same field of
endeavor as the challenged claims and that Reed’s teachings are not
reasonably pertinent to the particular problem with which the recited
methods are involved. Id. at 29–30. Because Reed is directed to the
manufacture of all types of garments, including footwear (Reply 12–14; see
Ex. 1006, 1:33–44), and Reed is related directly to preparation of garments
layouts from a knitted textile structure (Reply 14–15; see Ex. 1006, 2:29–
35), we are persuaded that Reed is analogous art to the challenged claims.
17

IPR2016-00921
Patent 7,814,598 B2
formed. The essence of the present invention is a garment
formed of juxtaposed sections of simultaneously knitted,
concentric tubes interconnected by knitting.
Id. at 6:18–28 (emphasis added).
Reed’s Figure 1 is reproduced below.

Figure 1 depicts tubular knitted structure 10, such as that produced by a
circular knitting machine. Id. at 2:66–3:1. Knitted structure 10 comprises
inner tube 12 and outer tube 14, and
[a]round the circumference of the knitted structure 10 are
illustrated three garments which, for example, may be skirts 16,
18 and 20.[9]
The garments 16, 18 and 20 are outlined by a plurality of
interconnecting knitted stitches 22 and 24. The interconnecting
knitting 22 not only forms the outline of the garments 16, 18
and 20, but joins the inner tube 12 to the outer tube 14 so as to
create a seam. The interconnecting knitting 24 is merely to
9

We are persuaded that “skirts” are “body garments.” See Ex. 1003 ¶ 97.
18

IPR2016-00921
Patent 7,814,598 B2
define the lower outline of the skirt upon which the pattern may
be cut.
Id. at 3:1–15 (emphasis added).
Reed explains that the use of circular knitting machines in the garment
industry historically was limited to making tubular, knitted garments, such
as ladies stockings, sweaters, and other garments, wherein the entire knitted
fabric was used as a unit to form one surface of a finished garment. Pet. 10–
11 (citing Ex. 1006, 1:33–44; Ex. 1003 ¶ 94); see supra Section II.C.1.
(note 6). Reed further teaches that “[c]omputer electronic knitting brought
about the possibilities of making patterns and designs of up to three million
stitches (previously approximately 50,000 was maximum). With this
system, patterns and designs are possible that before could not be made.”
Ex. 1006, 1:50–55; see Ex. 1003 ¶ 95. Reed states that its method uses “an
electronic circular double knitting machine” and that an “object of the
[Reed] invention is to provide a method of reducing the cost of
manufacturing of garments by using the versatility of a computerized
electronic knitting machine.” Ex. 1006, 1:58–59, 2:22–25, Figs 1–6; see Ex.
1003 ¶ 95. Further, Reed teaches that:
If the present process is used to preform an exterior
decorative fabric having a lining or inner-lining or interfacing
attached thereto, the severed sections must be assembled and
seamed by standard practices. By providing the lining or
interfacing already attached to the section, a substantial amount
of time is saved in measuring, marking and cutting the original
fabric and lining or interlining as well as stitching them
together.
Ex. 1006, 6:10–17 (emphasis added).

19

IPR2016-00921
Patent 7,814,598 B2
3. Nishida (Ex. 1009)
Nishida is directed to the production of a shoe upper by (1) cutting out
a layout in the form of the shoe upper from a web of material and
(2) shaping the shoe upper by connecting material parts of the layout by the
formation of seams. See Ex. 1009, Abstract. By this process, such shoe
uppers may be produced efficiently and in reduced time despite the many
individual parts present or to be made visible. Id.
Figure 2 of Nishida is reproduced below.

Figure 2 illustrates an embodiment of the upper layout according to Nishida.
Id. at 3:6–12. Web of material 1 may include one or a plurality of layouts 2.
Further, web of material 1 includes backing 4 that may be a knitted material,
and different areas of layouts 2 may be formed by knitting different yarns or
fibers on backing 4. Id. at 3:15–26, 5:63–6:2. Moreover, Nishida’s web of

20

IPR2016-00921
Patent 7,814,598 B2
material 1 may be “knitted in two or more layers or can be especially thick
or additionally embroidered.” Id. at 3:66–4:1.
Consequently, web of material 1 may be used to produce layouts 2 by
different production measures, such as different styles, yarn material, color,
material thickness, number of layers of material, or the like, simultaneously
with the production of web of material 1. Id.; see id., Figs. 1, 2. Each
layout 2, including a sole part, may be cut from web of material 1 as a unit
and processed into an upper. Id. Nishida describes the manufacture of an
article of footwear incorporating such an upper. Id. at 3:9–12, Fig. 3.
Figure 4 of Nishida is reproduced below.

21

IPR2016-00921
Patent 7,814,598 B2
Figure 4 depicts a section of web of material 1 with radially symmetric
layout 2 having sole part sections 29.1 and 29.2 provided on opposite sides
of the upper, as well as tongue 40. Id. at 2:64–66. Nishida sets forth the
following in association with Figure 4:
[T]ongue 40, for example, according to FIG. 4, can be provided
also in the course of producing the web of material 1 with
different weave structures and/or weave patterns and/or
embroideries or with one or with several prints or the like. On
a web of material 1, different tongues 40 can be produced
corresponding to a shoe shape and/or a shoe size both in shape,
size, color or colors, patterns or the like. Preferably, in each
case, related tongues 40 are produced simultaneously with a
layout 2 on same web of material 1.
For optimum surface use of web of material 1, a tongue
40 can be produced in the open space 41 located between the
two layout sections 42 and 43, which later form the rear of foot
or heel-pan shoe part.
Preferably, each layout 2 has at least five, preferably
more than ten, patterns and a tongue 40 has at least two,
preferably at least three patterns produced or appearing, which
are different from one another in each case.
Id. at 5:27–44; cf. id., Fig. 2 (reproduced above, depicting web of material 1
including layouts 2 without tongues). Thus, as depicted in Figure 4, tongues
may be individual parts of an article of footware “produced separately and
applied to the upper later” and are of a relatively simply, substantially
rectangular shape. See Ex. 1009, 1:50–53 (describing the inclusion of a
tongue in a conventional article of footware). Tongues and uppers may be
taken from the same web of material or from different webs. See id. at 5:37–
40.10
10

Although we find that Nishida teaches layouts both of an upper and of a
tongue, Petitioner does not argue that Nishida’s tongue layouts separately
22

IPR2016-00921
Patent 7,814,598 B2
4. Petitioner’s Arguments
Petitioner argues that Reed and Nishida teach or suggest all of the
limitations of claims 1–13 of the ’598 patent. Pet. 9–29. In particular,
Petitioner argues that Reed and Nishida teach or suggest all of the
limitations of each of independent claims 1 and 9. Id. at 14–16 (claim 1),
19–20 (claim 9).
a. Independent Claims 1 and 9
Independent claim 1 recites “[a] method of manufacturing an article of
footwear.” Ex. 1001, 11:43; see also id. at 12:21 (claim 9). Reed teaches
that its circular knitting methods may be used to manufacture “all types of
garments.” Ex. 1006, 5:56–57. Although Reed specifically identifies
stockings and hosiery (id. at 1:33–35, 5:57–58), e.g., footwear, as garments
manufactured by circular knitting, Reed does not describe shoes expressly as
“garments.” Nishida also teaches that the webs of material depicted in its
Figures 1 and 2 are “produced by a conventional textile process.” Ex. 1009,
3:6–7 (emphasis added). Thus, we are persuaded that Petitioner has shown
that Reed alone, as well as the combined teachings of Reed and Nishida,
teach or suggest a method of manufacturing an article of footwear.
The method of claim 1 further comprises the step of “mechanicallymanipulating a yarn with a circular knitting machine to form a cylindrical
textile structure.” Ex. 1001, 11:45–46 (emphasis added); see also id. at
12:23–25 (claim 9 reciting “a wide-tube circular knitting machine”
(emphasis added)). Reed teaches the use of circular knitting machines,

teach textile elements that may be incorporated into an article of footwear.
See Pet. 16, 28; Ex. 1003 ¶ 86, App’x C (pg. 140).
23

IPR2016-00921
Patent 7,814,598 B2
including such machines as can produce body garments, such as skirts (see
id. at Fig. 2), shirts and pants (see id. at Fig. 3), and dresses (see id. at Fig.
6), for men, women, and children (id. at 5:56–57). In view of our
construction of the term “a wide-tube circular knitting machine” above (see
supra Section II.B.2.; see also Ex. 1001, 7:6–8 (describing circular knitting
machine capable of producing textile structures large enough for
manufacturing “body garment[s]”)), we are persuaded that Reed teaches not
only a circular knitting machine, but also a wide-tube circular knitting
machine. See Pet. 18 (claim 2 recites a “wide-tube circular knitting
machine” and Petitioner relies solely on Reed to teach this limitation); Ex.
1003 ¶ 97.
The method of claim 1 further comprises the step of “removing at
least one textile element from the textile structure.” Ex. 1001, 11:47–48; see
also id. at 12:26 (claim 9 recites “removing a textile element from the textile
structure”). We are persuaded based on the evidence cited in the Petition
that Petitioner has shown that the teachings of Reed or Nishida, alone or
combined, teach or suggest this limitation of the independent claims. Pet. 16
(claim 1; citing, e.g., Ex. 1006, 3:12–19; Ex. 1009, 1:10–18); id. at 19–20
(claim 9); see Ex. 1003 ¶¶ 103–104.
Finally, the method of claim 1 comprises the step of “incorporating
the textile element into an upper of the article of footwear.” Ex. 1001,
11:49–50 (emphases added); see id. at 12:27–28 (claim 9). Petitioner relies
solely on Nishida to supply this limitation, and argues that Nishida teaches
this limitation of the independent claims. Pet. 16 (claim 1), 20 (claim 9); see
Ex. 1003 ¶¶ 124–125. We agree.

24

IPR2016-00921
Patent 7,814,598 B2
Petitioner argues that a person of ordinary skill in the art would have
had reason to combine the identified teachings of Reed and Nishida to
achieve the methods recited in independent claims 1 and 9. Pet. 12–14. In
particular, Petitioner argues that, because Reed teaches that its methods are
applicable to “all types of garments” (Ex. 1006, 5:56–57 (emphasis added);
see Ex. 1003 ¶ 131)), a person of ordinary skill in the art would have had
reason to apply the teachings of Reed to the processes and shoe parts of
Nishida. Pet. 13 (citing Ex. 1003 ¶ 133). Further, Petitioner argues that,
because both Reed and Nishida teach the advantages of reducing cost
through the use of computer-controlled knitting machines, a person of
ordinary skill in the art would have had reason to combine their teachings.
Id. (citing Ex. 1003 ¶¶ 134–135). Finally, Petitioner argues that a person of
ordinary skill in the art would have had reason to apply Reed’s methods for
producing textile elements, from which to produce garments, to produce
Nishida’s shoe upper layouts. Id. at 13–14; see KSR, 550 U.S. at 417 (“[I]f a
technique has been used to improve one device, and a person of ordinary
skill in the art would recognize that it would improve similar devices in the
same way, using the technique is obvious unless its actual application is
beyond his or her skill.”).
b. Dependent Claims 2–8 and 10–13
With respect to the challenged dependent claims, Petitioner argues
that Reed teaches or suggests the additional limitations recited in claim 2
(Pet. 17–18; see supra Section II.B.2.); that Nishida teaches or suggests the
additional limitations recited in claims 7, 8, 12, and 13 (id. at 28–29); and
that that Reed and/or Nishida teaches or suggests the additional limitations

25

IPR2016-00921
Patent 7,814,598 B2
recited in claims 3–6, 11 10, and 11 (id. at 18–28; see supra Section II.B.1.).
Petitioner provides a detailed mapping of the limitations of each of these
dependent claims onto the teachings of Reed and/or Nishida. See Ex. 1003,
App’x A. Moreover, Petitioner argues that a person of ordinary skill in the
relevant art would have had at least the same reasons to combine the
teachings of Reed and Nishida to achieve the methods recited in these
dependent claims, as that given for combining the teachings of Reed and
Nishida to achieve the recited methods of the independent claims. See id. at
12–14.
Although we have reviewed the entirety of Petitioner’s analysis and
evidence for both the independent and dependent claims, we highlight the
following specific evidence and arguments for emphasis. Claim 4 recites:
The method recited in claim 1, wherein the step of
mechanically manipulating includes forming the textile element
to include a first area and a second area with a unitary
construction, the first area being formed of a first stitch
configuration, and the second area being formed of a second
stitch configuration that is different from the first stitch
configuration to impart varying textures to a surface of the
textile element.
Ex. 1001, 11:58–12:6 (emphasis added). Claim 11 depends from claim 9
and recites substantially the same limitations as claim 4. Id. at 12:33–40.
11

In particular, claim 6 recites the method of claim 1 “wherein the step of
mechanically manipulating includes forming apertures in the textile
element.” Ex. 1001, 12:10–12. Although Patent Owner contends that
Petitioner fails to demonstrate that Nishida teaches forming apertures by
omitting stitches while knitting to form a net-like structure (see Pet. 26–28
(citing Ex. 1009, 4:1–5, 4:31–38); PO. Resp. 50–55; Reply 23–25), we are
persuaded that Nishida teaches the formation of apertures and that forming
apertures by omitting stiches was a well-known technique (see Ex. 1010, 57,
70, 172; Ex. 1003 ¶¶ 199, 200).
26

IPR2016-00921
Patent 7,814,598 B2
Petitioner argues that Reed teaches these limitations in two ways.
Pet. 21. First, Petitioner argues that Reed teaches that the edges of the
garments 16, 18, 20, depicted in Reed’s Figure 1 (reproduced above) are
formed by interknitted stitches and that the remainder of the garments 16,
18, 20 are formed by non-interknitted stitches. Id. (citing Ex. 1003 ¶ 115).
Specifically, the seams or outlines of the garments 16, 18, 20 are formed
with interknitted stitches (shown in X’s and O’s in Reed’s Figure 2), which
are formed by feeds 1, 2, 3, and 4 on needles 7, 9, 8, and 10, as shown in
Reed’s Figures 3B and 3D. Ex. 1006, 5:3–18, Figs. 3A–3E; see Ex. 1003
¶ 115. Reed further teaches that “two feeds [i.e., feeds 1, 3 for the dial
needles] are used for one course of the inner tube 12 and two feeds [i.e.,
feeds 2, 4 for the cylinder needles] are used for the outer tube 14.”
Ex. 1006, 4:61–64, Figs. 2, 2A, 3A–3E; see id. at 5:67–6:3; Ex. 1003 ¶¶ 115,
116. “Because the interknitted stitches are part of the garments 16, 18, 20,
and the garments 16, 18, 20 also comprise areas that are only formed as part
of the outer tube 14 or the inner tube 12, the garments 16, 18, 20 have a
plurality of different knitted textures formed by varying at least one of the
stitch type and the yarn type.” Pet. 21 (citing Ex. 1003 ¶ 116). Thus,
because the stitches create a texture different from the remainder of the
textile element, Petitioner concludes that Reed teaches “a first area and a
second area with a unitary construction.”
Second, Petitioner also argues that Reed teaches “how the two layers
12, 14 themselves may be formed of different yarns or stitch
configurations.” Pet. 21 (citing Ex. 1003 ¶ 117).
If the two tubes 12 and 14 are knitted of two different
fibers, the knitted structure may form sections of a garment to
be assembled in the regular manner. For example, the outside
27

IPR2016-00921
Patent 7,814,598 B2
tube 14 may be a normal decorative fabric wherein the inner
tube 12 may be formed of material such as lining. By
simultaneously knitting and interknitting the two layers, a step
is saved by producing a section of garment which is prelined.
Similarly, the layer 12 (instead of being lining) may be
interfacing, which is attached to the outside layer 14 and again
saves a step in the manufacture of garments. Another example
where two different fibers are used to make the inner and outer
tubing would be in the foundation garment industry, where the
inner fabric could be cotton or other soft fibers and the outer
fabric would be lycra or elasticized yarns.
Ex. 1006, 3:61–4:8; see Pet. 21–22; Ex. 1003 ¶ 117. Thus, Petitioner
alternatively argues that the separate circular knitted tubes may be the first
and second areas recited in claims 4 and 11.
Finally, Petitioner alternatively argues that Nishida teaches these
limitations. Pet. 22. In particular, Nishida teaches that “in the embodiment
according to FIGS. 1 and 2, with layout 2 on the web of material 1, areas 26
and 27 are produced in a configuration, color or style that is different from
the other areas.” Ex. 1009, 4:6–9 (emphasis added)); see id. at Abstract;
1:65–69, 2:40–45, 3:15–26, 3:47–48, 4:12–28, 4:48–55, 5:56–6:2; Ex. 1003
¶¶ 118, 119. Nishida further states that
[l]ayout 2 is divided into different individual parts or areas,
which differ from one another, such as by being of another
material style and/or by being of different fibers or yarns, for
example, from wool, wool with metal yarns, silk, silk with
metal yarns, wool with plastic fibers or the like . . . .
Ex. 1009, 3:15–25; see Ex. 1003 ¶ 121. Petitioner argues that Nishida’s
teachings achieve a textile element with multiple knit constructions. Pet. 22.
Specifically, these varying constructions of Nishida’s layout may achieve
varying elasticity, air permeability, absorptivity, softness, extensibility, wear
resistance, and appearance, which Petitioner argues teach the “varying
28

IPR2016-00921
Patent 7,814,598 B2
textures” recited in these claims. Id. (citing Ex. 1009, 3:43–52, 5:63–6:2,
6:1–31); see Ex. 1003 ¶¶ 120, 121. Thus, Petitioner argues that either Reed
or Nishida teaches these limitations.
Although we have highlighted specific evidence and arguments for
emphasis, we have reviewed the entirety of Petitioner’s analysis and
evidence for independent claims 1 and 9, as well for dependent claims 2–8
and 10–13, and the supporting testimony of Mr. Holden. As noted above,
Petitioner relies on the same reasons to combine the teachings of Reed and
Nishida for its challenges to each of claims 1–13 of the ’598 patent. See Pet.
12–14.
5. Patent Owner’s Contentions
Patent Owner raises seven separate contentions why Petitioner fails to
demonstrate that the combined teachings of Reed and Nishida render any of
claims 1–13 of the ’598 patent unpatentable. See PO Resp. 3–4. Because
we find certain of the Patent Owner’s contentions persuasive and dispositive,
we do not address each of Patent Owner’s separate contentions.
a. Low Level of Ordinary Skill in the Art
Patent Owner contends that Petitioner’s assessment of the level of
ordinary skill in the art is conclusory and is not based on the factors that the
Board has considered in determining the level of ordinary skill in the art. Id.
at 12–13. We have addressed the appropriate assessment of the level of
ordinary skill in the art above. See supra Section II.A. Whether the level of
ordinary skill in the art is “low” or “high” may make it more or less difficult
for Petitioner to demonstrate obviousness. PO Resp. 14 (“In sum, the level
of ordinary skill in the art at the time of the ’598 patent was low. It is more
difficult, therefore, for Petitioner to establish obviousness. . . .”); see Kinetic
29

IPR2016-00921
Patent 7,814,598 B2
Concepts, Inc. v. Smith & Nephew, Inc., 688 F.3d 1342, 1366 (Fed. Cir.
2012) (“Because it is generally easier to establish obviousness under a
higher level of ordinary skill in the art, we must assume that, in light of the
jury’s verdict, it adopted the lower level of skill proposed by S & N.”
(citation omitted)). However, a “low” relative level of skill alone cannot
prevent Petitioner from demonstrating obviousness.
Here, only Petitioner – the party bearing the burden of persuasion –
has proposed an assessment of the level of ordinary skill in the art. See
supra Section II.A.; but see IPR2013-00067, Ex. 2010 ¶ 52 (Patent Owner
proposed that a “POSITA . . . would have a few years of experience with
design and development of footwear and knowledge of textiles used in such
footwear”). For the reasons set forth above, we have adopted Petitioner’s
assessment. Further, as noted above, Petitioner’s declarant testifies from the
point of view of someone with the assessed level of skill, a level which the
declarant exceeds. See Ex. 1003 ¶ 36; Ex. 1004. Thus, regardless whether
the level of ordinary skill is deemed “low” or “high,” we are not persuaded
that the relative assessment of the level of ordinary skill in the art here
affects our evaluation of Petitioner’s arguments and evidence.
b. Weight Given to Declarant’s Testimony
Patent Owner contends that Petitioner’s declarant, Mr. Holden, did not
author his declaration and, during cross-examination, Mr. Holden was
unable to answer basic questions about the declaration, the patent at issue,
the prior art, footwear, and knitting technologies. PO Resp. 15; see
Ex. 2004, 12:2–18. Mr. Holden testified that “[he] worked with counsel one
on one to basically give her a verbal description of my opinions and -- and
my thoughts on the -- on these issues, and she did the actual typing of the
30

IPR2016-00921
Patent 7,814,598 B2
document.” Reply 3 (quoting Ex. 2004, 12:7–11); see Ex. 2004, 12:12–
13:16. Declarants often have assistance in authoring their declarations. See
Square, Inc. v. Think Computer Corp., Case CBM2014-00159, slip op. at
26–27 (PTAB Nov. 27, 2015) (Paper 47) (“the mechanics of declaration
preparation is ‘a waste of time, both for the witness and the Board’”).
Mr. Holden was not required to be the sole author of his declaration. Rather,
the relevant issue regarding the preparation of Mr. Holden’s declaration is
whether Mr. Holden adopted the content of his declaration as his own. Here,
he has. See Ex. 1003 ¶¶ 3, 4, 209.
As Patent Owner suggests, we weigh Mr. Holden’s declaration
testimony in light of his testimony on cross-examination. Although
Mr. Holden indicated that he was unable to define or was unfamiliar with
certain terms during cross-examination, he did name references, including
Spencer (Ex. 1010), that he could and would consult to obtain the answers to
specific questions. Tr. 63:20–64:13. Moreover, Patent Owner’s counsel
acknowledged that persons of ordinary skill in the art (or declarants) do not
have to have all of the knowledge relevant to their testimony in their heads
and that they are allowed to consult references, as appropriate. Id. at 63:20–
64:2. Although Patent Owner notes that Mr. Holden apparently was not
aware of Spencer until this inter partes review (see Ex. 2004, 77:1–3; Tr.
64:1–6), his learning of and relying on a new reference alone is not sufficient
reason to disregard, i.e., give no weight to, Mr. Holden’s testimony. Further,
the issue here is not whether Mr. Holden is a person of ordinary skill in the
art, but rather whether his testimony is of value to the panel. See Tr. 64:15–
18. Thus, as indicated in the discussion below, we determine the appropriate
weight to give to Mr. Holden’s testimony.
31

IPR2016-00921
Patent 7,814,598 B2
c. Failure to Explain How and Why a Person of Ordinary Skill in the
Art Would Have Combined the Teachings of Reed and Nishida to
Achieve the Recited Methods
Initially, Patent Owner contends that Petitioner fails to address the full
scope and content of the prior art and ignores critical disclosure of both
references. PO Resp. 19. In particular, Patent Owner notes that “Reed states
that his ‘present invention relates generally to knitted garments and more
particularly to a garment which is preseamed and preformed on a circular
knitting machine.’” Id. (quoting Ex. 1006, 1:8–11 (emphasis omitted)); see
Tr. 36:3–9. Patent Owner contends that this description of Reed’s “present
invention” limits the scope of Reed to preseamed garments made on circular
knitting machines. PO Resp. 19–20. Although this description may limit
the scope of Reed’s recited methods, the scope of Reed’s teachings is
broader than what Reed specifically refers to as the “present invention”
(Ex. 1006, 1:8–11) and encompasses “the conventional methods involv[ing]
superimposing two preexisting panels of material, forming a garment into
those preexisting panels, cutting the shaped garment from the two
preexisting panels, and then seaming the two cutouts together to create the
final garment” (PO Resp. 20 (citing Ex. 1006, 6:18–22)). See Reply 7
(quoting In re Heck, 699 F.2d 1331, 1332–33 (Fed. Cir. 1983) (“The use of
patents as references is not limited to what the patentees describe as their
own inventions or to the problems with which they are concerned. They are
part of the literature of the art, relevant for all they contain.” (citation
omitted))). Although Reed’s teachings may be broader than preseamed
garments and garment sections, Petitioner relies only on the embodiments of
Reed’s invention that are directed to preseamed garments and to preseamed

32

IPR2016-00921
Patent 7,814,598 B2
sections of garments. Pet. 14–15 (citing Ex. 1006, 1:58–64); Reply 6–8; see
Tr. 9:17–10:7, 16:17–17:8, 25:17–26:21, 30:4–11.
With respect to Nishida, Patent Owner contends that Nishida’s web of
material has two primary components: a backing and one or more layouts
printed on or produced in the backing. PO Resp. 24–25 (citing Ex. 1009,
1:40–2:53, 3:6–26). The backing may be formed prior to the production of
the layouts. Id. Patent Owner notes that Nishida seeks to improve on
previously known methods for producing layouts, such as those described in
German Patent No. 627 878. Id. at 23. Nevertheless, the reference to the
German patent is exemplary, and we do not interpret Nishida as limited to
the methods described in the German Patent. See Ex. 1009, 1:39–46 (“to
further develop this previously known process”); Reply 8.
After the backing is formed, Nishida teaches printing on or producing
layouts in the backing. Ex. 1009, 3:13–15. The layouts are printed by a
fabric printing process onto the backing or produced by a textile production
process inside the backing. PO Resp. 25 (citing Ex. 1009, 1:50–56, 2:20–26,
3:13–15, 5:45–52); see Reply 9. “[T]he material can be woven or knitted in
two or more layers or can be especially thick or additionally embroidered.”
Ex. 1009, 3:66–4:1.
As noted above, each of the embodiments of Reed, relied upon by
Petitioner, describes the pre-seaming of garments or sections of garments
before their removal from the cylindrical textile structure. The teachings of
Nishida, relied upon by Petitioner, do not teach pre-seaming and, instead,
teach the seaming of the upper layout after its removal from the web of
material. Ex. 1009, 4:19–30 (Figs. 2 and 3), 5:3–26 (Figs. 4 and 5); see
Pet. 28; PO Resp. 26–27; Tr. 45:2–46:8. Patent Owner contends that
33

IPR2016-00921
Patent 7,814,598 B2
Petitioner fails to explain why and how a person of ordinary skill in the art
would combine the teachings of Reed and Nishida to achieve the recited
methods of the challenged claims. PO Resp. 31–37. In particular, because
Petitioner relies on the teachings of the embodiments of Reed which
describe pre-seamed garments and pre-seamed sections of garments and
because Nishida does not teach pre-seaming, Patent Owner contends that
Petitioner has not shown why and how a person of ordinary skill in the art
would combine the teachings of Reed and Nishida to achieve the recited
methods of the challenged claims. For the following reasons, we agree.
i.

Failure of Proof

Petitioner bears the burden of proving by a preponderance of the
evidence that the challenged claims are unpatentable. This includes
demonstrating by a preponderance of the evidence that a person of ordinary
skill in the art would have had reason to combine the teachings of Reed and
Nishida to achieve the methods recited in the challenged claims. As noted
above, Petitioner argues that a person of ordinary skill in the art would have
had at least three reasons to combine the teachings of Reed and Nishida to
achieve the methods recited in the challenged claims. Pet. 12–14; see Tr.
10:12–11:12. First, Petitioner argues that, because Reed teaches that its
methods are applicable to “all types of garments” (Ex. 1006, 5:56–57
(emphasis added); see Ex. 1003 ¶ 131), a person of ordinary skill in the art
would have had reason to apply the teachings of Reed to the processes and
shoe parts of Nishida. Pet. 13 (citing Ex. 1003 ¶ 133). Second, Petitioner
argues that, because both Reed and Nishida teach the advantages of reducing
cost through the use of computer-controlled knitting machines, a person of
ordinary skill in the art would have had reason to combine their teachings.
34

IPR2016-00921
Patent 7,814,598 B2
Pet. 13 (citing Ex. 1003 ¶¶ 134–135). Third, Petitioner argues that a person
of ordinary skill in the art would have had reason to apply Reed’s methods
for producing textile elements, from which to produce garments, to produce
Nishida’s shoe upper patterns. Id. at 13–14; see KSR, 550 U.S. at 417.
However, none of these reasons or any other reason identified by Petitioner
addresses the differences between Reed and Nishida, specifically preseaming.
Independent claims 1 and 9 do not mention seaming or pre-seaming
expressly. See Ex. 1001, 11:43–50 (claim 1), 12:21–28 (claim 9). Further,
Patent Owner acknowledged that at least independent claims 1 and 9 do not
mention seaming or pre-seaming. Tr. 37:7–10. Claims 2, 3, 5–8, 10, 12,
and 13 also do not mention seaming or pre-seaming expressly. See
Ex. 1001, 11:51–57, 12:7–20, 12:29–32, 12:41–48. As we noted above,
however, claims 4 and 11 recite “a unitary construction,” which “is intended
to express a configuration wherein portions of a textile element are not
joined together by seams or other connections.” Id. at 6:43–46. Thus, we
interpret the limitations of claims 4 and 11 to recite a textile element having
areas of different textures, but without seams. See supra Section II.B.1.
Moreover, under principles of claim differentiation, we further are persuaded
that the scope of challenged claims 1–3, 5–10, 12, and 13 is broad enough to
encompass methods related to both pre-seamed and unseamed garments and
garment sections. Nothing in the Specification (Ex. 1001) or in the
prosecution history (Ex. 1002) of the ’598 patent overcomes the presumptive
scope of the independent claims arising from the doctrine of claim
differentiation. See Kraft Foods, Inc. v. Int’l Trading Co., 203 F.3d 1362,
1368 (Fed. Cir. 2000).
35

IPR2016-00921
Patent 7,814,598 B2
Neither Petitioner nor its declarant, Mr. Holden addresses the fact that
each of the relied upon embodiments of Reed teaches pre-seaming and that
none of the relied upon teachings of Nishida involves pre-seaming. PO
Resp. 31–37; see Tr. 34:17–35:12; see also Ex. 2004, 161:5–163:19
(Mr. Holden was unable to identify teachings in Nishida directed to preseamed and preformed uppers). Moreover, during cross-examination,
Mr. Holden acknowledged that he had not been asked to nor had he
considered how the teachings of these references could be combined. In
particular, the following colloquy occurred during Mr. Holden’s deposition:
Q. (By Mr. Harris) And isn’t it also true that nowhere in
your declaration do you describe how a person of ordinary skill
in the art would create a preseamed and preformed footwear
upper on a circular knitting machine?
MS. WILLIAMS: Objection.
THE WITNESS: I don't recall that there’s any por- -portion of that. Again, I was not asked to hypothesize on that
particular point.
Q. (By Mr. Harris) Okay. Just so I’m clear, you weren't
asked to offer an opinion on how a person of ordinary skill in
the art would create a preseamed and preformed footwear upper
on a circular knitting machine; correct?
A. I don’t recall that I was asked that particular question.
Q. Thank you.
Ex. 2004, 152:22–153:13; see Tr. 53:19–57:5.
In ActiveVideo Networks, Inc. v. Verizon Communications, Inc., our
reviewing court found that where “[t]he expert failed to explain how specific
references could be combined, which combination(s) of elements in specific
references would yield a predictable result, or how any specific combination
would operate or read on the asserted claims,” such testimony “is not
36

IPR2016-00921
Patent 7,814,598 B2
sufficient and is fraught with hindsight bias.” 694 F.3d 1312, 1327 (Fed.
Cir. 2012); see PO Resp. 55–57; Reply 25–26; see also Hyundai Motor Co.
v. Blitzsafe Texas, LLC, Case IPR2016-01476, slip op. at 32 (PTAB Jan. 24,
2017) (Paper 12) (“A determination of obviousness cannot be reached where
the record lacks ‘explanation as to how or why the references would be
combined to produce the claimed invention.’”; quoting Trivascular, Inc. v.
Samuels, 812 F.3d 1056, 1066 (Fed. Cir. 2016)). Despite Mr. Holden’s
testimony that a person of ordinary skill in the art would have had reason to
combine the teachings of Reed and Nishida to achieve the recited methods
of the challenged claims (see Ex. 1003 ¶¶ 131–137), Mr. Holden’s testimony
during cross-examination makes clear that he did not perform the necessary
analysis to support his conclusions. See 37 C.F.R. § 42.65(a).
Petitioner’s evidence, and, in particular, Mr. Holden’s testimony, is
deficient with respect to the limitations recited in claims 4 and 11, in that it
fails to offer any explanation why a person of ordinary skill in the art would
combine the teachings of Reed and Nishida to achieve a method in which
seams of the kind taught by Reed apparently are prohibited. Petitioner
argues that Reed teaches the “a unitary construction” limitation of claims 4
and 11 either because the interconnecting stitches are a different texture
from the rest of the garment or garment section or because the inner and
outer circular knit materials may have different textures. Pet. 21–22. Thus,
Mr. Holden testifies in support that Reed’s interknitted stitches, i.e., the
joining seams, teach textures different from the remainder of Reed’s finished
garments or garment sections (Ex. 1003 ¶¶ 115, 116) or that circular knit
materials, although joined by seams, may have different textures (id. ¶ 117).
These arguments and testimony seem inconsistent with Petitioner’s position
37

IPR2016-00921
Patent 7,814,598 B2
that either the finished garments or garment sections are the “textile
element” recited in the challenged claims and that, in claims 4 and 11, “the
textile element [includes] a first area and a second area with a unitary
construction.” See Tr. 16:17–17:12. These apparent inconsistencies are not
explained.
Alternatively, Petitioner argues (Pet. 22) and Mr. Holden testifies (Ex.
1003 ¶¶ 118–121) that the limitations of claims 4 and 11 are taught by
Nishida. In particular, Mr. Holden testifies that Nishida describes that, “in
the embodiment according to FIGS. 1 and 2, with layout 2 on the web of
material 1, areas 26 and 27 are produced in a configuration, color or style
that is different from the other areas.” Id. ¶ 118 (quoting Ex. 1009, 4:6–9
(emphasis added by declarant)). Mr. Holden concludes from his analysis of
Nishida that “[a] person of ordinary skill in the art at least as of March 3,
2004 would have understood that Nishida’s disclosure regarding varying the
knit of individual areas would include having a substantially smooth texture
in one area, and a rougher texture in another area.” Id. ¶ 121. What
Mr. Holden fails to explain, however, is how and why this teaching of
Nishida is combined with the teachings of the relied upon embodiments of
Reed to achieve the methods recited in claims 4 and 11. Petitioner and its
declarant rely instead on the general arguments presented in connection with
independent claims 1 and 9 regarding reasons to combine the teachings of
Reed and Nishida. Pet. 12–14; Ex. 1003 ¶¶ 131–137. Given the language of
the claims, our interpretation of that language, and the teachings of Reed and
Nishida, we find Petitioner’s arguments and evidence, especially
Mr. Holden’s testimony, insufficient and unpersuasive.

38

IPR2016-00921
Patent 7,814,598 B2
Consequently, having weighed Petitioner’s evidence of reasons to
combine the teachings of Reed and Nishida, noting the deficiencies in
Mr. Holden’s analysis in support of those reasons, we are not persuaded that
Petitioner has demonstrated by a preponderance of the evidence that a
person of ordinary skill in art would have had reason to combine the
teachings of Reed and Nishida to achieve the methods recited in the
challenged claims.
ii.

Combined Teachings of Reed and Nishida Render Reed
Inoperable for its Intended Purpose

As our reviewing court has explained,
“obviousness is a question of law based on several underlying
factual findings,” including what a reference teaches, and
whether proposed modifications would change a reference’s
“principle of operation.” Where “a patent claims a structure
already known in the prior art that is altered by the mere
substitution of one element for another known in the field, the
combination must do more than yield predictable results.”
{ "pageset": "S74a
However, combinations that change the “basic
principles under which the [prior art] as designed to
operate,”
or that render the prior art “inoperable
for its intended purpose,” may fail to support a conclusion of
obviousness.
Plas-Pak Industries, Inc. v. Sulzer Mixpac AG, 600 F. App’x 755, 757–758
(Fed. Cir. 2015) (citations omitted, emphasis added).
As noted above, we find that the fundamental purpose of Reed’s
methods is to produce pre-seamed, finished garments or sections of
garments. E.g., Ex. 1006, 1:58–64, 3:8–21, 5:67–6:17; see supra Section
II.C.2. As Reed explains, “[t]he essence of the present invention is a
garment formed of juxtaposed sections of simultaneously knitted, concentric
tubes interconnected by knitting.” Ex. 1006, 6:25–28 (emphases added). As
39

IPR2016-00921
Patent 7,814,598 B2
we also note above, the methods recited in challenged claims 1–3, 5–10, 12,
and 13 do not specify whether or not the textile elements are pre-seamed.
Thus, we interpret those claims broadly to cover both pre-seamed and
unseamed textile elements.
As discussed above, however, claims 4 and 11 are interpreted to
describe “a unitary construction,” which does not include seams. See supra
Section II.B.1. Thus, “a unitary construction” does not appear to read on
Reed’s pre-seamed, finished garment or garment section. Further, Petitioner
does not argue that, like Reed, Nishida teaches pre-seamed uppers or
sections of uppers or tongues. Consequently, we determine that, relying on
Nishida’s teachings to supply the “unitary construction” limitation with
respect to claims 4 and 11 in the context of the teachings of Reed, as
Petitioner suggests (Pet. 22), would require the alteration of the principles of
operation of Reed or would render Reed inoperable for its intended purpose.
In response to Patent Owner’s contention that Petitioner’s
combination of the teachings of Reed and Nishida renders Reed inoperable
for its intended purpose, Petitioner argues that a person of ordinary skill in
the art would understand that
[t]o produce two single-layer layouts, the POSITA would
simply cut along the garment side of stitches 22, 24
(highlighted in red below) so that all seams remain with the
surrounding tube material, and the two layouts are no longer
connected to each other after removal from the tubes 12, 14.
Reply 18–19 (citing Ex. 1006, 3:9–15, 5:67–6:3; Ex. 1003 ¶¶ 103, 112). In
particular, Petitioner produces the following annotated version of Reed’s
Figure 1.

40

IPR2016-00921
Patent 7,814,598 B2

Reply 19. Petitioner has annotated Reed’s Figure 1 to add red lines
indicating cut lines on the garment inside of stitches 22, 24. As depicted in
annotated Figure 1, Petitioner argues that the finished garments or garment
sections could be cut from the textile structure inside of the seams, as
indicated by the red lines. Id. According to Petitioner, “[t]he two separated
layouts are then processed and seamed along the edges, as described in both
Reed and Nishida.” Id. (emphasis added). Nevertheless, Petitioner provides
no explanation of why a person of ordinary skill in the art would have reason
to seam the garments or garment sections, only then to remove the seams, so
that the garments or garment sections could be reseamed later. Id. at 18–19;
see Tr. 59:21–60:12, 68:20–70:21.12 We find these arguments contrary to
the teachings of Reed and unpersuasive.
12

Petitioner’s counsel argue that Reed’s seams may be used as an outline,
but we do not find that Reed teaches that cuts are taught inside the outline to
remove the seam from the garment section. Ex. 1006, 3:9–12
(Interconnected knitted stitches form both an outline and a seam joining the
inner and outer tubes.); see Tr. 70:2–21. Cutting inside the seams of a
finished garment would change a finished garment into an unfinished
garment or a seamed garment section into an unseamed garment section and
41

IPR2016-00921
Patent 7,814,598 B2
Consequently, with respect to challenged claims 4 and 11, we find
that Petitioner’s proposed combination of the teachings of Reed and Nishida
would render Reed either inoperable or unsuitable for its intended purpose.
Thus, we are not persuaded that Petitioner has demonstrated by a
preponderance of the evidence that a person of ordinary skill in art would
have had reason to combine the teachings of Reed and Nishida to achieve
the methods recited in challenged claims 4 and 11.
6. Summary
Based on our review of the arguments and evidence presented by each
party, we conclude that Petitioner fails to demonstrate by a preponderance of
the evidence that either of independent claims 1 and 9 is unpatentable as
rendered obvious by the combined teachings of Reed and Nishida.
Moreover, at least because Petitioner’s arguments for the obviousness of
dependent claims 2–8 and 10–13 over Reed and Nishida rely on the
arguments and evidence presented with respect to independent claims 1 and
9, we also conclude that Petitioner fails to demonstrate by a preponderance
of the evidence that any of the dependent claims is unpatentable as rendered
obvious by the combined teachings of Reed and Nishida. We further
determine that for the additional reasons set forth above, Petitioner fails to
demonstrate by a preponderance of the evidence that claims 4 and 11 are
rendered obvious by the combined teachings of Reed and Nishida.13

would appear entirely contrary to the teachings of Reed. See Ex. 1006,
3:15–21.
13

Patent Owner also contends that Reed teaches away from its combination
with Nishida (PO Resp. 42–44; but see Reply 19–20), in view of our
determinations above, we need not reach this contention.
42

IPR2016-00921
Patent 7,814,598 B2
III. SUMMARY
We are not persuaded that Petitioner demonstrates by a preponderance
of the evidence that any of claims 1–13 of the ’598 patent is rendered
obvious over the combined teachings of Reed and Nishida.
IV. ORDER
It is, therefore,
ORDERED that, pursuant to 35 U.S.C. § 318(a), Petitioner fails to
demonstrate by a preponderance of the evidence that any of claims 1–13 is
unpatentable as rendered obvious over the combined teachings of Reed and
Nishida; and
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.

43

Trials@uspto.gov
571-272-7822

Paper 21
Entered: October 19, 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
_____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
adidas AG,
Petitioner,
v.
NIKE, Inc.,
Patent Owner.
____________
Case IPR2016-00921
Patent 7,814,598 B2
____________

Before JOSIAH C. COCKS, MICHAEL J. FITZPATRICK, and
JAMES B. ARPIN, Administrative Patent Judges.
FITZPATRICK, Administrative Patent Judge, concurring.
I concur with the majority’s decision that Petitioner did not meet its
burden under 35 U.S.C. § 318(a) to prove by a preponderance of the
evidence that the challenged claims are unpatentable. I would reach that
decision, however, merely for the reasons set forth below.

IPR2016-00921
Patent 7,814,598 B2
Reed did not invent circular knitting. Reed notes that “[c]ircular
knitting machines have been used to make tubular, knitted garments, such as
ladies’ stockings, sweaters and other garments.” Ex. 1006, 1:33–35. Reed
explained further that “[i]n these tubular garments, the user’s anatomy is in
the center of the single tube.” Id. at 1:35–37. Reed further explained that
circular double knitting, in which two tubes or layers are simultaneously
knitted, was also known in the prior art. Id. at 1:37–39 (“‘Two tube,’
‘double layer,’ ‘Bi-knit’ and ‘duo-fold’ fabrics have been produced on
circular knitting machines.”). As with circular knit single-tube garments, the
tubes of circular knit double-tube garments surrounded the anatomy of the
user. Id. at 1:39–44.
What Reed invented was circular double knitting of garments in
which “the anatomy of the user would fit between the single knitted fabrics
instead of in the center of the tubes.” Id. at 1:67–2:1. Figure 1 of Reed is
reproduced below.

2

IPR2016-00921
Patent 7,814,598 B2
Figure 1 of Reed, reproduced above, shows a doubled-layered tube of
knitted structure 10 as it would come off a circular knitting machine in
accordance with a preferred embodiment of Reed. Id. at 2:66–3:3. “[T]ubes
12 and 14 are simultaneously knitted concentrically on a circular double knit
machine.” Id. at 3:3–5. The tubes are stitched together along
interconnecting knitting 22, thereby forming the outline of three skirts 16,
18, and 20 that are subsequently cut out from the knitted structure. 14 Id. at
3:8–21. Reed explains:
[T]he knitted structure 10 includes (around its circumference) a
plurality of finished garments [i.e., three skirts] which need
only be severed from the structure 10 and turned inside out if a
hidden seam is desired. Only a minimum amount of additional
sewing is required to form hems and attach various decorative
ornaments to complete a finished garment.
Id. at 3:15–21. Reed states that its invention “produce[s] a preformed and
preseamed fabric on a circular knitting machine so as to reduce time, cost
and labor involved in making garments.” Id. at 6:20–22.
As stated in the majority opinion, Nishida is directed to the production
of a shoe upper by (1) cutting out a layout in the form of the shoe upper from
a web of material and (2) shaping the shoe upper by connecting material
parts of the layout by the formation of seams. See Ex. 1009, Abstract; see
also id. at Fig. 2 (illustrating layout of shoe upper on web of material).
Petitioner argues the following:
Reed’s explicit statement that “[t]he present invention
may be used to form all types of garments worn by men,
women and children” (Reed, 5:56–57) in combination with
14

The tubes also are stitched together along interconnecting knitting 24, but
that “is merely to define the lower outline of the skirt upon which the pattern
may be cut.” Ex. 1006, 3:12–15.
3

IPR2016-00921
Patent 7,814,598 B2
Reed’s explicit reference to the fact that footwear items, such as
stockings, were conventionally knit with circular knitting
machines (Reed, 1:33–44), would have suggested to a person of
ordinary skill in the relevant art at least as of March 3, 2004,
that Reed’s process could be used to form all types of articles of
clothing including footwear, particularly since clothing is
understood to refer to all things that people wear to cover their
bodies. (Ex. 1003, ¶131.)
With this understanding, the skilled person would have
been motivated to use Reed’s process to produce textile
elements for all types of clothing, including forming textile
elements to be incorporated into footwear as described in
Nishida. (Ex. 1003, ¶132.)
With this understanding, the skilled person would have
been motivated to use Reed’s process to produce textile
elements for all types of clothing, including forming textile
elements to be incorporated into footwear as described in
Nishida. (Ex. 1003, ¶132.)
Pet. 12–13.
Petitioner’s reasons to combine the prior art teachings are not
persuasive. It is true that Reed states that its invention “may be used to form
all types of garments,” but that does not mean Reed provides a reason to use
it in forming any specific type of garment, let alone part of a shoe.
Petitioner attempts to provide such a reason by relying, not on a stated
purpose of Reed’s invention (which is what Petitioner asserts in its
obviousness challenge), but rather on what circular knitting machines
traditionally had been used for prior to Reed’s invention. See Pet. 12. More
specifically, Petitioner relies on Reed’s statement that, prior to Reed, circular
knitting machines were used “to make tubular, knitted garments, such as
ladies’ stockings, sweaters and other garments.” Ex. 1006, 1:33–35
(emphasis added); see also Pet. 12 (referring to “stockings” and citing
4

IPR2016-00921
Patent 7,814,598 B2
Ex. 1006, 1:33–44). Petitioner extrapolates Reed’s reference to “stockings”
to footwear and then further to an upper of a shoe. However, there is an
evidentiary gap jumping from “stockings” to footwear and an additional
evidentiary gap subsequently jumping from footwear generally to a shoe’s
upper specifically. The cited testimony of Petitioner’s declarant does not fill
those gaps. It is merely repetitive of the arguments block-quoted above.
Compare Pet. 12–13, with Ex. 1003 ¶¶ 131–33.
Nor could I fill those gaps if I wanted. To summarize Reed, it:
(1) acknowledges that circular knitting of tubular garments in which the
anatomy is placed inside a resulting tube of knitted structure was known
prior to Reed; and (2) describes its invention of double circular knitting
garments in which the anatomy is placed between layers of the resulting
tube. See, e.g., Ex. 1006, 3:25–31. Nishida’s upper (see, e.g., Ex. 1009, Fig.
2) is neither a “tubular garment” that could be made using a pre-Reed
circular knitting method (see Ex. 1006, 1:33–37) nor a garment that could be
“produce[d as] a preformed and preseamed fabric on a circular knitting
machine” using Reed’s invented method (see id. at 6:20–22).
For these reasons, I concur with the majority’s decision that Petitioner
did not meet its burden under 35 U.S.C. § 318(a) to prove by a
preponderance of the evidence that the challenged claims are unpatentable.

5

IPR2016-00921
Patent 7,814,598 B2
PETITIONER:
Mitchell G. Stockwell
Vaibhav P. Kadaba
Tiffany L. Williams
KILPATRICK TOWNSEND & STOCKTON LLP
mstockwell@kilpatricktownsend.com
wkadaba@kilpatricktownsend.com
tiwilliams@kilpatricktownsend.com
PATENT OWNER:
Christopher J. Renk
Michael J. Harris
BANNER & WITCOFF, LTD
crenk@bannerwitcoff.com
mharris@bannerwitcoff.com
bwlitdocket@bannerwitcoff.com

6

APPENDIX F

Trials@uspto.gov
571-272-7822

Paper 21
Entered: October 19, 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
_____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
adidas AG,
Petitioner,
v.
NIKE, Inc.,
Patent Owner.
____________
Case IPR2016-00922
Patent 8,266,749 B2
____________

Before JOSIAH C. COCKS, MICHAEL J. FITZPATRICK, and
JAMES B. ARPIN, Administrative Patent Judges.
Opinion for the Board filed by Administrative Patent Judge ARPIN.
Opinion Concurring by Administrative Patent Judge FITZPATRICK.
ARPIN, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73

IPR2016-00922
Patent 8,266,749 B2
I.

BACKGROUND

adidas AG (“Petitioner”) filed a Petition pursuant to 35 U.S.C.
§§ 311–319 to institute an inter partes review of claims 1–9, 11–19, and 21
of U.S. Patent No. 8,266,749 B2 (Ex. 1001, “the ’749 patent”).1 Paper 2
(“Pet.”). Nike, Inc. (“Patent Owner”) did not file a Preliminary Response. 2
Applying the standard set forth in 35 U.S.C. § 314(a), which requires
demonstration of a reasonable likelihood that Petitioner would prevail with
respect to at least one challenged claim, we instituted an inter partes review
of claims 1–9, 11–19, and 21 of the ’749 patent. Paper 6 (“Inst. Dec.”), 23.
After institution, Patent Owner filed a Patent Owner Response to the
Petition (Paper 9 (“PO Resp.”)), and Petitioner replied (Paper 10
(“Reply”)). 3 Each party requested an oral hearing (Papers 15 and 16); and

1

Petitioner identifies adidas International B.V.; adidas North America, Inc.;
adidas America, Inc.; and adidas International, Inc., as real parties-ininterest. Pet. 1.
2
3

Patent Owner identifies only itself, as a real party-in-interest. Paper 5, 2.

Patent Owner filed objections to the admissibility of some of Petitioner’s
evidence. Paper 12. Petitioner served – and improperly filed –
supplemental evidence in response to Patent Owner’s objections. Paper 13;
Ex. 1015; 37 C.F.R. § 42.64(c); see 37 C.F.R. § 42.64(b)(2) (“The party
relying on evidence to which an objection is timely served may respond to
the objection by serving supplemental evidence within ten business days of
service of the objection.” (emphasis added)); GoPro, Inc. v. Contour IP
Holding LLC, Case IPR2015-01078, slip op. at 2–3 (PTAB Apr. 7, 2016)
(Paper 40) (“If the supplemental evidence does not cure the objection and
the opposing party files a motion to exclude, the submitting party may file
the supplemental evidence with its opposition to the motion to exclude.”).
Ultimately, Patent Owner did not file a motion to exclude, and, therefore,
Patent Owner did not preserve its objections. 37 C.F.R. § 42.64(c).
Regardless, Exhibit 1015 is expunged because we did not authorize its filing.
2

IPR2016-00922
Patent 8,266,749 B2
we held a consolidated oral hearing with Case IPR2016-00921 on July 12,
2017. A transcript of that hearing is of record in this case. Paper 20 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6, and this Final Written
Decision, issued pursuant to 35 U.S.C. § 318(a) and 37 C.F.R. § 42.73,
addresses issues and arguments raised during the review. For the reasons
discussed below, we determine that Petitioner has not met its burden to
prove, by a preponderance of the evidence, that claims 1–9, 11–19, and 21 of
the ’749 patent are unpatentable on the ground upon which we instituted
inter partes review.
A. The ’749 Patent
The ’749 patent claims priority from U.S. Patent Application No.
10/791,289, filed on March 3, 2004, now issued as U.S. Patent No.
7,347,011 B2 (“the ’011 patent”) (Ex. 1001 at (60)) and relates to articles of
footwear incorporating an upper that is at least partially formed from a
textile material (id. at 1:20–23). Conventional articles of athletic footwear
may include two primary elements: an upper and a sole structure. Id. at
1:25–28. The upper may form a void in the interior of the footwear for
receiving a wearer’s foot, and the upper may extend over the instep and toe
areas, along the medial and lateral sides, and around the heel area of the
wearer’s foot. Id. at 1:42–47.
In particular, the Specification describes articles of footwear having
an upper incorporating a knitted textile element and having a sole structure
secured to the upper. Id. at 3:27–33. Methods for manufacturing an article
of footwear include “mechanically-manipulating a yarn with a circular
knitting machine, for example, to form a cylindrical textile structure. In
addition, the method involves removing at least one textile element from the
3

IPR2016-00922
Patent 8,266,749 B2
textile structure, and incorporating the textile element into an upper of the
article of footwear.” Id. at 3:41–46.
Figure 9 of the ’749 patent is reproduced below.

Figure 9 depicts textile structure 60 formed on a circular knitting
machine. Id. at 7:38–39. For example,
[a] suitable knitting machine for forming textile element 40 is a
wide-tube circular knitting machine that is produced in the
Lonati Group by Santoni S.p.A. of Italy under the SM8 TOP1
model number. This Santoni S.p.A. wide-tube circular knitting
machine may form a textile structure having a diameter that
ranges from 10 inches to 20 inches, with 8 feeds for each
diameter.
Id. at 7:14–20. As discussed below, the types of stitches that form textile
structure 60 may be varied to form an outline of one or more textile
elements 40 on textile structure 60. Id. at 7:64–8:3. In particular, as
depicted in Figure 9, the outlines for at least two textile elements 40 may be
formed on textile structure 60. Id. at 7:53–54.
4

IPR2016-00922
Patent 8,266,749 B2
Figure 8 of the ’749 patent is reproduced below.

Figure 8 depicts an embodiment of an upper according to the ’749
patent. Id. at 5:59–6:64. “Textile element 40 is a single material element
that is formed to exhibit a unitary (i.e., one-piece) construction, and textile
element 40 is formed or otherwise shaped to extend around the foot.” Id. at
5:40–43; see also id. at Figs. 10 (depicting textile element 40ʹ), 11 (depicting
textile element 40ʺ). In particular,
Textile element 40 is a single material element with a
unitary construction, as discussed above. As defined for
purposes of the present invention, unitary construction is
intended to express a configuration wherein portions of a textile
element are not joined together by seams or other connections,
as depicted with textile element 40 in FIG. 8. Although the
various edges 41a-44d are joined together to form seams 51-54,
5

IPR2016-00922
Patent 8,266,749 B2
the various portions of textile element 40 are formed as [a]
unitary element without seams . . . .
Id. at 6:41–50 (emphases added). Consequently, textile element 40 is
formed, such that portions of the textile element are not joined together with
seams or other connections. Id. at 5:40–43. Edges 41a–44d are joined
together as shown in Figures 3–5 to form seams 51–54, thereby forming at
least a portion of a void for receiving the foot. Id. at 6:41–50. In contrast,
lateral region 31, medial region 32, instep region 33, lower regions 34, and
heel regions 35 together have a unitary construction without seams (id. at
5:46–58, 6:47–50). Referring to Figure 9,
a first textile element 40 and a second textile element 40 may be
simultaneously formed in a single textile structure 60. As the
diameter of textile element 60 is increased or the width of
textile element 40 decreases, however, an even greater number
of textile elements 40 may be outlined on textile structure 60.
Id. at 7:58–63 (emphasis added).
Figure 11 of the ’749 patent is reproduced below.

6

IPR2016-00922
Patent 8,266,749 B2

Figure 11 depicts another embodiment of an upper according to the
’749 patent. Id. at 9:29–10:7. Textile element 40ʺ includes three different
areas with three different textures. Id. at 9:31–32. First texture 46ʺ is
generally smooth and extends in strips across lateral region 31, medial
region 32, and instep region 33 of the upper. Id. at 9:32–35. In addition,
textile element 40ʺ includes second texture 47ʺ and third texture 48ʺ. Id. at
9:32–35. Moreover, the Specification of the ’749 patent describes that:
The different textures 46ʺ-48ʺ are formed by merely varying the
type of stitch formed by the wide-tube circular knitting machine
at each location of textile element 40ʺ. Textures 46ʺ-48ʺ may
exhibit aesthetic differences, or the differences may be
structural. . . . The air-permeability of textile element 40ʺ may
also vary in the different areas.
Id. at 9:39–47 (emphasis added).

7

IPR2016-00922
Patent 8,266,749 B2
B. Illustrative Claim
Claims 1 and 13 are independent, method claims. Claims 2–9, 11, and
12 depend directly or indirectly from claim 1, and claims 14–19 and 21
depend directly or indirectly from claim 13. Claims 1 and 11 are illustrative
of the claims at issue and are reproduced below:
1. A method of manufacturing an article of footwear, the
method comprising:
simultaneously knitting a textile element with a surrounding
textile structure, the knitted textile element having at least one
knitted texture that differs from a knitted texture in the
surrounding knitted textile structure;
removing the knitted textile element from the surrounding
knitted textile structure;
incorporating the knitted textile element into the article of
footwear.
11. The method of claim 1, wherein simultaneously knitting
a textile element with a surrounding textile structure includes
forming the knitted textile element to include a first area and a
second area with a unitary construction, the first area being
formed of a first stitch configuration, and the second area being
formed of a second stitch configuration that is different from
the first stitch configuration to impart varying textures to a
surface of the knitted textile element.
Id. at 11:43–52 (claim 1), 12:14–21 (claim 11).
C. Related Proceedings
Neither party identifies any related litigation. Pet. 1; Paper 5, 2. As
discussed above, the ’749 patent is a continuation of the application that
issued as the ’011 patent, which is the subject of IPR2013-00067. Pet. 1. In
that case, the panel instituted inter partes review of claims 1–46 of the
’011 patent, and Patent Owner requested cancellation of claims 1–46 and
8

IPR2016-00922
Patent 8,266,749 B2
proposed substitute claims 47–50 in a Motion to Amend. The panel granted
Patent Owner’s request to cancel claims 1–46, but denied Patent Owner’s
request as to the substitute claims. Patent Owner appealed the Board’s
decision to the U.S. Court of Appeals for the Federal Circuit (the “Federal
Circuit”). The Federal Circuit issued a decision in Patent Owner’s appeal on
February 11, 2016, which affirmed-in-part and vacated-in-part the Board’s
decision, and remanded the case to the Board for further proceedings
regarding the status of the substitute claims. Nike, Inc. v. adidas AG, 812
F.3d 1326, 1329 (Fed. Cir. 2016). The Federal Circuit issued its mandate in
that case on April 4, 2016. In addition, Petitioner has requested inter partes
review of claims of related patents in IPR2016-00920 (U.S. Patent No.
8,042,288 B2), institution denied, and IPR2016-00921 (U.S. Patent No.
8,266,749 B2), institution granted. Paper 5, 2.
D. Applied References and Declaration
Petitioner relies on the following references and declaration in support
of its asserted ground of unpatentability:
Exhibit
1003
1006
1009
1010

1012

References and Declaration
Declaration of Mr. Lenny M. Holden
U.S. Patent No. 3,985,003 to Reed, issued Oct. 12, 1976
(“Reed”)
U.S. Patent No. 5,345,638 to Nishida, issued Sept. 13, 1994
(“Nishida”)
David J. Spencer, Knitting technology: a comprehensive
handbook and practical guide, 1–413 (2001) (3rd Ed.,
Woodhead Publ. Ltd.) (“Spencer”)
International Standard, Textile machinery — Knitting
machines — Nominal diameters of circular machines, 1–6
(2003) (2nd Ed., ISO 8117:2003(E)) (“ISO 8117”)

Pet. iv.
9

IPR2016-00922
Patent 8,266,749 B2
E. Instituted Ground of Unpatentability
We instituted review on the following ground of unpatentability:
References
Reed and Nishida

Basis
35 U.S.C. § 103(a)

Challenged Claims
1–9, 11–19, and 21

Pet. 7.
II. ANALYSIS
A. Person of Ordinary Skill in the Art
Petitioner argues that a person of ordinary skill in the relevant art
would have at least a few years of experience in the footwear industry, a
broad understanding of shoemaking, and an understanding of (1) the product
cycle for the process of designing, developing and bringing a new product to
market; (2) milestones for reviewing upper material designs; (3) the
available and varied ranges of typical construction methods within a
product cycle; and (4) the functional requirements of footwear and the range
of material choices available. Pet. 8 (citing Ex. 1003 ¶ 34). Patent Owner
contests Petitioner’s assessment of the level of ordinary skill in the relevant
art, but does not propose an alternative assessment. PO Resp. 17–19.
Initially, Patent Owner contends that Petitioner has failed to consider
appropriate factors identified by our reviewing court and utilized by other
panels to assess the level of ordinary skill in the art. Id. at 17–18. We agree
with Petitioner that it is not necessary to consider every factor or to weigh
the factors equally in order to assess the level of ordinary skill in the art.
Reply 2 (quoting In re GPAC Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995)).
Here, we may rely on Petitioner’s declarant’s testimony (Ex. 1003 ¶ 34) and
the teachings of the prior art to evaluate Petitioner’s assessment of the level
10

IPR2016-00922
Patent 8,266,749 B2
of ordinary skill in the art. Okajima v. Bourdeau, 261 F.3d 1350, 1355 (Fed.
Cir. 2001). In particular, Reed and Nishida identify the types of problems
encountered in the art prior art solutions to these problems, and the
sophistication of the technology. E.g., Ex. 1006, 1:13–55; Ex. 1009, 1:10–
36; see, e.g., Ex. 1007, 1:8–32, 2:12–64; Ex. 1008, 1:11–54; Ex. 1010, 145–
160; see also Ex. 1010, Preface (“The aim of this book is to combine in a
single volume the fundamental principles of weft and warp knitting in such a
manner that its contents are useful to readers in education, industry or
commerce. It thus [fulfills] the long felt need for a comprehensive up-todate textbook explaining this important sector of textile technology.”).
Patent Owner contends that the level of ordinary skill in the art is
“low” (PO Resp. 17–18), but it is not clear whether Patent Owner further
contends that Petitioner’s assessment is deficient because Petitioner fails to
argue that a person possessing such a “low” level of ordinary skill in the art
also would have “experience using knitting technologies to create knitted
footwear uppers” (id. at 18–19) or whether the inclusion of such skill would
raise the “low” level of skill in the art (id. at 19). Alternatively, Patent
Owner may merely be contending that Petitioner’s declarant fails to qualify
as a person of ordinary skill in the art. Id. at 19 (“If it was too ‘dangerous’
for Mr. Holden with his nearly forty years of experience, a person with just a
‘few years of experience’ would not have had any knitting experience, let
alone experience using knitting technologies to create uppers.”); see Tr.
62:17–22. Patent Owner is not required to help us assess the level of
ordinary skill in the art and does not do so here. See PO Resp. 22
(“Petitioner may criticize NIKE for not submitting an expert declaration.

11

IPR2016-00922
Patent 8,266,749 B2
But it is Petitioner’s burden to prove unpatentability; it is not NIKE’s burden
to prove patentability.”).
In response to Patent Owner’s contentions, Petitioner argues that the
level of ordinary skill in the art is not low and that hands-on knitting
experience is not required. Reply 2–3. Petitioner further argues Patent
Owner has not required knitting experience in its previous assessment with
respect to a related patent of the level of ordinary skill in the art. Id. at 2
(citing IPR2013-00067, Ex. 2010 ¶ 52). Based on the record before us and
to the extent necessary, we again adopt Petitioner’s assessment of a person
of ordinary skill in the relevant art. Inst. Dec. 8 n.3.
B. Claim Construction
In an inter partes review, claim terms in an unexpired patent are
construed according to their broadest reasonable interpretation in light of the
specification of the patent in which they appear. 37 C.F.R. § 42.100(b).
Under that standard, claim terms are given their ordinary and customary
meaning, as would be understood by one of ordinary skill in the art in the
context of the entire disclosure. In re Translogic Tech., Inc., 504 F.3d 1249,
1257 (Fed. Cir. 2007). The following four claim terms are at issue in this
proceeding.
1. “a first area and a second area with a unitary construction”
(Claims 11 and 21)
Petitioner argues that the term “a first area and a second area with a
unitary construction” means “a textile element having a unitary construction
and having a first area and a second area.” Pet. 6. As Petitioner notes, this
is the construction that this panel gave to the same term appearing in the
substitute claims of the ’011 patent. adidas AG v. Nike, Inc., Case IPR201312

IPR2016-00922
Patent 8,266,749 B2
00067, slip op. at 16–17 (PTAB Apr. 28, 2014) (Paper 60). We further note
that the ’749 patent’s Specification provides that “[a]s defined for purposes
of the present invention, unitary construction is intended to express a
configuration wherein portions of a textile element are not joined together
by seams or other connections, as depicted with textile element 40 in FIG.
8.” Ex. 1001, 6:42–46 (emphasis added); see IPR2013-00067, Ex. 1002,
6:41–46 (identical disclosure). The ’011 patent and the ’749 patent share the
same Specification (apart from their claims), neither party contested our
construction of this term in the appeal of our decision in the inter partes
review of the claims of the ’011 patent, and Patent Owner does not contest
Petitioner’s proposed construction of this term in this proceeding.
Therefore, in view of the express definition of the phrase “unitary
construction” in the Specification of the ’749 patent, we adopt Petitioner’s
proposed construction as the broadest reasonable interpretation for this term.
See Tr. 20:5–13, 37:11–17.
2. “wide-tube circular knitting machine” (Claims 9 and 19)
We determine that the broadest reasonable interpretation of the term
“wide-tube circular knitting machine” is “a circular knitting machine
forming body garment sized, tubular textile structures, including those
having a diameter that ranges from 10 inches to 20 inches.” See Inst. Dec.
9–11. Neither party contests this construction. See Tr. 20:5–13, 37:11–17.
3. “impart” (claims 11 and 21) and “texture” (claims 8, 11,
and 21)
During the course of the review, the parties raised issues regarding the
construction of two additional terms that appear only in the challenged
dependent claims. First, Petitioner argues that the term “impart” means “to
13

IPR2016-00922
Patent 8,266,749 B2
give, convey, or grant from.” Reply 24 (citing Ex. 1014).4 Further,
Petitioner argues that this definition is consistent with the use of the word
“impart” in the Specification of the ’749 patent. E.g., Ex. 1001, Abstract,
1:30–35, 1:60–63, 1:65–2:3, 3:33–37, 7:35–37; see Tr. 21:4–14. Patent
Owner does not propose an alternative construction for the term “impart.”
Further, neither party argues that the term “impart” carries special meaning
in the relevant art. In fact, we find Spencer’s use of the word “impart” in the
handbook on knitting technology consistent with Petitioner’s dictionary
definition and the word’s use in the Specification of the ’749 patent. See
Ex. 1010, 189. Thus, to the extent any construction of this term is necessary,
we find that the broadest reasonable interpretation of the term “impart” is “to
give, convey, or grant from.” See Summit 6, LLC v. Samsung Elecs. Co.,
802 F.3d 1283, 1291 (Fed. Cir. 2015) (“[E]ach [term] is used in common
parlance and has no special meaning in the art. Because the plain and
ordinary meaning of the disputed claim language is clear, the district court
did not err by declining to construe the claim term.”).
Second, although Petitioner does not provide an express interpretation
for the term “texture,” 5 Petitioner’s declarant testifies “texture” “generally
4

Petitioner relies on a definition of “impart” from a current, on-line
dictionary rather than from a dictionary contemporaneous with the effective
filing date of the ’749 patent. However, the record contains no suggestion
that the relevant definition of “impart” has changed since the effective filing
date of the ’749 patent, and we determine that it has not. See RANDOM
HOUSE WEBSTER’S COLLEGE DICTIONARY, 659 (2nd ed. 1999) (Ex. 3001)
(“impart” means “to give; bestow”).
5

A relevant dictionary definition of the word “texture” is “the characteristic
structure of the threads, fibers, etc., that make up a textile fabric: course
texture,” “a rough or grainy surface quality,” or “anything produced by
weaving; woven fabric.” Ex. 3001, 1351.
14

IPR2016-00922
Patent 8,266,749 B2
could be an actual texture or a perceived texture based on the arrangement of
colors in a pattern.” Reply 4–5 (citing Ex. 2004, 178:20–24; see also id. at
177:1–178:19, 178:25–184:11). Patent Owner disputes Mr. Holden’s
interpretation of “texture,” which appears inconsistent with Spencer’s
discussion of texture. See Ex. 2004, 80:24–81:8. In particular, according to
Spencer, “[c]olour is one of the five ingredients of fashion, the other four
being style, silhouette, texture and pattern.” Ex. 1010, 127 (emphasis
added). Thus, Spencer appears to distinguish between color and texture.
The Specification of the ’749 patent does not define “texture,” but
contrasts between “smooth” and “textured” areas of a textile element.
Ex. 1001, 9:23–24. Moreover, with respect to Figure 11, the Specification
of the ’749 patent explains that:
The different textures 46"-48" are formed by merely varying
the type of stitch formed by the wide-tube circular knitting
machine at each location of textile element 40". Textures 46"48" may exhibit aesthetic differences, or the differences may be
structural. For example, the degree of stretch in areas with
textures 46"-48" may be different, or the wear resistance of the
areas may vary depending upon the stitch utilized. The airpermeability of textile element 40" may also vary in the
different areas. Third texture 48" is formed to include a
plurality of apertures that extend through textile element 40".
The apertures may be formed by omitting stitches at specific
locations during the wide-tube circular knitting process, and the
apertures facilitate the transfer of air between the void within
upper 20 and the area outside of upper 20. Accordingly, the
various stitches formed in textile element 40", or one of textile
elements 40 or 40', may be utilized to vary the texture, physical
properties, or aesthetics of footwear 10 within a single, unitary
element of material.
Id. at 9:39–57 (emphasis added). From this explanation, we understand that
“texture,” as used in the ’749 patent, is distinguishable from the physical and
15

IPR2016-00922
Patent 8,266,749 B2
aesthetic properties of a textile element. According to the recitations of
claims 11 and 21, “texture” is produced as part of the step recited in claims 1
and 13 of “simultaneously knitting a textile element with a surrounding
textile structure.” See Ex. 1001, 11:45–46. Thus, to the extent any
construction of this term is necessary, we find that the broadest reasonable
interpretation of the term “texture” in the context of claims 11 and 21 is “a
non-smooth surface formed while simultaneously knitting a textile element
with a surrounding textile structure.” Such a surface may be created by
“varying the type of stitch formed by the wide-tube circular knitting machine
at each location of textile element.” Id. at 9:39–42.
4. Other Claim Terms
For purposes of this Final Written Decision, we discern no other claim
terms that require express interpretation.
C. Obviousness over Reed and Nishida
1. Overview
Petitioner argues that claims 1–9, 11–19, and 21 are unpatentable
under 35 U.S.C. § 103(a) as obvious over the combined teachings of Reed
and Nishida. To support its arguments, Petitioner provides a detailed
mapping of limitations of the challenged claims to Reed and Nishida.
Pet. 13–32. Petitioner also cites Mr. Holden’s Declaration for support. See
Ex. 1003 ¶¶ 91–138.
A patent claim is unpatentable under 35 U.S.C. § 103(a) if the
differences between the claimed subject matter and the prior art are “such
that the subject matter as a whole would have been obvious at the time the
invention was made to a person having ordinary skill in the art to which said
16

IPR2016-00922
Patent 8,266,749 B2
subject matter pertains.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406
(2007). The question of obviousness is resolved on the basis of underlying
factual determinations, including: (1) the scope and content of the prior art;
(2) any differences between the claimed subject matter and the prior art;
(3) the level of skill in the art;6 and (4) objective evidence of
nonobviousness, i.e., secondary considerations. 7 See Graham v. John Deere
Co., 383 U.S. 1, 17–18 (1966). On this record and for the reasons set forth
below, we are not persuaded that Petitioner demonstrates by a
preponderance of the evidence that claims 1–9, 11–19, and 21 of the ’749
patent are unpatentable as rendered obvious over the combined teachings of
Reed and Nishida.
2. Reed (Ex. 1006)
Reed is directed to a method of manufacturing a wearable item, which
includes, among other things, simultaneously knitting two concentric tubes
with a circular-knitting machine to form a cylindrical textile structure
(Ex. 1006, Abstract, 1:58–64, 2:22–25, 3:3–5), textile elements located in
different portions of the textile structure (id. at 2:29–31), removing the
textile elements from the textile structure (id. at 3:12–19, 5:67–6:5), and
incorporating the textile element(s) “to form all types of garments worn by
men, women and children” (id. at 5:56–58 (emphasis added); see id. at 1:33–

6

See supra Section II.A.; see also Ex. 1003 ¶ 36 (“Based on my experience,
I have an understanding of the capabilities of the skilled person in this field,
and my opinions are provided from the perspective of such a person.”).
7

The record lacks arguments or evidence of secondary considerations. See
generally PO Resp.
17

IPR2016-00922
Patent 8,266,749 B2
35).8 In particular, Reed describes methods of making preseamed garments
(id. at 3:8–21) or preseamed sections of a garment, which sections may be
seamed together “by standard practices” to form a garment (id. at 6:10–17).
As Reed explains,
From the preceding description of the preferred embodiments,
it is evident that the objects of the invention are obtained to
produce a preformed and preseamed fabric on a circular
knitting machine so as to reduce time, cost and labor involved
in making garments. The types of program used to form the
final product is to be varied with the imagination of the
programmer, as well as the type of product which may be
formed. The essence of the present invention is a garment
formed of juxtaposed sections of simultaneously knitted,
concentric tubes interconnected by knitting.
Id. at 6:18–28 (emphasis added).
Reed’s Figure 1 is reproduced below.

8

Patent Owner contends that Reed is not analogous art. PO Resp. 34–36. In
particular, Patent Owner contends that Reed is not from the same field of
endeavor as the challenged claims and that Reed’s teachings are not
reasonably pertinent to the particular problem with which the recited
methods are involved. Id. at 34–35. Because Reed is directed to the
manufacture of all types of garments, including footwear (Reply 12–13; see
Ex. 1006, 1:33–44), and Reed is related directly to preparation of garments
layouts from a knitted textile structure (Reply 14–15; see Ex. 1006, 2:29–
35), we are persuaded that Reed is analogous art to the challenged claims.
18

IPR2016-00922
Patent 8,266,749 B2

Figure 1 depicts tubular knitted structure 10, such as that produced by a
circular knitting machine. Id. at 2:66–3:1. Knitted structure 10 comprises
inner tube 12 and outer tube 14, and
[a]round the circumference of the knitted structure 10 are
illustrated three garments which, for example, may be skirts 16,
18 and 20.[9]
The garments 16, 18 and 20 are outlined by a plurality of
interconnecting knitted stitches 22 and 24. The interconnecting
knitting 22 not only forms the outline of the garments 16, 18
and 20, but joins the inner tube 12 to the outer tube 14 so as to
create a seam. The interconnecting knitting 24 is merely to
define the lower outline of the skirt upon which the pattern may
be cut.
Id. at 3:1–15 (emphasis added).
Reed explains that the use of circular knitting machines in the garment
industry historically was limited to making tubular, knitted garments, such
9

We are persuaded that “skirts” are “body garments.” See Ex. 1003 ¶ 97.
19

IPR2016-00922
Patent 8,266,749 B2
as ladies stockings, sweaters, and other garments, wherein the entire knitted
fabric was used as a unit to form one surface of a finished garment. Pet. 10–
11 (citing Ex. 1006, 1:33–44; Ex. 1003 ¶ 94); see supra Section II.C.1.
(note 6). Reed further teaches that “[c]omputer electronic knitting brought
about the possibilities of making patterns and designs of up to three million
stitches (previously approximately 50,000 was maximum). With this
system, patterns and designs are possible that before could not be made.”
Ex. 1006, 1:50–55; see Ex. 1003 ¶ 95. Reed states that its method uses “an
electronic circular double knitting machine” and that an “object of the
[Reed] invention is to provide a method of reducing the cost of
manufacturing of garments by using the versatility of a computerized
electronic knitting machine.” Ex. 1006, 1:58–59, 2:22–25, Figs 1–6; see
Ex. 1003 ¶ 95. Further, Reed teaches that:
If the present process is used to preform an exterior
decorative fabric having a lining or inner-lining or interfacing
attached thereto, the severed sections must be assembled and
seamed by standard practices. By providing the lining or
interfacing already attached to the section, a substantial amount
of time is saved in measuring, marking and cutting the original
fabric and lining or interlining as well as stitching them
together.
Ex. 1006, 6:10–17 (emphasis added).
3. Nishida (Ex. 1009)
Nishida is directed to the production of a shoe upper by (1) cutting out
a layout in the form of the shoe upper from a web of material and
(2) shaping the shoe upper by connecting material parts of the layout by the
formation of seams. See Ex. 1009, Abstract. By this process, such shoe

20

IPR2016-00922
Patent 8,266,749 B2
uppers may be produced efficiently and in reduced time despite the many
individual parts present or to be made visible. Id.
Figure 2 of Nishida is reproduced below.

Figure 2 illustrates an embodiment of the upper layout according to Nishida.
Id. at 3:6–12. Web of material 1 may include one or a plurality of layouts 2.
Further, web of material 1 includes backing 4 that may be a knitted material,
and different areas of layouts 2 may be formed by knitting different yarns or
fibers on backing 4. Id. at 3:15–26, 5:63–6:2. Moreover, Nishida’s web of
material 1 may be “knitted in two or more layers or can be especially thick
or additionally embroidered.” Id. at 3:66–4:1.
Consequently, web of material 1 may be used to produce layouts 2 by
different production measures, such as different styles, yarn material, color,
material thickness, number of layers of material, or the like, simultaneously
with the production of web of material 1. Id.; see id., Figs. 1, 2. Each
21

IPR2016-00922
Patent 8,266,749 B2
layout 2, including a sole part, may be cut from web of material 1 as a unit
and processed into an upper. Id. Nishida describes the manufacture of an
article of footwear incorporating such an upper. Id. at 3:9–12, Fig. 3.
Figure 4 of Nishida is reproduced below.

Figure 4 depicts a section of web of material 1 with radially symmetric
layout 2 having sole part sections 29.1 and 29.2 provided on opposite sides
of the upper, as well as tongue 40. Id. at 2:64–66. Nishida sets forth the
following in association with Figure 4:
[T]ongue 40, for example, according to FIG. 4, can be provided
also in the course of producing the web of material 1 with
different weave structures and/or weave patterns and/or
22

IPR2016-00922
Patent 8,266,749 B2
embroideries or with one or with several prints or the like. On
a web of material 1, different tongues 40 can be produced
corresponding to a shoe shape and/or a shoe size both in shape,
size, color or colors, patterns or the like. Preferably, in each
case, related tongues 40 are produced simultaneously with a
layout 2 on same web of material 1.
For optimum surface use of web of material 1, a tongue
40 can be produced in the open space 41 located between the
two layout sections 42 and 43, which later form the rear of foot
or heel-pan shoe part.
Preferably, each layout 2 has at least five, preferably
more than ten, patterns and a tongue 40 has at least two,
preferably at least three patterns produced or appearing, which
are different from one another in each case.
Id. at 5:27–44; cf. id., Fig. 2 (reproduced above, depicting web of material 1
including layouts 2 without tongues). Thus, as depicted in Figure 4, tongues
may be individual parts of an article of footware “produced separately and
applied to the upper later” and are of a relatively simply, substantially
rectangular shape. See Ex. 1009, 1:50–53 (describing the inclusion of a
tongue in a conventional article of footware). Tongues and uppers may be
taken from the same web of material or from different webs. See id. at 5:37–
40.10
4. Petitioner’s Arguments
Petitioner argues that Reed and Nishida teach or suggest all of the
limitations of claims 1–9, 11–19, and 21 of the ’749 patent. Pet. 9–32. In
particular, Petitioner argues that Reed and Nishida teach or suggest all of the

10

Although we find that Nishida teaches layouts both of an upper and of a
tongue, Petitioner does not argue that Nishida’s tongue layouts separately
teach textile elements that may be incorporated into an article of footwear.
See Pet. 16, 28; Ex. 1003 ¶ 86, App’x C (pg. 140).
23

IPR2016-00922
Patent 8,266,749 B2
limitations of each of independent claims 1 and 13. Id. at 13–19 (claim 1),
20–21 (claim 13).
a. Independent Claims 1 and 13
Independent claim 1 recites “[a] method of manufacturing an article of
footwear.” Ex. 1001, 11:43; see also id. at 12:27 (claim 13). Reed teaches
that its circular knitting methods may be used to manufacture “all types of
garments.” Ex. 1006, 5:56–57. Although Reed specifically identifies
stockings and hosiery (id. at 1:33–35, 5:57–58), e.g., footwear, as garments
manufactured by circular knitting, Reed does not describe shoes expressly as
“garments.” Nishida also teaches that the webs of material depicted in its
Figures 1 and 2 are “produced by a conventional textile process.” Ex. 1009,
3:6–7 (emphasis added). Thus, we are persuaded that Petitioner has shown
that Reed alone, as well as the combined teachings of Reed and Nishida,
teach or suggest a method of manufacturing an article of footwear.
The method of claim 1 further comprises the step of “simultaneously
knitting a textile element with a surrounding textile structure, the knitted
textile element having at least one knitted texture that differs from a knitted
texture in the surrounding knitted textile structure.” Ex. 1001, 11:45–48
(emphasis added). Similarly, claim 13 recites:
knitting a first textile element and a second textile
element simultaneously with knitting a surrounding textile
structure, the first knitted textile element located within a first
portion of the knitted textile structure, the second knitted textile
element located within a second portion of the knitted textile
structure,
varying at least one of the types of stitches or the types of
yarns in the knitted textile structure to impart a texture to the
first and second knitted textile elements different from a texture
24

IPR2016-00922
Patent 8,266,749 B2
of the knitted textile structure extending between the first and
second portions
Id. at 12:29–39 (emphasis added).
Reed teaches simultaneously knitting textile elements, including
producing body garments, such as skirts (see Ex. 1006 Fig. 2), shirts and
pants (see id. at Fig. 3), and dresses (see id. at Fig. 6), for men, women, and
children (id. at 5:56–57) with a surrounding textile structure. Pet. 14–15.
Reed further teaches simultaneously knitting textile elements, including
sections of garments having “an exterior decorative fabric having a lining or
inner-lining or interfacing attached thereto.” Ex. 1006, 6:10–12. As noted
above, Reed teaches that computerized knitting processes made possible
numerous stitch varieties. See id. at 1:50–59; Ex. 1003 ¶ 95. Nishida also
supplies this limitation. Pet. 14–15. Nishida’s Figure 2, reproduced above
(see supra Section II.C.3.) depicts textile elements, such as layouts 2, with a
surrounding textile structure, such as web of material 1.
Pet. 15–16; see Ex. 1009, 3:15–26. Moreover, as noted above,
[T]ongue 40, for example, according to FIG. 4, can be
provided also in the course of producing the web of material 1
with different weave structures and/or weave patterns and/or
embroideries or with one or with several prints or the like. On
a web of material 1, different tongues 40 can be produced
corresponding to a shoe shape and/or a shoe size both in shape,
size, color or colors, patterns or the like. Preferably, in each
case, related tongues 40 are produced simultaneously with a
layout 2 on same web of material 1.
...
Preferably, each layout 2 has at least five, preferably
more than ten, patterns and a tongue 40 has at least two,
preferably at least three patterns produced or appearing, which
are different from one another in each case.
25

IPR2016-00922
Patent 8,266,749 B2
Ex. 1009, 5:27–36, 41–44 (emphasis added). Thus, we determine that either
Reed or Nishida teaches “simultaneously knitting a textile element with a
surrounding textile structure” and “the first knitted textile element located
within a first portion of the knitted textile structure,” as recited in
independent claims 1 and 13, respectively.
With regard to the second part of this limitation of claims 1 and 13,
which Petitioner refers to as limitations 1C and 13C, Petitioner argues that:
Reed describes using different types of stitches or yarns to
impart a knitted texture to the textile element(s) that is different
from a knitted texture in the surrounding textile structure. For
example, Reed describes that the edges of the garments 16, 18,
20 are formed by interknitted stitches, whereas the remainder of
the garments 16, 18, 20 are formed by non-interknitted stitches.
. . . Because the interknitted stitches are part of the garments
16, 18, 20, they form a texture in the garments that is different
from the texture in the surrounding textile structure.
Pet. 16 (emphasis added; citing Ex. 1006, 5:3–18; Ex. 1003 ¶¶ 108,
109); see Ex. 1006, 6:10–17 (describing the knitting of garment sections).
Similarly, Petitioner argues that Nishida teaches that
“only just those parts of the web of material are produced in the
necessary quality, thickness, multilayers or the like which
correspond to the pattern or to an area of a pattern of the shoe
upper or the related shoe part. The remaining area of the web
of material in contrast can consist of a simple, lightweight or
inexpensive material quality, which holds together only the
patterns or areas of such patterns in the web of material after
their completion.”
Pet. 17 (emphasis added; quoting Ex. 1009, 2:12–20; citing Ex. 1003
¶¶ 110–111); see Ex.1009, 5:27–44 (describing the knitting of various
tongues). We determine that either Reed or Nishida teaches this second part
of the limitations of independent claims 1 and 13.
26

IPR2016-00922
Patent 8,266,749 B2
The method of claim 1 further comprises the step of “removing the
knitted textile element from the surrounding knitted textile structure.”
Ex. 1001, 11:49–50; see also id. at 12:40–41 (claim 13 recites “removing the
first and second knitted textile element from the knitted textile structure”).
We are persuaded based on the evidence cited in the Petition that Petitioner
has shown that the teachings of Reed or Nishida, alone or in combination,
teach or suggest this limitation of the independent claims. Pet. 18 (claim 1;
citing, e.g., Ex. 1006, 3:12–19; Ex. 1009, 1:10–18); id. at 21 (claim 13); see
Ex. 1003 ¶¶ 103–104.
Finally, the method of claim 1 comprises the step of “incorporating
the knitted textile element into the article of footwear.” Ex. 1001, 11:51–52
(emphases added); see id. at 12:42–43 (claim 13). Petitioner relies solely on
Nishida to supply this limitation, and argues that Nishida teaches this
limitation of the independent claims. Pet. 16 (claim 1), 20 (claim 13); see
Ex. 1003 ¶ 126. We agree.
Petitioner argues that a person of ordinary skill in the art would have
had reason to combine the identified teachings of Reed and Nishida to
achieve the methods recited in independent claims 1 and 13. Pet. 11–13. In
particular, Petitioner argues that, because Reed teaches that its methods are
applicable to “all types of garments” (Ex. 1006, 5:56–57 (emphasis added);
see Ex. 1003 ¶ 131), a person of ordinary skill in the art would have had
reason to apply the teachings of Reed to the processes and shoe parts of
Nishida. Pet. 12 (citing Ex. 1003 ¶ 133). Further, Petitioner argues that,
because both Reed and Nishida teach the advantages of reducing cost
through the use of computer-controlled knitting machines, a person of
ordinary skill in the art would have had reason to combine their teachings.
27

IPR2016-00922
Patent 8,266,749 B2
Id. at 13 (citing Ex. 1003 ¶¶ 134–135). Finally, Petitioner argues that a
person of ordinary skill in the art would have had reason to apply Reed’s
methods for producing textile elements, from which to produce garments, to
produce Nishida’s shoe upper layouts. Id.; see KSR, 550 U.S. at 417 (“[I]f a
technique has been used to improve one device, and a person of ordinary
skill in the art would recognize that it would improve similar devices in the
same way, using the technique is obvious unless its actual application is
beyond his or her skill.”).
b. Dependent Claims 2–9, 11, 12, 14–19, and 21
With respect to the challenged dependent claims, Petitioner argues
that Reed teaches or suggests the additional limitations recited in claims 9
and 19 (Pet. 29–31; see supra Section II.B.2.); that Nishida teaches or
suggests the additional limitations recited in claims 7, 12, 17, and 18 (Pet.
25, 31–32); and that that Reed and/or Nishida teaches or suggests the
additional limitations recited in claims 2–6, 8, 11, 14–16, and 21 (Pet. 19,
21–29, 31; see supra Section II.B.1.). Petitioner provides a detailed
mapping of the limitations of each of these dependent claims onto the
teachings of Reed and/or Nishida. See Ex. 1003, App’x A. Moreover,
Petitioner argues that a person of ordinary skill in the relevant art would
have had at least the same reason to combine the teachings of Reed and
Nishida to achieve the methods recited in these dependent claims, as that
given for combining the teachings of Reed and Nishida to achieve the
recited methods of the independent claims. See Pet. 11–13.
Although we have reviewed the entirety of Petitioner’s analysis and
evidence for both the independent and dependent claims, we highlight the
following specific evidence and arguments for emphasis. Claim 11 recites:
28

IPR2016-00922
Patent 8,266,749 B2
The method of claim 1, wherein simultaneously knitting
a textile element with a surrounding textile structure includes
forming the knitted textile element to include a first area and a
second area with a unitary construction, the first area being
formed of a first stitch configuration, and the second area being
formed of a second stitch configuration that is different from
the first stitch configuration to impart varying textures to a
surface of the knitted textile element.
Ex. 1001, 12:14–21 (emphasis added). Claim 21 depends from claim 13 and
recites substantially the same limitations as claim 11. Id. at 13:5–14:5.
Petitioner argues that Reed teaches these limitations in two ways.
Pet. 31. First, Petitioner argues that Reed teaches that the edges of the
garments 16, 18, 20, depicted in Reed’s Figure 1 (reproduced above) are
formed by interknitted stitches and that the remainder of the garments 16,
18, 20 are formed by non-interknitted stitches. Id. at 25 (citing Ex. 1003
¶¶ 115, 116 with respect to the limitations of claim 8). Specifically, the
seams or outlines of the garments 16, 18, 20 are formed with interknitted
stitches (shown in X’s and O’s in Reed’s Figure 2), which are formed by
feeds 1, 2, 3, and 4 on needles 7, 9, 8, and 10, as shown in Reed’s Figures
3B and 3D. Ex. 1006, 5:3–18, Figs. 3A–3E; see Ex. 1003 ¶ 115. Reed
further teaches that “two feeds[, i.e., feeds 1, 3 for the dial needles] are used
for one course of the inner tube 12 and two feeds[, i.e., feeds 2, 4 for the
cylinder needles] are used for the outer tube 14.” Ex. 1006, 4:61–64,
Figs. 2, 2A, 3A–3E; see id. at 5:67–6:3; Ex. 1003 ¶¶ 115, 116. Thus,
because the stitches create a texture different from the remainder of the
textile element, Petitioner concludes that Reed teaches “a first area and a
second area with a unitary construction.”
Second, Petitioner also argues that Reed teaches “how the two layers
12, 14 themselves may be formed of different yarns or stitch
29

IPR2016-00922
Patent 8,266,749 B2
configurations.” Pet. 26 (citing Ex. 1003 ¶ 117). In particular, Reed
describes the following:
If the two tubes 12 and 14 are knitted of two different
fibers, the knitted structure may form sections of a garment to
be assembled in the regular manner. For example, the outside
tube 14 may be a normal decorative fabric wherein the inner
tube 12 may be formed of material such as lining. By
simultaneously knitting and interknitting the two layers, a step
is saved by producing a section of garment which is prelined.
Similarly, the layer 12 (instead of being lining) may be
interfacing, which is attached to the outside layer 14 and again
saves a step in the manufacture of garments. Another example
where two different fibers are used to make the inner and outer
tubing would be in the foundation garment industry, where the
inner fabric could be cotton or other soft fibers and the outer
fabric would be lycra or elasticized yarns.
Ex. 1006, 3:61–4:8; see Pet. 26, 31; Ex. 1003 ¶ 117. Taking into account the
above-noted description, Petitioner alternatively argues that Reed’s separate
circular knitted tubes may be the first and second areas recited in claims 11
and 21.
Finally, Petitioner alternatively argues that Nishida also teaches the
limitation of “a first area and a second area with a unitary construction.”
Pet. 26–27, 31. In particular, Nishida teaches that “in the embodiment
according to FIGS. 1 and 2, with layout 2 on the web of material 1, areas 26
and 27 are produced in a configuration, color or style that is different from
the other areas.” Ex. 1009, 4:6–9 (emphasis added); see id. at Abstract,
1:65–69, 2:40–45, 3:15–26, 3:47–48, 4:12–28, 4:48–55, 5:56–6:2; Ex. 1003
¶¶ 118, 119. Nishida further states that:
[l]ayout 2 is divided into different individual parts or areas,
which differ from one another, such as by being of another
material style and/or by being of different fibers or yarns, for
30

IPR2016-00922
Patent 8,266,749 B2
example, from wool, wool with metal yarns, silk, silk with
metal yarns, wool with plastic fibers or the like . . . .
Ex. 1009, 3:15–25; see Ex. 1003 ¶ 121. Petitioner argues that Nishida’s
teachings achieve a textile element with multiple knit constructions. Pet. 27.
Specifically, these varying constructions of Nishida’s layout may achieve
varying elasticity, air permeability, absorptivity, softness, extensibility, wear
resistance, and appearance, which Petitioner argues teach the “varying
textures” recited in these claims. Id. (citing Ex. 1009, 3:43–52, 5:63–6:2,
6:1–31); see Ex. 1003 ¶¶ 120, 121. Thus, Petitioner argues that either Reed
or Nishida teaches the above-noted limitation. Petitioner, however, does not
specifically address the limitation’s requirement that the knitted textile
element is formed to include a first area and a second area “with a unitary
construction” or how Reed and/or Nishida teaches “a unitary construction.”
See Pet. 31; see also supra Section II.B.1. (construing “a first area and a
second area with a unitary construction” (Claims 11 and 21)).
Although we have highlighted specific evidence and arguments for
emphasis, we have reviewed the entirety of Petitioner’s analysis and
evidence for independent claims 1 and 13, as well for dependent claims 2–9,
11, 12, 14–19, and 21, and the supporting testimony of Mr. Holden. As
noted above, Petitioner relies on the same reasons to combine the teachings
of Reed and Nishida for its challenges to each of claims 1–9, 11–19, and 21
of the ’749 patent. See Pet. 11–13.
5. Patent Owner’s Contentions
Patent Owner raises seven separate contentions why Petitioner fails to
demonstrate that the combined teachings of Reed and Nishida render any of
claims 1–9, 11–19, and 21 of the ’749 patent unpatentable. See PO
31

IPR2016-00922
Patent 8,266,749 B2
Resp. 2–4. Because we find certain of the Patent Owner’s contentions
persuasive and dispositive, we do not address each of Patent Owner’s
separate contentions.
a. Low Level of Ordinary Skill in the Art
Patent Owner contends that Petitioner’s assessment of the level of
ordinary skill in the art is conclusory and is not based on the factors that the
Board has considered in determining the level of ordinary skill in the art. Id.
at 17–19. We have addressed the appropriate assessment of the level of
ordinary skill in the art above. See supra Section II.A. Whether the level of
ordinary skill in the art is “low” or “high” may make it more or less difficult
for Petitioner to demonstrate obviousness. PO Resp. 19 (“In sum, the level
of ordinary skill in the art at the time of the ’749 patent was low. It is more
difficult, therefore, for Petitioner to establish obviousness. . . .”); see Kinetic
Concepts, Inc. v. Smith & Nephew, Inc., 688 F.3d 1342, 1366 (Fed. Cir.
2012) (“Because it is generally easier to establish obviousness under a
higher level of ordinary skill in the art, we must assume that, in light of the
jury’s verdict, it adopted the lower level of skill proposed by S & N.”
(citation omitted)). However, a “low” relative level of skill alone cannot
prevent Petitioner from demonstrating obviousness.
Here, only Petitioner – the party bearing the burden of persuasion –
has proposed an assessment of the level of ordinary skill in the art. See
supra Section II.A.; but see IPR2013-00067, Ex. 2010 ¶ 52 (Patent Owner
proposed that a “POSITA . . . would have a few years of experience with
design and development of footwear and knowledge of textiles used in such
footwear”). For the reasons set forth above, we have adopted Petitioner’s
assessment. Further, as noted above, Petitioner’s declarant testifies from the
32

IPR2016-00922
Patent 8,266,749 B2
point of view of someone with the assessed level of skill, a level which the
declarant exceeds. See Ex. 1003 ¶ 36; Ex. 1004. Thus, regardless whether
the level of ordinary skill is deemed “low” or “high,” we are not persuaded
that the relative assessment of the level of ordinary skill in the art here
affects our evaluation of Petitioner’s arguments and evidence.
b. Weight Given to Declarant’s Testimony
Patent Owner contends that Petitioner’s declarant, Mr. Holden, did not
author his declaration and, during cross-examination, Mr. Holden was
unable to answer basic questions about the declaration, the patent at issue,
the prior art, footwear, and knitting technologies. PO Resp. 19; see
Ex. 2004, 12:2–18. Mr. Holden testified that “[he] worked with counsel one
on one to basically give her a verbal description of my opinions and -- and
my thoughts on the -- on these issues, and she did the actual typing of the
document.” Reply 3 (quoting Ex. 2004, 12:7–11); see Ex. 2004, 12:12–
13:16. Declarants often have assistance in authoring their declarations. See
Square, Inc. v. Think Computer Corp., Case CBM2014-00159, slip op. at
26–27 (PTAB Nov. 27, 2015) (Paper 47) (“the mechanics of declaration
preparation is ‘a waste of time, both for the witness and the Board’”).
Mr. Holden was not required to be the sole author of his declaration. Rather,
the relevant issue regarding the preparation of Mr. Holden’s declaration is
whether Mr. Holden adopted the content of his declaration as his own. Here,
he has. See Ex. 1003 ¶¶ 3, 4, 209.
As Patent Owner suggests, we weigh Mr. Holden’s declaration
testimony in light of his testimony on cross-examination. Although
Mr. Holden indicated that he was unable to define or was unfamiliar with
certain terms during cross-examination, he did name references, including
33

IPR2016-00922
Patent 8,266,749 B2
Spencer (Ex. 1010), that he could and would consult to obtain the answers to
specific questions. Tr. 63:20–64:13. Moreover, Patent Owner’s counsel
acknowledged that persons of ordinary skill in the art (or declarants) do not
have to have all of the knowledge relevant to their testimony in their heads
and that they are allowed to consult references, as appropriate. Id. at 63:20–
64:2. Although Patent Owner notes that Mr. Holden apparently was not
aware of Spencer until this inter partes review (see Ex. 2004, 77:1–3; Tr.
64:1–6), his learning of and relying on a new reference alone is not sufficient
reason to disregard, i.e., give no weight to, Mr. Holden’s testimony. Further,
the issue here is not whether Mr. Holden is a person of ordinary skill in the
art, but rather whether his testimony is of value to the panel. See Tr. 64:15–
18. Thus, as indicated in the discussion below, we determine the appropriate
weight to give to Mr. Holden’s testimony.
c. Failure to Explain How and Why a Person of Ordinary Skill in the
Art Would Have Combined the Teachings of Reed and Nishida to
Achieve the Recited Methods
Initially, Patent Owner contends that Petitioner fails to address the full
scope and content of the prior art and ignores critical disclosure of both
references. PO Resp. 24. In particular, Patent Owner notes that “Reed states
that his ‘present invention relates generally to knitted garments and more
particularly to a garment which is preseamed and preformed on a circular
knitting machine.’” Id. (quoting Ex. 1006, 1:8–11 (emphasis omitted)); see
Tr. 36:3–9. Patent Owner contends that this description of Reed’s “present
invention” limits the scope of Reed to preseamed garments made on circular
knitting machines. PO Resp. 24–25. Although this description may limit
the scope of Reed’s recited methods, the scope of Reed’s teachings is
broader than what Reed specifically refers to as the “present invention”
34

IPR2016-00922
Patent 8,266,749 B2
(Ex. 1006, 1:8–11) and encompasses “the conventional methods involv[ing]
superimposing two preexisting panels of material, forming a garment into
those preexisting panels, cutting the shaped garment from the two
preexisting panels, and then seaming the two cutouts together to create the
final garment” (PO Resp. 25 (citing Ex. 1006, 6:18–22)). See Reply 7
(quoting In re Heck, 699 F.2d 1331, 1332–33 (Fed. Cir. 1983) (“The use of
patents as references is not limited to what the patentees describe as their
own inventions or to the problems with which they are concerned. They are
part of the literature of the art, relevant for all they contain.” (citation
omitted))). Although Reed’s teachings may be broader than preseamed
garments and sections garments, Petitioner relies only on the embodiments
of Reed’s invention that are directed to preseamed garments and to
preseamed sections of garments. Pet. 14 (citing Ex. 1006, 1:58–64); Reply
6–8; see Tr. 9:17–10:7, 16:17–17:8, 25:17–26:21, 30:4–11.
With respect to Nishida, Patent Owner contends that Nishida’s web of
material has two primary components: a backing and one or more layouts
printed on or produced in the backing. PO Resp. 28–29 (citing Ex. 1009,
1:40–2:53, 3:6–26). The backing may be formed prior to the production of
the layouts. Id. Patent Owner notes that Nishida seeks to improve on
previously known methods for producing layouts, such as those described in
German Patent No. 627 878. Id. at 28. Nevertheless, the reference to the
German patent is exemplary, and we do not interpret Nishida as limited to
the methods described in the German Patent. See Ex. 1009, 1:39–46 (“to
further develop this previously known process”); Reply 8.
After the backing is formed, Nishida teaches printing on or producing
layouts in the backing. Ex. 1009, 3:13–15. The layouts are printed by a
35

IPR2016-00922
Patent 8,266,749 B2
fabric printing process onto the backing or produced by a textile production
process inside the backing. PO Resp. 29 (citing Ex. 1009, 1:50–56, 2:20–26,
3:13–15, 5:45–52); see Reply 9. “[T]he material can be woven or knitted in
two or more layers or can be especially thick or additionally embroidered.”
Ex. 1009, 3:66–4:1.
As noted above, each of the embodiments of Reed, relied upon by
Petitioner, describes the pre-seaming of garments or sections of garments
before their removal from the cylindrical textile structure. The teachings of
Nishida relied upon by Petitioner, do not teach pre-seaming and, instead,
teach the seaming of the upper layout after its removal from the web of
material. Ex. 1009, 4:19–30 (Figs. 2 and 3), 5:3–26 (Figs. 4 and 5); see
Pet. 24; PO Resp. 31; Tr. 45:2–46:8. Patent Owner contends that Petitioner
fails to explain why and how a person of ordinary skill in the art would
combine the teachings of Reed and Nishida to achieve the recited methods
of the challenged claims. PO Resp. 36–41. In particular, because Petitioner
relies on the teachings of the embodiments of Reed which describe preseamed garments and pre-seamed sections of garments and because Nishida
does not teach pre-seaming, Patent Owner contends that Petitioner has not
shown why and how a person of ordinary skill in the art would combine the
teachings of Reed and Nishida to achieve the recited methods of the
challenged claims. For the following reasons, we agree.
i.

Failure of Proof

Petitioner bears the burden of proving by a preponderance of the
evidence that the challenged claims are unpatentable. This includes
demonstrating by a preponderance of the evidence that a person of ordinary
skill in the art would have had reason to combine the teachings of Reed and
36

IPR2016-00922
Patent 8,266,749 B2
Nishida to achieve the methods recited in the challenged claims. As noted
above, Petitioner argues that a person of ordinary skill in the art would have
had at least three reasons to combine the teachings of Reed and Nishida to
achieve the methods recited in the challenged claims. Pet. 11–13; see Tr.
10:12–11:12. First, Petitioner argues that, because Reed teaches that its
methods are applicable to “all types of garments” (Ex. 1006, 5:56–57
(emphasis added); see Ex. 1003 ¶ 131), a person of ordinary skill in the art
would have had reason to apply the teachings of Reed to the processes and
shoe parts of Nishida. Pet. 12 (citing Ex. 1003 ¶ 133). Second, Petitioner
argues that, because both Reed and Nishida teach the advantages of reducing
cost through the use of computer-controlled knitting machines, a person of
ordinary skill in the art would have had reason to combine their teachings.
Id. at 13 (citing Ex. 1003 ¶¶ 134–135). Third, Petitioner argues that a person
of ordinary skill in the art would have had reason to apply Reed’s methods
for producing textile elements, from which to produce garments, to produce
Nishida’s shoe upper patterns. Id.; see KSR, 550 U.S. at 417. However,
none of these reasons or any other reason identified by Petitioner addresses
the differences between Reed and Nishida, specifically pre-seaming.
Independent claims 1 and 13 do not mention seaming or pre-seaming
expressly. See Ex. 1001, 11:43–52 (claim 1), 12:27–43 (claim 13). Further,
Patent Owner acknowledged that at least independent claims 1 and 13 do not
mention seaming or pre-seaming. Tr. 37:7–10. Claims 2–9, 11, 12, 14–19,
and 21 also do not mention seaming or pre-seaming expressly. See
Ex. 1001, 11:51–57, 12:7–20, 12:29–32, 12:41–48. As we noted above,
however, claims 11 and 21 recite “a unitary construction,” which “is
intended to express a configuration wherein portions of a textile element are
37

IPR2016-00922
Patent 8,266,749 B2
not joined together by seams or other connections.” Id. at 6:42–46. Thus,
we interpret the limitations of claims 11 and 21 to recite a textile element
having areas of different textures, but without seams. See supra
Section II.B.1. Moreover, under principles of claim differentiation, we
further are persuaded that the scope of challenged claims 1–9 and 12–19 is
broad enough to encompass methods related to both pre-seamed and
unseamed garments and garment sections. Nothing in the Specification
(Ex. 1001) or in the prosecution history (Ex. 1002) of the ’749 patent
overcomes the presumptive scope of the independent claims arising from the
doctrine of claim differentiation. See Kraft Foods, Inc. v. Int’l Trading Co.,
203 F.3d 1362, 1368 (Fed. Cir. 2000).
Neither Petitioner nor its declarant, Mr. Holden addresses the fact that
each of the relied upon embodiments of Reed teaches pre-seaming and that
none of the relied upon teachings of Nishida involves pre-seaming. PO
Resp. 36–41; see Tr. 34:17–35:12; see also Ex. 2004, 161:5–163:19
(Mr. Holden was unable to identify teachings in Nishida directed to preseamed and preformed uppers). Moreover, during cross-examination,
Mr. Holden acknowledged that he had not been asked to nor had he
considered how the teachings of these references could be combined. In
particular, the following colloquy occurred during Mr. Holden’s deposition:
Q. (By Mr. Harris) And isn’t it also true that nowhere in
your declaration do you describe how a person of ordinary skill
in the art would create a preseamed and preformed footwear
upper on a circular knitting machine?
MS. WILLIAMS: Objection.
THE WITNESS: I don't recall that there’s any por- -portion of that. Again, I was not asked to hypothesize on that
particular point.
38

IPR2016-00922
Patent 8,266,749 B2
Q. (By Mr. Harris) Okay. Just so I’m clear, you weren't
asked to offer an opinion on how a person of ordinary skill in
the art would create a preseamed and preformed footwear upper
on a circular knitting machine; correct?
A. I don’t recall that I was asked that particular question.
Q. Thank you.
Ex. 2004, 152:22–153:13; see Tr. 53:19–57:5.
In ActiveVideo Networks, Inc. v. Verizon Communications, Inc., our
reviewing court found that where “[t]he expert failed to explain how specific
references could be combined, which combination(s) of elements in specific
references would yield a predictable result, or how any specific combination
would operate or read on the asserted claims,” such testimony “is not
sufficient and is fraught with hindsight bias.” 694 F.3d 1312, 1327 (Fed.
Cir. 2012); see PO Resp. 58–60; Reply 27; see also Hyundai Motor Co. v.
Blitzsafe Texas, LLC, Case IPR2016-01476, slip op. at 32 (PTAB Jan. 24,
2017) (Paper 12) (“A determination of obviousness cannot be reached where
the record lacks ‘explanation as to how or why the references would be
combined to produce the claimed invention.’”; quoting Trivascular, Inc. v.
Samuels, 812 F.3d 1056, 1066 (Fed. Cir. 2016)). Despite Mr. Holden’s
testimony that a person of ordinary skill in the art would have had reason to
combine the teachings of Reed and Nishida to achieve the recited methods
of the challenged claims (see Ex. 1003 ¶¶ 131–137), Mr. Holden’s testimony
during cross-examination makes clear that he did not perform the necessary
analysis to support his conclusions. See 37 C.F.R. § 42.65(a).
Petitioner’s evidence, and, in particular, Mr. Holden’s testimony, is
deficient with respect to the limitations recited in claims 11 and 21, in that it
fails to offer any explanation why a person of ordinary skill in the art would
39

IPR2016-00922
Patent 8,266,749 B2
combine the teachings of Reed and Nishida to achieve a method in which
seams of the kind taught by Reed apparently are prohibited. Petitioner
argues that Reed teaches the “a unitary construction” limitation of claims 11
and 21 either because the interconnecting stitches are a different texture
from the rest of the garment or garment section or because the inner and
outer circular knit materials may have different textures. Pet. 25–29, 31.
Thus, Mr. Holden testifies in support that Reed’s interknitted stitches, i.e.,
the joining seams, teach textures different from the remainder of Reed’s
finished garments or garment sections (Ex. 1003 ¶¶ 114–116) or that circular
knit materials, although joined by seams, may have different textures (id.
¶ 117). These arguments and testimony seem inconsistent with Petitioner’s
position that either the finished garments or garment sections are the “textile
element” recited in the challenged claims and that, in claims 11 and 21,
the knitted textile element [is formed] to include a first area and
a second area with a unitary construction, the first area being
formed of a first stitch configuration, and the second area being
formed of a second stitch configuration that is different from
the first stitch configuration to impart varying textures to a
surface of the knitted textile element.
Pet. 19–20, 25–29, 31 (emphasis added); see Tr. 16:17–17:12. These
apparent inconsistencies are not explained.
Alternatively, Petitioner argues (Pet. 26–29, 31) and Mr. Holden
testifies (Ex. 1003 ¶¶ 118–121) that the limitations of claims 11 and 21 are
taught by Nishida. In particular, Mr. Holden testifies that Nishida describes
that, “in the embodiment according to FIGS. 1 and 2, with layout 2 on the
web of material 1, areas 26 and 27 are produced in a configuration, color
or style that is different from the other areas.” Id. ¶ 118 (quoting Ex. 1009,
4:6–9 (emphasis added by declarant)). Mr. Holden concludes from his
40

IPR2016-00922
Patent 8,266,749 B2
analysis of Nishida that “[a] person of ordinary skill in the art at least as of
March 3, 2004 would have understood that Nishida’s disclosure regarding
varying the knit of individual areas would include having a substantially
smooth texture in one area, and a rougher texture in another area.” Id. ¶ 121.
What Mr. Holden fails to explain, however, is how and why this teaching of
Nishida is combined with the teachings of the relied upon embodiments of
Reed to achieve the methods recited in claims 11 and 21. Petitioner and its
declarant rely instead on the general arguments presented in connection with
independent claims 1 and 13 regarding reasons to combine the teachings of
Reed and Nishida. Pet. 11–13; Ex. 1003 ¶¶ 131–137. Given the language of
the claims, our interpretation of that language, and the teachings of Reed and
Nishida, we find Petitioner’s arguments and evidence, especially
Mr. Holden’s testimony, insufficient and unpersuasive.
Consequently, having weighed Petitioner’s evidence of reasons to
combine the teachings of Reed and Nishida, noting the deficiencies in
Mr. Holden’s analysis in support of those reasons, we are not persuaded that
Petitioner has demonstrated by a preponderance of the evidence that a
person of ordinary skill in art would have had reason to combine the
teachings of Reed and Nishida to achieve the methods recited in the
challenged claims.
ii.

Combined Teachings of Reed and Nishida Render Reed
Inoperable for its Intended Purpose

As our reviewing court has explained,
“obviousness is a question of law based on several underlying
factual findings,” including what a reference teaches, and
whether proposed modifications would change a reference’s
“principle of operation.” Where “a patent claims a structure
already known in the prior art that is altered by the mere
41

IPR2016-00922
Patent 8,266,749 B2
substitution of one element for another known in the field, the
combination must do more than yield predictable results.”
{ "pageset": "S74a
However, combinations that change the “basic
principles under which the [prior art] as designed to
operate,”
or that render the prior art “inoperable
for its intended purpose,” may fail to support a conclusion of
obviousness.
Plas-Pak Industries, Inc. v. Sulzer Mixpac AG, 600 F. App’x 755, 757–758
(Fed. Cir. 2015) (citations omitted, emphasis added).
As noted above, we find that the fundamental purpose of Reed’s
methods is to produce pre-seamed, finished garments or sections of
garments. E.g., Ex. 1006, 1:58–64, 3:8–21, 5:67–6:17; see supra
Section II.C.2. As Reed explains, “[t]he essence of the present invention is a
garment formed of juxtaposed sections of simultaneously knitted, concentric
tubes interconnected by knitting.” Ex. 1006, 6:25–28 (emphases added). As
we also note above, the methods recited in challenged claims 1–9 and 12–19
do not specify whether or not the textile elements are pre-seamed. Thus, we
interpret those claims broadly to cover both pre-seamed and unseamed
textile elements.
As discussed above, however, claims 11 and 21 are interpreted to
describe “a unitary construction,” which does not include seams. See supra
Section II.B.1. Thus, “a unitary construction” does not appear to read on
Reed’s pre-seamed, finished garment or garment section. Further, Petitioner
does not argue that, like Reed, Nishida teaches pre-seamed uppers or
sections of uppers or tongues. Consequently, we determine that, relying on
Nishida’s teachings to supply the “unitary construction” limitation with
respect to claims 11 and 21 in the context of the teachings of Reed, as
Petitioner suggests (Pet. 26–29, 31), would require the alteration of the
42

IPR2016-00922
Patent 8,266,749 B2
principles of operation of Reed or would render Reed inoperable for its
intended purpose.
In response to Patent Owner’s contention that Petitioner’s
combination of the teachings of Reed and Nishida renders Reed inoperable
for its intended purpose, Petitioner argues that a person of ordinary skill in
the art would understand that
[t]o produce two single-layer layouts, the POSITA would
simply cut along the garment side of stitches 22, 24
(highlighted in red below) so that all seams remain with the
surrounding tube material, and the two layouts are no longer
connected to each other after removal from the tubes 12, 14.
Reply 18–19 (citing Ex. 1006, 3:9–15, 5:67–6:3; Ex. 1003 ¶¶ 103, 112). In
particular, Petitioner produces the following annotated version of Reed’s
Figure 1.

Reply 19. Petitioner has annotated Reed’s Figure 1 to add red lines
indicating cut lines on the garment inside of stitches 22, 24. As depicted in
annotated Figure 1, Petitioner argues that the finished garments or garment
sections could be cut from the textile structure inside of the seams, as
indicated by the red lines. Id. According to Petitioner, “[t]he two separated
43

IPR2016-00922
Patent 8,266,749 B2
layouts are then processed and seamed along the edges, as described in both
Reed and Nishida.” Id. (emphasis added). Nevertheless, Petitioner provides
no explanation of why a person of ordinary skill in the art would have reason
to seam the garments or garment sections, only then to remove the seams, so
that the garments or garment sections could be reseamed later. Id. at 18–19;
see Tr. 59:21–60:12, 68:20–70:21.11 We find these arguments contrary to
the teachings of Reed and unpersuasive.
Consequently, with respect to challenged claims 11 and 21, we find
that Petitioner’s proposed combination of the teachings of Reed and Nishida
would render Reed either inoperable or unsuitable for its intended purpose.
Thus, we are not persuaded that Petitioner has demonstrated by a
preponderance of the evidence that a person of ordinary skill in art would
have had reason to combine the teachings of Reed and Nishida to achieve
the methods recited in challenged claims 11 and 21.
6. Summary
Based on our review of the arguments and evidence presented by each
party, we conclude that Petitioner fails to demonstrate by a preponderance of
the evidence that either of independent claims 1 and 13 is unpatentable as
rendered obvious by the combined teachings of Reed and Nishida.

11

Petitioner’s counsel argue that Reed’s seams may be used as an outline,
but we do not find that Reed teaches that cuts are taught inside the outline to
remove the seam from the garment section. Ex. 1006, 3:9–12
(Interconnected knitted stitches form both an outline and a seam joining the
inner and outer tubes.); see Tr. 70:2–21. Cutting inside the seams of a
finished garment would change a finished garment into an unfinished
garment or a seamed garment section into an unseamed garment section and
would appear entirely contrary to the teachings of Reed. See Ex. 1006,
3:15–21.
44

IPR2016-00922
Patent 8,266,749 B2
Moreover, at least because Petitioner’s arguments for the obviousness of
dependent claims 2–9, 11, 12, 14–19, and 21 over Reed and Nishida rely on
the arguments and evidence presented with respect to independent claims 1
and 13, we also conclude that Petitioner fails to demonstrate by a
preponderance of the evidence that any of the dependent claims is
unpatentable as rendered obvious by the combined teachings of Reed and
Nishida. We further determine that for the additional reasons set forth
above, Petitioner fails to demonstrate by a preponderance of the evidence
that claims 11 and 21 are rendered obvious by the combined teachings of
Reed and Nishida. 12
III. SUMMARY
We are not persuaded that Petitioner demonstrates by a preponderance
of the evidence that any of claims 1–9, 11–19, and 21 of the ’749 patent is
rendered obvious over the combined teachings of Reed and Nishida.
IV. ORDER
It is, therefore,
ORDERED that, pursuant to 35 U.S.C. § 318(a), Petitioner fails to
demonstrate by a preponderance of the evidence that any of claims 1–9, 11–
19, and 21 is unpatentable as rendered obvious over the combined teachings
of Reed and Nishida; and
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.
12

Patent Owner also contends that Reed teaches away from its combination
with Nishida (PO Resp. 46–48; but see Reply 19–20), in view of our
determinations above, we need not reach this contention.
45

Trials@uspto.gov
571-272-7822

Paper 21
Entered: October 19, 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
_____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
adidas AG,
Petitioner,
v.
NIKE, Inc.,
Patent Owner.
____________
Case IPR2016-00922
Patent 8,266,749 B2
____________

Before JOSIAH C. COCKS, MICHAEL J. FITZPATRICK, and
JAMES B. ARPIN, Administrative Patent Judges.
FITZPATRICK, Administrative Patent Judge, concurring.
I concur with the majority’s decision that Petitioner did not meet its
burden under 35 U.S.C. § 318(a) to prove by a preponderance of the
evidence that the challenged claims are unpatentable. I would reach that
decision, however, merely for the reasons set forth below.

IPR2016-00922
Patent 8,266,749 B2
Reed did not invent circular knitting. Reed notes that “[c]ircular
knitting machines have been used to make tubular, knitted garments, such as
ladies’ stockings, sweaters and other garments.” Ex. 1006, 1:33–35. Reed
explained further that “[i]n these tubular garments, the user’s anatomy is in
the center of the single tube.” Id. at 1:35–37. Reed further explained that
circular double knitting, in which two tubes or layers are simultaneously
knitted, was also known in the prior art. Id. at 1:37–39 (“‘Two tube,’
‘double layer,’ ‘Bi-knit’ and ‘duo-fold’ fabrics have been produced on
circular knitting machines.”). As with circular knit single-tube garments, the
tubes of circular knit double-tube garments surrounded the anatomy of the
user. Id. at 1:39–44.
What Reed invented was circular double knitting of garments in
which “the anatomy of the user would fit between the single knitted fabrics
instead of in the center of the tubes.” Id. at 1:67–2:1. Figure 1 of Reed is
reproduced below.

2

IPR2016-00922
Patent 8,266,749 B2
Figure 1 of Reed, reproduced above, shows a doubled-layered tube of
knitted structure 10 as it would come off a circular knitting machine in
accordance with a preferred embodiment of Reed. Id. at 2:66–3:3. “[T]ubes
12 and 14 are simultaneously knitted concentrically on a circular double knit
machine.” Id. at 3:3–5. The tubes are stitched together along
interconnecting knitting 22, thereby forming the outline of three skirts 16,
18, and 20 that are subsequently cut out from the knitted structure. 13 Id. at
3:8–21. Reed explains:
[T]he knitted structure 10 includes (around its circumference) a
plurality of finished garments [i.e., three skirts] which need
only be severed from the structure 10 and turned inside out if a
hidden seam is desired. Only a minimum amount of additional
sewing is required to form hems and attach various decorative
ornaments to complete a finished garment.
Id. at 3:15–21. Reed states that its invention “produce[s] a preformed and
preseamed fabric on a circular knitting machine so as to reduce time, cost
and labor involved in making garments.” Id. at 6:20–22.
As stated in the majority opinion, Nishida is directed to the production
of a shoe upper by (1) cutting out a layout in the form of the shoe upper from
a web of material and (2) shaping the shoe upper by connecting material
parts of the layout by the formation of seams. See Ex. 1009, Abstract; see
also id. at Fig. 2 (illustrating layout of shoe upper on web of material).
Petitioner argues the following:
Reed’s explicit statement that “[t]he present invention
may be used to form all types of garments worn by men,
women and children” (Ex. 1006, 5:56–57) in combination with
13

The tubes also are stitched together along interconnecting knitting 24, but
that “is merely to define the lower outline of the skirt upon which the pattern
may be cut.” Ex. 1006, 3:12–15.
3

IPR2016-00922
Patent 8,266,749 B2
Reed’s explicit reference to the fact that footwear items, such as
stockings, were conventionally knit with circular knitting
machines (Ex. 1006, 1:33–44), would have suggested to a
person of ordinary skill in the relevant art at least as of March 3,
2004, that Reed’s process could be used to form all types of
articles of clothing including footwear, particularly since
“clothing” is understood to refer to all things that people wear
to cover their bodies. (Ex. 1003, ¶131.) Specifically, the skilled
person would have understood Reed’s reference to “all types of
garments” to include tops, pants, shorts, skirts, dresses, suits,
outerwear, underwear, footwear, headwear, nightwear,
swimwear, and accessories (such as headbands, scarves,
bandanas, handkerchiefs, neckties, gloves, cummerbunds, etc.).
(Ex. 1003, ¶131.)
With this understanding, the skilled person would have
been motivated to use Reed’s process to produce textile
elements for all types of clothing, including forming textile
elements to be incorporated into footwear as described in
Nishida. (Ex. 1003, ¶132.)
The skilled person would have found Nishida’s process
of manufacturing textile elements to be analogous art to Reed’s
process, as both are directed to methods of simultaneously
forming textile elements within a surrounding textile structure
using programmable and/or computerized single needle
selection technology, removing the textile elements, and
incorporating the textile elements into a wearable item.
(Ex. 1003, ¶133.)
Pet. 11–12.
Petitioner’s reasons to combine the prior art teachings are not
persuasive. It is true that Reed states that its invention “may be used to form
all types of garments” (Ex. 1006, 5:56–57), but that does not mean Reed
provides a reason to use it in forming any specific type of garment, let alone
part of a shoe. Petitioner attempts to provide such a reason by relying, not
on a stated purpose of Reed’s invention (which is what Petitioner asserts in
4

IPR2016-00922
Patent 8,266,749 B2
its obviousness challenge), but rather on what circular knitting machines
traditionally had been used for prior to Reed’s invention. See Pet. 12. More
specifically, Petitioner relies on Reed’s statement that, prior to Reed, circular
knitting machines were used “to make tubular, knitted garments, such as
ladies’ stockings, sweaters and other garments.” Ex. 1006, 1:33–35
(emphasis added); see also Pet. 12 (referring to “stockings” and citing
Ex. 1006, 1:33–44). Petitioner extrapolates Reed’s reference to “stockings”
to footwear and then further to an upper of a shoe. However, there is an
evidentiary gap jumping from “stockings” to footwear and an additional
evidentiary gap subsequently jumping from footwear generally to a shoe’s
upper specifically. The cited testimony of Petitioner’s declarant does not fill
those gaps. It is merely repetitive of the arguments block-quoted above.
Compare Pet. 11–12, with Ex. 1003 ¶¶ 131–33.
Nor could I fill those gaps if I wanted. To summarize, Reed
(1) acknowledges that circular knitting of tubular garments in which the
anatomy is placed inside a resulting tube of knitted structure was known
prior to Reed; and (2) describes its invention of double circular knitting
garments in which the anatomy is placed between layers of the resulting
tube. See, e.g., Ex. 1006, 3:25–31. Nishida’s upper (see, e.g., Ex. 1009,
Fig. 2) is neither a “tubular garment” that could be made using a pre-Reed
circular knitting method (see Ex. 1006, 1:33–37) nor a garment that could be
“produce[d as] a preformed and preseamed fabric on a circular knitting
machine” using Reed’s invented circular knitting method (see id. at 6:20–
22).

5

IPR2016-00922
Patent 8,266,749 B2
For these reasons, I concur with the majority’s decision that Petitioner
did not meet its burden under 35 U.S.C. § 318(a) to prove by a
preponderance of the evidence that the challenged claims are unpatentable.

6

IPR2016-00922
Patent 8,266,749 B2
PETITIONER:
Mitchell G. Stockwell
Vaibhav P. Kadaba
Tiffany L. Williams
KILPATRICK TOWNSEND & STOCKTON LLP
mstockwell@kilpatricktownsend.com
wkadaba@kilpatricktownsend.com
tiwilliams@kilpatricktownsend.com
PATENT OWNER:
Christopher J. Renk
Michael J. Harris
BANNER & WITCOFF, LTD
crenk@bannerwitcoff.com
mharris@bannerwitcoff.com
bwlitdocket@bannerwitcoff.com

7

